<html>
<title> - DEVELOPMENTS AND OPPORTUNITIES IN U.S. FISHERIES MANAGEMENT</title>
<body><pre>[Senate Hearing 113-99]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 113-99
 
      DEVELOPMENTS AND OPPORTUNITIES IN U.S. FISHERIES MANAGEMENT

=======================================================================

                                HEARING

                               before the

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                                 of the

                         COMMITTEE ON COMMERCE,

                      SCIENCE, AND TRANSPORTATION

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 19, 2013

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





                  U.S. GOVERNMENT PRINTING OFFICE
85-319                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
BARBARA BOXER, California            JOHN THUNE, South Dakota, Ranking
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
FRANK R. LAUTENBERG, New Jersey      MARCO RUBIO, Florida
MARK PRYOR, Arkansas                 KELLY AYOTTE, New Hampshire
CLAIRE McCASKILL, Missouri           DEAN HELLER, Nevada
AMY KLOBUCHAR, Minnesota             DAN COATS, Indiana
MARK WARNER, Virginia                TIM SCOTT, South Carolina
MARK BEGICH, Alaska                  TED CRUZ, Texas
RICHARD BLUMENTHAL, Connecticut      DEB FISCHER, Nebraska
BRIAN SCHATZ, Hawaii                 RON JOHNSON, Wisconsin
WILLIAM COWAN, Massachusetts
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                     John Williams, General Counsel
              David Schwietert, Republican Staff Director
              Nick Rossi, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
                                 ------                                

            SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, 
                            AND COAST GUARD

MARK BEGICH, Alaska, Chairman        MARCO RUBIO, Florida, Ranking 
BILL NELSON, Florida                     Member
MARIA CANTWELL, Washington           ROGER F. WICKER, Mississippi
FRANK R. LAUTENBERG, New Jersey      KELLY AYOTTE, New Hampshire
RICHARD BLUMENTHAL, Connecticut      DAN COATS, Indiana
BRIAN SCHATZ, Hawaii                 TIM SCOTT, South Carolina
WILLIAM COWAN, Massachusetts         TED CRUZ, Texas


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 19, 2013...................................     1
Statement of Senator Begich......................................     1
Statement of Senator Rubio.......................................     2
Statement of Senator Cantwell....................................    31
Statement of Senator Cowan.......................................    33
Statement of Senator Blumenthal..................................    63

                               Witnesses

Hon. Charles E. Schumer, U.S. Senator from New York..............     4
Robert Beal, Executive Director, Atlantic States Marine Fisheries 
  Commission.....................................................     6
    Prepared statement...........................................     8
Randy Fisher, Executive Director, Pacific States Marine Fisheries 
  Commission.....................................................    13
    Prepared statement...........................................    14
Dave Donaldson, Assistant Director, Gulf States Marine Fisheries 
  Commission.....................................................    18
    Prepared statement...........................................    20
Hon. Eric C. Schwaab, Assistant Administrator for the National 
  Marine Fisheries Service, National Oceanic and Atmospheric 
  Administration, U.S. Department of Commerce....................    23
    Prepared statement...........................................    25
James J. Gilmore, Director, Bureau of Marine Fisheries, New York 
  State Department of Environmental Conservation.................    39
    Prepared statement...........................................    41
Emerson C. Hasbrouck, Marine Program Director, Emeritus Senior 
  Natural Resources Specialist, Cornell University Cooperative 
  Extension Marine Program.......................................    45
    Prepared statement...........................................    47
Thomas P. Fote, Legislative Chairman, Jersey Coast Anglers 
  Association and New Jersey Federation of Sportsmen's Clubs.....    52
    Prepared statement...........................................    54

                                Appendix

Hon. John D. Rockefeller IV, U.S. Senator from West Virginia, 
  prepared statement.............................................    71
Hon. Brian Schatz, U.S. Senator from Hawaii, prepared statement..    71
Larry B. Simpson, Executive Director, Gulf States Marine 
  Fisheries Commission, prepared statement.......................    72
Response to written questions submitted by Hon. John D. 
  Rockefeller IV to:
    Robert Beal and answered by the Atlantic States Marine 
      Fisheries Commission.......................................    75
    Randy Fisher.................................................    83
    David Donaldson..............................................    84
Response to written questions submitted by Hon. Mark Begich to 
  David Donaldson................................................    84
Response to written question submitted to Hon. Eric C. Schwaab 
  by:
    Hon. John D. Rockefeller IV..................................    85
    Hon. Maria Cantwell..........................................    86
    Hon. Amy Klobuchar...........................................    87
    Hon. Mark Begich.............................................    91
    Hon. Brian Schatz............................................    93
    Hon. William Cowan...........................................    94
    Hon. Marco Rubio.............................................    97


      DEVELOPMENTS AND OPPORTUNITIES IN U.S. FISHERIES MANAGEMENT

                              ----------                              


                        TUESDAY, MARCH 19, 2013,

                               U.S. Senate,
Subcommittee on Oceans, Atmosphere, Fisheries, and 
                                       Coast Guard,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:30 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Mark Begich, 
Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you very much. We'll call this 
hearing to order, the first of the Subcommittee on Oceans, 
Atmosphere, Fisheries, and Coast Guard in the 113th Congress.
    Welcome to the witnesses and the audience. We appreciate 
you being here. I want to acknowledge the new Ranking Member, 
Senator Rubio, and welcome his shared desire about developing 
an active schedule for the Subcommittee this year. Thank you 
very much for being here.
    We have no lack of important issues we want to face and 
discuss this session: ensuring adequate budgets for Coast Guard 
and NOAA to do their important work, responding to the needs of 
the changing Arctic and strength in our nation's fisheries, 
addressing marine debris and the other challenges facing our 
oceans, other concerns and legislation brought by other 
subcommittee members, and overall, the pending reauthorization 
of the Magnuson-Stevens Act.
    And let me just say just a couple things on that so people 
will have a sense of where we will go on that. As we know, 
there are many complex issues with the Magnuson-Stevens Act. As 
we get ready for reauthorization, we're going to take a 
deliberative process in examining the many issues. We're going 
to welcome comments from all the different stakeholders, 
fisheries councils, fishermen, processors, the public, as well 
as many other organizations. We plan to hold a series of 
hearings, we haven't set the schedule, that will reach out 
across the nation to touch bases with folks who are doing 
fishing all across this great nation, and the upcoming Managing 
Our Nation's Fisheries 3 conference in May will be a good start 
to this process.
    Today's hearing will provide an overview of 
interjurisdictional marine fisheries management examining the 
extent to which states and the Federal Government are 
effectively coordinating the conservation and management of 
shared fishery resources. We'll have testimony from Federal and 
state and intergovernment partners and stakeholders to explore 
recent developments, emerging opportunities, and ongoing 
challenges for interjurisdictional fisheries management and the 
role of the regional marine fisheries commissions in the 
process.
    Senator Schumer raised some concerns over this and 
particularly in reference to the management of the summer 
flounder fisheries off his shores, and we welcome Senator 
Schumer here today to be at the dais with us to participate.
    We understand this is a longstanding issue, and we welcome 
the perspectives of this today from the National Marine 
Fisheries Service, the Atlantic States Marine Fisheries 
Commission, and the states of New York and New Jersey. Also, 
welcome representatives of the Pacific and Gulf States and 
marine fisheries commissions for their comments on how the 
process is working for them and how it affects their states.
    Today's hearing is also an opportunity to look at the 
broader implications of the Interjurisdictional Fisheries Act 
and other such legislation. It is also an opportunity to touch 
on other issues such as seafood traceability. I've introduced 
Senate bill 520 to crack down on the problem of seafood fraud 
and look forward to learning about the traceability issues from 
the experiences of the Gulf States Marine Fisheries Commission.
    I welcome David Donaldson of the Gulf States Commission and 
look forward to his thoughts on how this worked out. I look 
forward to all the testimony here today.
    Let me first ask the Ranking Member, Senator Rubio, and 
again, we welcome him to the Subcommittee. This is his, as my, 
first one for this year, and we welcome him, and then I'll ask 
Senator Schumer to say a few words.

                STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. Thank you, Chairman. I'm honored to be here 
in this new capacity. I believe that many of the issues we're 
going to address in the Subcommittee are of great importance to 
my state, to the state of Florida, and actually to the country, 
and I look forward to working with you on it.
    Just to highlight the importance of what the work we're 
going to be about here is that, you know, commercial and 
recreational fishermen, of which I consider myself one, a 
recreational fisherman, are a vital component of our national 
economy and a critical component of Florida's economy. In 2011 
alone, the commercial seafood industry supported approximately 
1.2 million full and part-time jobs in the United States, and 
in the same year, there were 11 million recreational saltwater 
fishermen who help support over 450,000 jobs and generate over 
$70 billion in sales. In my state alone, recreational saltwater 
fishing has an economic impact of $5.7 billion supporting more 
than 54,000 jobs. Our commercial saltwater fishing industry 
provides more than 100,000 jobs in Florida. This industry is 
not just a job creator, it helps drive our thriving tourism 
business, one of the top industries in Florida.
    However, the fishing industry faces many challenges, and as 
you will hear from the witnesses today, some of these 
challenges are uniquely regional.
    However, there are common needs among all of our nation's 
fisheries, and I believe that there is one fundamental need 
that requires immediate attention by both stakeholders, NOAA, 
and Members of Congress, and that's the need to increase the 
frequency, the accuracy, and the validity of the science that 
we use as the basis for every single fishery management 
decision in Florida, in the Gulf, in the South Atlantic, and 
all across our nation's coastlines.
    This data collection starts first with benchmark stock 
assessments. By having up-to-date information on the status of 
the stock, we can avoid conservative quotas that limit fishing 
trips for both commercial and recreational fishermen.
    In May of this year, we expect to have the first stock 
assessment in over 5 years for the red snapper fishery in the 
Gulf of Mexico, and many anticipate this assessment is going to 
show a healthier and larger fishery. I hope so.
    However, as dictated by the Magnuson-Stevens Act, our 
fishery management council in the gulf could not wait for this 
assessment to manage their fishery. In fact, they've been 
forced to make difficult decisions regarding the length of the 
Federal season for the red snapper fishery despite the lack of 
up-to-date information on the status of the stock. We're seeing 
firsthand in the gulf how this lack of data has significant 
implications for fishery management. Louisiana and Florida, for 
the first time in a long time, are moving forward with state 
seasons that do not match the short 27-day Federal season, and 
these states are doing so out of sheer frustration with the 
Federal management process. Fishermen are seeing more and more 
red snapper every day as the Federal season becomes shorter and 
shorter. And while a shorter season is largely the result of 
our fishermen catching bigger fish, our management decisions 
are being based on old data that does not accurately reflect 
the health of the stock.
    From the testimony we're going to hear today, it sounds 
like our friends in the Atlantic are experiencing similar 
difficulties, and I believe we are only touching the tip of the 
iceberg, no pun intended, on how the lack of data in the gulf 
is going to impact, not only our fishermen, but the fisheries 
themselves as we're confronted with mismatched regional 
management with multiple conflicting authorities.
    Today, I hope to hear from NOAA how they're addressing this 
infrequency and overall inadequacy of the data that drives our 
management system, and I'd also like to hear from each of the 
representatives from the regional commissions what they see is 
the data gaps that need to be filled.
    Finally, I'd like to have a better understanding as to some 
alternative management plans, such as what exists for the 
summer flounder in the Atlantic.
    While many of the specific issues we're reviewing today are 
regional issues, it does not mean that we cannot draw on the 
lessons learned as we examine management of our fisheries 
nationwide.
    I may have to step out for a previously scheduled 
engagement before our second panel is able to testify, but I 
have read their testimony, and I have some questions, for the 
record, but with that, Mr. Chairman, I want to thank you for 
holding this hearing, and I look forward to the testimony.
    Senator Begich. Thank you very much, Senator Rubio. Let me 
turn to Senator Schumer.

             STATEMENT OF HON. CHARLES E. SCHUMER, 
                   U.S. SENATOR FROM NEW YORK

    Senator Schumer. Well, thank you.
    First, on behalf of New York's fishermen, I really want to 
thank you, Mr. Chairman. I had asked you to hold this hearing, 
at least part of the hearing, on our problems in the Atlantic 
and you did, and we are all very appreciative. And I want to 
thank Senator Rubio, you move up fast in seniority, and he's 
already a Ranking Member of a very significant committee. I 
sincerely appreciate that in your first hearing in this 
Congress, you have both agreed to include our decade-long fight 
to bring fairness, flexibility, and accountability in the 
management of summer flounder, or fluke, as we call it in New 
York.
    The three of us come from very diverse states with 
different fishing issues. I know, Mr. Chairman, that Alaska's 
dealing with some difficult challenges facing the salmon 
industry. I also know the same goes for you, Senator Rubio, 
with respect to red snapper.
    But one thing we can all agree on is that the fisheries of 
America need to be governed by two core principles; fairness 
for our fishermen and an adherence to the best science and data 
we have available.
    Unfortunately for New York today, neither of those two core 
principles prevail when it comes to our most prize summer fish, 
the fluke. You see, Mr. Chairman, the fluke is the crown jewel 
of New York's waters. One third of all New York recreational 
fishermen reported that they went fishing for fluke last year. 
I do it myself and enjoy it ever since my Uncle Al would take 
me out in Sheepshead Bay on the Amberjack to go fishing for 
fluke and blues. And every year, thousands of recreational and 
commercial fishermen from New York City to Montauk, young and 
old, anxiously await the news from regulators what the size and 
catch limits will be. But despite the fact that fluke is one of 
the most abundant and popular New York fish stocks, our anglers 
have been the victim of an outdated management system that 
gives us a disproportionately small share of the total 
allocation. New York anglers are getting short shrift, plain 
and simple.
    The two New York witnesses you will hear from today, and I 
appreciate their coming, Emerson Hasbrouck of Cornell and Jim 
Gilmore of the New York State DEC, will go through the history 
of how we got here in more detail. I've worked with them on 
this issue for years and thank them for being here today.
    Here's the bottom line, New Jersey receives nearly 40 
percent of the total recreational fluke quota. New York 
receives only 17.6 percent, forcing our regulators to keep 
catch limits unnecessarily high. If you're a New York angler 
sitting on the Raritan Bay, that's the water between Staten 
Island and Union Beach, New Jersey, you have a higher size 
limit and lower bag limit than a New Jersey fisherman just a 
few yards away from you just because you took off from the 
shores of different states. In 2009, for example, the 
difference was three whole inches. Even an average fluke 
fisherman will tell you that this can be the difference between 
catching a keeper to bring home and eat or going home empty-
handed for the day. This creates a disincentive for anglers to 
patronize our fishing businesses and charter boats in New York 
costing us jobs and economic activity, and just like in Florida 
and in Alaska, it's a huge industry. In fact, the statistic I 
like, what are the three top states in ownership of pleasure 
boating craft? First, you'll be happy to know, Ranking Member 
Rubio, is Florida, second, I mean, people miss this, is 
Michigan, but third is New York. We're way up there in this 
regard.
    So, what's happened is there's a disincentive for anglers 
to patronize our fishing boat businesses and charter boats, as 
I mentioned, and it costs us jobs and economic activity, and 
the situation is just as bad for a large and important New York 
commercial fishing industry. Back when the current management 
system was being developed in the late 1990s, New York 
commercial fishermen used a different method of calculating 
landings than other states. To be quite honest, we did a bad 
job of keeping records. This artificially made our catch seem 
lower despite the fact that New York ports famously brought in 
as much fluke as in any other state. The consequence of this 
inequity has been dire. Commercial fishing boats from other 
states now sit side by side with New York boats, catch double 
the amount of fluke, land them back in their own states, 
stealing valuable resources and economic activity from our 
ports. I believe you'll hear today that this is not a 
scientifically viable or economically fair way to manage the 
species in 2013.
    So for a decade, I've made fixing this interstate 
allocation system for summer flounder one of my top priorities. 
I've written letters and convened meetings with high ranking 
NOAA officials to discuss the issue in New York. NOAA 
Administrator Lubchenco came up to New York and heard directly 
from our fishermen. We've talked with Acting Administrator 
Schwaab, as well. I even requested a GAO investigation in 2011, 
but unfortunately, these efforts have provided little relief, 
to date, so we find ourselves with only one remaining course of 
action, legislative changes.
    So, thanks to you, Mr. Chairman, and you, Ranking Member 
Rubio, we're shining a national spotlight on one of the gravest 
problems facing New York's fishing industry, the inequitable 
treatment compared to our neighbors, and I'm glad that New York 
fishermen are finally getting the chance to discuss the 
problems they face today, and we're taking the first steps 
toward reform of a broken system that costs New York's fishing 
industry jobs.
    I'd urge the Committee to consider the expert testimony 
here today from our New York witnesses as a summation of the 
pain felt by thousands of New York fishermen and businesses for 
a decade. I've heard it firsthand for years. Whenever I go to 
parades or fairs on Long Island, this is one of the most 
frequent issues brought up. And while it is for too long been 
unaddressed, it's fitting that Congress will soon be faced with 
the task of reauthorizing Magnuson-Stevens, and I am committed 
to assuring that this problem be fixed, either administratively 
or legislatively, so there's no better time for New York to be 
heard during the Magnuson reauthorization process.
    I'm going to watch the councils and commissions like a hawk 
to see if they live up to their requirements to manage fish 
stocks fairly and equitably, and if they can't, I hope the 
Congress will.
    I really thank the Chairman, the Ranking Member, for this 
wonderful opportunity that we've been waiting for, for a long 
time.
    Senator Begich. Thank you very much, Senator Schumer. Thank 
you, again, to the panel. I'm going to start with Mr. Beal, 
then we'll kind of move this way.
    Mr. Beal is the Executive Director of the Atlantic States 
Marine Fisheries Commission. Thank you very much for being 
here.
    You got--just go and push the--is it on?
    Mr. Beal. I think it's on now.
    Senator Begich. There you go. You're on.

 STATEMENT OF ROBERT BEAL, EXECUTIVE DIRECTOR, ATLANTIC STATES 
                  MARINE FISHERIES COMMISSION

    Mr. Beal. Great. Thank you.
    Good morning, Mr. Chairman and members of the Subcommittee. 
I'm Bob Beal, the Executive Director of the Atlantic States 
Marine Fisheries Commission. The commission was formed in 1942 
by the 15 Atlantic coastal states in recognition that the 
states working cooperatively can accomplish a lot more than 
they can and when acting individually.
    It's a particular pleasure to appear before the 
Subcommittee today to highlight our successes, challenges, and 
opportunities. While the Commission was formed more than 70 
years ago, the formal management at ASMFC really began in 1984 
with the passage of the Atlantic Striped Bass Conservation Act 
followed by the Atlantic Coastal Fisheries Cooperative 
Management Act in 1993. These two laws provide the Commission 
the authority to require states to implement provisions of each 
fishery management plan.
    The Commission has achieved many great successes. The 
restoration of Atlantic striped bass is recognized as one of 
the greatest fisheries success stories worldwide. The 
Commission collaborated with NOAA Fisheries, the U.S. Fish and 
Wildlife Service, and stakeholders to begin the recovery of the 
collapsed stock in the mid 1980s, and by 1995, the stock was 
fully recovered. This recovery is the result of the renewed 
recreational and commercial fishing opportunities as well as 
hundreds of millions of dollars in economic activity for 
coastal communities.
    In addition to the restoration of striped bass, the 
Commission's member states have worked with their Federal 
partners, the three east coast regional fishery management 
councils, and stakeholders to rebuild many species, such as 
summer flounder, spiny dogfish, bluefish, scup, and Spanish 
mackerel. The Commission also maintains an active lobster 
management program which has generated over $400 million in 
espousal value in 2011.
    The fiscal resources available to the Commission have been 
nearly static and diminished in a number of areas over the last 
decade; however, the demands of stakeholders, the necessary 
rigor of stock assessments, and the simple costs of 
administering and maintaining the Commission process has 
increased significantly.
    The Commission process is extremely efficient and produces 
a high return on investment. With a budget of under $10 million 
annually, the Commission manages 25 species of fish that 
generate billions of dollars of economic activity from Maine 
through Florida.
    Recent Federal budgets and budget proposals have 
significantly reduced funding for the Interjurisdictional 
Fisheries Act and the councils and commissions. These funding 
cuts would reduce the capacity of the Commission and its member 
states to develop, implement, and enforce FMPs. The resultant 
impact would decrease the quality, quantity, and timeliness of 
scientific advice and reduce the Commission's responsiveness to 
fishery management issues.
    While I mentioned the state/federal partnerships as a 
cornerstone for many rebuilt fisheries, there is still 
opportunities for improvement. Our member states feel that 
communication and collaboration between NOAA Fisheries and the 
states is inadequate. The Atlantic states urge NOAA Fisheries 
to involve them as full partners throughout the management 
process. The states are confident that greater collaboration 
will lead to, will lead NOAA Fisheries to more informed 
decisions with greater public engagement and acceptance. The 
recent listing of Atlantic sturgeon under the Endangered 
Species Act is a highly visible example of missed opportunity 
for greater collaboration.
    The states are also concerned with the limited opportunity 
for input and collaboration on decisions made by NOAA 
Fisheries' highly migratory species division.
    Included in my invitation to testify today was a specific 
request for background and impacts of the current summer 
flounder management program. Summer flounder is one of the 
species, one of the four species jointly managed by the 
Atlantic States Commission and the Mid-Atlantic Fishery 
Management Council.
    In the mid to late 1990s, the coast-wide management 
measures for the recreational fishery resulted in significant 
overages of the annual harvest target limit for summer 
flounder. Increasingly restrictive management measures, 
specifically size limits, began to impact the traditional 
fisheries of individual states, particularly those with smaller 
fish available.
    In 2001, the Commission and Council worked together and 
amended the FMP to allow for state-specific recreational 
management measures based on the 1998 harvest estimates. While 
the state-specific approach provided greater flexibility, but 
it also has resulted in differing regulations up and down the 
coast. For example, the size limit in New York reached 21 
inches in 2009, and in 2012, New York's minimum size limit was 
19\1/2\ inches which was at least one inch greater than any 
other state along the coast.
    In response to concerns about the unanticipated impacts of 
state-specific management measures and the availability of 
updated recreational landing data, the commission initiated 
change to the summer flounder management program for 2003. This 
change will allow New York and New Jersey to access fish that 
will remain un-harvested by other states along the coast.
    For 2014 and beyond, the Commission has formed a working 
group comprised of state representatives and staff in the Mid-
Atlantic Council. This working group will develop the suite of 
options for the future management of the summer flounder 
recreational fishery.
    In conclusion, Mr. Chairman, I mentioned partnerships often 
throughout my testimony. They're the foundation of the success 
of the interjurisdictional fishery management. These 
partnerships must involve the states, commissions, Federal 
agencies, and Congress. Providing resources to support 
interstate management is an investment that will pay great 
dividends through increase economic activity and job growth.
    Thank you, Mr. Chairman, and all the members of the 
Subcommittee. I'm happy to answer any questions you may have.
    Senator Begich. Thank you very much.
    [The prepared statement of Mr. Beal follows:]

Prepared Statement of Robert Beal, Executive Director, Atlantic States 
                      Marine Fisheries Commission
    Mr. Chairman and members of the Subcommittee,

    I am Bob Beal, Executive Director of the Atlantic States Marine 
Fisheries Commission (Commission). The Commission is comprised of the 
fifteen Atlantic coastal states and carries out a diverse array of 
programs for its members with the goal of restoring and sustaining 
Atlantic coastal fisheries. The Commission provides a forum for 
interstate cooperation on fisheries that cross state borders and thus 
cannot be adequately managed by a single state. Recognizing these 
challenges and the importance of providing Federal support for the 
management of transboundary resources, Congress authorized the 
Commission in 1942, allowing for interstate cooperation and state-
federal coordination in the management of Atlantic coast fisheries. It 
is a particular pleasure to appear before the Subcommittee today to 
review the tremendous success the states and their Federal partners 
have achieved in the restoration of many Atlantic coastal species and 
initiate the dialogue to address the emerging opportunities and ongoing 
challenges that exist for improved stewardship. As the Subcommittee 
undertakes the task of reauthorization of important fisheries laws and 
the review of various fisheries management policies, it can do so with 
the confidence that its leadership has given the states and the Federal 
agencies the tools and determination to maintain and to build on their 
fishery resource conservation successes.
Background
    While the Commission was formed more than 70 years ago, its more 
formal management process began in 1984 with passage of the Atlantic 
Striped Bass Conservation Act, followed by the Atlantic Coastal 
Fisheries Cooperative Management Act in 1993. These two laws provide 
the Commission with unique management authorities and responsibilities 
relative to the other two interstate marine fisheries commissions in 
the Gulf of Mexico and Pacific regions. Prior to the approval of these 
two laws, compliance with interstate fishery management plans (FMP) had 
been voluntary. Congress recognized a need for action and gave the 
Commission the authority to require states to implement mandatory 
provisions of each FMP. If the Commission determines that a state is 
not fully implementing and enforcing the mandatory measures for an FMP, 
the law provides a mechanism whereby the Secretaries of Commerce and 
the Interior (for Striped Bass) could declare a complete moratorium on 
the fishing for that species in that state's waters. Through the 
Commission process, Atlantic coastal states have developed and fully 
implemented FMPs for 25 species or species groups.
    The Commission is also supported through the provisions and 
resources provided by the Interjurisdictional Fisheries Act and the 
Anadromous Fish Conservation Act. Together, these four laws have 
provided the states the opportunity to form successful partnerships 
among themselves and with the National Oceanic and Atmospheric 
Administration's National Marine Fisheries Service (NOAA Fisheries) and 
the U.S Fish and Wildlife Service (USFWS) to carry out their public 
trust responsibility of sustainably managing shared marine fishery 
resources.
Successes
    The Commission has achieved many great successes under the 
cooperative interjurisdictional management program. The restoration of 
Atlantic striped bass is recognized nationally and internationally as 
one of the greatest fishery success stories. The Commission facilitated 
state action to recover the collapsed striped bass stock in the 1980s 
and by 1995 the stock was declared fully restored. This recovery has 
resulted in renewed recreational and commercial fishing opportunities, 
as well as hundreds of millions of dollars in economic benefits to 
coastal communities throughout the range of the stock. The stock 
remains robust and healthy nearly 20 years after being rebuilt.
    In addition to the restoration of striped bass, the Commission has 
worked with its Federal partners, the three East Coast regional fishery 
management councils and its stakeholders, to rebuild many species such 
as summer flounder, spiny dogfish, bluefish, scup, and Spanish 
mackerel. The Commission also maintains an active management program 
for American lobster, which generated over $400 million in ex-vessel 
value in 2011.\1\ This figure is multiplied many fold when you take 
into account the indirect economic activity generated in coastal 
communities through fish dealers, restaurants, marinas, and shipping 
companies.
---------------------------------------------------------------------------
    \1\ See Fisheries of the United States, 2011. NMFS, available at 
http://www.st.nmfs.noaa.gov/commercial-fisheries/fus/fus11/index.
---------------------------------------------------------------------------
    The Commission has also developed many successful programs to 
improve fisheries science, consider ecosystem services in management 
plans, provide the states with flexibility to meet the needs of 
fishermen, and restore critical habitat. A few examples are:

  <bullet> An Atlantic Menhaden FMP that considers the forage demands 
        of predatory fish.

  <bullet> Black sea bass and spiny dogfish allocation programs that 
        allow states to maximize economic return of available quota.

  <bullet> Northeast Area Monitoring and Assessment Program (NEAMAP) 
        that collects comprehensive nearshore fishery independent data 
        from Maine to North Carolina.

  <bullet> A horseshoe crab management program that balances the needs 
        of bait harvesters, the biomedical industry, and migratory 
        shorebirds.

  <bullet> Multispecies stock assessment that models the interactions 
        between many of the Atlantic coastal predator and prey species.
Fiscal Challenges
    The fiscal resources available to the Commission have been nearly 
static, and diminished in some areas during the past decade. However, 
the demands of stakeholders, the necessary rigor of stock assessments, 
and the simple cost of administering and maintaining the transparency 
of the Commission process has increased. This contrast between funding 
and demands has required the Commission to prioritize activities at the 
expense of stock assessments and fishery management updates. This 
constraining of the Commission's budget is occurring at a time of 
unprecedented state budget cuts and threatens to limit the 
effectiveness of the Commission process and interstate management 
coastwide.
    The Commission process is extremely efficient and produces a high 
return on investment. With a budget of under $10 million annually, the 
Commission manages 25 species that generate billions of dollars of 
economic activity from Maine through Florida. In fact, 35 percent of 
the total commercial landings value from Atlantic fisheries in 2011 was 
attributed to landings within 3 miles of shore. Over 90 percent of the 
Atlantic coast recreational catch is taken in state waters, with many 
of the most prominent species, like Atlantic striped bass, summer 
flounder, and red drum, moving through multiple state jurisdictions. 
This investment by Congress and the states in the Commission process 
likely represents one of the best return rates in all natural resource 
management. Continued investment in interjurisdictional management 
along the Atlantic coast will fund data collection and assessments to 
support better management decisions and restoration of stocks. Improved 
management will create more fishing opportunities and jobs and 
strengthen economic activity for Atlantic coastal communities.
    The Interjurisdictional Fisheries (IJF) Act recognizes the role of 
states in ensuring fisheries management activities across the state/
federal jurisdictions. Recently, the three interstate marine fisheries 
commissions representing coastal states in the Atlantic, Gulf of 
Mexico, and Pacific regions voiced our support for ensuring continued 
funding to the states through the IJF grants. These grants, though some 
may be small, have been successfully leveraged by the states to boost 
their survey, data collection, and monitoring abilities, including 
northern shrimp and American lobster sampling in New England; 
monitoring state quotas of black sea bass, summer flounder, and striped 
bass in the Mid-Atlantic; and surveying flounders, drum, shrimp and 
crabs in the South Atlantic. The program is a matching grant program, 
so the funds received by the states must be matched dollar to dollar. 
The Administration's FY13 budget request proposed terminating this 
important program. An authorization level of $5 million for the IJF 
grants will provide the opportunity for continued leveraging of these 
funds to support management of nearshore fisheries and provide data for 
stock assessments.
    The Atlantic Coastal Fisheries Cooperative Management Act (Atlantic 
Coastal Act) requires the Atlantic states to develop FMPs through the 
Commission and to implement and enforce those plans under state law, 
under penalty of pre-emption of a state's fishery by the Secretary of 
Commerce. The continued reduction in ``Regional Councils and 
Commissions'' funding would reduce the capacity of the Commission as 
well as its member states to develop, implement, and enforce FMPs. 
``Regional Councils and Fisheries Commissions'' funding goes to help 
provide valuable sources of data that allow fisheries managers to 
achieve sustainability for commercial and recreational fisheries, 
generating billions of dollars of economic activity. Further budget 
cuts to the program would force the Commission to eliminate one of four 
Commission meetings, cancel stock assessment training for state 
scientists, delay (one year) benchmark stock assessments for American 
lobster, Atlantic striped bass, and northern shrimp, eliminate a stock 
assessment scientist position, suspend outreach activities, and reduce 
FMP coordination capacity. The resultant impact would reduce the 
opportunity for public engagement in the management process; decrease 
the quantity, quality, and timeliness of scientific advice; and reduce 
the Commission's responsiveness to fisheries management issues. Greater 
scientific uncertainty could result in more precautionary management 
decisions, with consequent opportunity costs to commercial and 
recreational harvesters due to lower quotas and shorter seasons. 
Greater uncertainty also may decrease the justification for Commission 
actions, potentially resulting in legal vulnerability. Through the 
Commission process, states have reduced the number of overfished 
species by over 50 percent during the past decade; further progress 
towards rebuilding overfished species will be hampered by budget cuts 
and resulting lack of data and slowed response time.
    Cutting Atlantic Coastal Act grants to the states would reduce the 
fisheries management and science activities needed to comply with the 
provisions of the Act. States use these funds to conduct nearshore 
fisheries surveys, assess stocks, monitor catches, and interact with 
stakeholders to implement and enforce the fisheries management measures 
approved by the Commission. For New England states, this would result 
in a loss of the ability to accurately track landings for quota 
management, prompting more precautionary management and potential 
triggering of accountability measures. Within the Mid-Atlantic region, 
lack of funding would lead to a direct loss of law enforcement 
presence. In addition, funding supports monitoring and management of 
important state and interstate fisheries, such as blue crab and 
horseshoe crab in Delaware, and red drum, Atlantic menhaden, and 
flounders in North Carolina. South Atlantic states use the funding to 
support both fishery monitoring and independent surveys, including 
Georgia's long-time trawl survey, which has been collecting data on 
shrimp, crabs, and finfish since the 1970s. In addition, funding 
supports data collection of bycatch, including protected species like 
sea turtles and Atlantic sturgeon, throughout the Mid-and South 
Atlantic.
    On the Federal side, there are three East Coast fishery management 
councils. The Administration's proposed 22 percent funding reduction 
(from FY12 to FY13) for the ``Regional Councils and Fisheries 
Commissions'' funding line item would reduce their capacity to engage 
stakeholders in development of FMPs and annual harvest levels. These 
cuts would reduce the number of meetings of each Council by at least 
one meeting per year; it would impact meetings of their Statistical and 
Science Committees and stakeholder advisory panels. These cuts would 
reduce scientific staff capacity to support crucial management 
questions and reduce FMP coordination capacity. The resultant impacts, 
similar to those for the Commission, would restrict opportunities for 
public involvement in the management process and decrease scientific 
advice available to managers, resulting in negative impacts on the 
Councils' ability to fulfill the requirements under the Magnuson-
Stevens Fishery Conservation and Management Act. Further, the Councils' 
response to stakeholder input and their ability to make the necessary 
updates to NOAA's improved recreational data collection program and 
annual catch limits will be delayed or diminished.
Partnership Opportunities
    While I mentioned the state-federal partnerships formed under the 
various interstate and interjurisdictional fisheries laws have been the 
cornerstone for many successful fishery restoration stories, there are 
still opportunities for improvement. Our member states feel the 
communication between NOAA Fisheries and the states is inadequate. The 
Atlantic states urge NOAA Fisheries to involve them as partners 
throughout the management process rather than a stakeholder group, with 
involvement limited to public comment periods. The states are confident 
that greater collaboration will lead NOAA Fisheries to more informed 
decisions that have greater public engagement and, consequently, 
acceptance. The states understand there are currently some legal 
constraints on pre-decisional discussions, however, the states can play 
a critical role in contributing fisheries science and data and 
providing stakeholder input for consideration as decisions are 
finalized. States have been conducting fishery-independent research 
consistently for decades and can serve as a valuable resource to 
enhance the available science.
    The recent listing of Atlantic sturgeon as threatened/endangered 
under the Endangered Species Act is a highly visible example of a 
missed opportunity for greater collaboration. The states could have 
provided additional information and insight on the population status 
and biology of Atlantic sturgeon. While this collaboration may not have 
changed the listing decision, there would have been greater confidence 
among the stakeholders that NOAA Fisheries was fully informed during 
the process. The states also request greater transparency and 
collaboration, including data sharing during the development of 
response plans.
    Another example of a missed opportunity is the management of 
coastal sharks. In response to a request from NOAA Fisheries, the 
Commission adopted an Interstate FMP for Atlantic Coastal Sharks to 
complement Federal management actions and increase protection of 
pregnant females and juveniles in inshore nursery areas. Following the 
approval of the Interstate FMP, NOAA Fisheries Highly Migratory Species 
(HMS) Division made a number of changes to the Federal management 
program with limited opportunity for state input and collaboration. The 
states are concerned about the limited opportunity for input and 
collaboration on these decisions. The states' primary input opportunity 
is through the HMS Advisory Panel process, where states are seated with 
other stakeholders. The HMS public comment opportunities frequently do 
not overlap with a Commission meeting to allow for a unified state 
position to be developed. The states would like for additional 
opportunities for input to be provided and required for HMS activities.
Summer Flounder Management
    Included in my invitation to testify today was a specific request 
for background on the impacts of the current recreational summer 
flounder management program. That information, as well as the 
anticipated next steps, is included in the following paragraphs.
    Summer flounder, Paralichthys dentatus, is one of the most sought 
after commercial and recreational fish along the Atlantic coast. It is 
one of four species jointly managed by the Commission and the Mid-
Atlantic Fishery Management Council. The 2012 summer flounder stock 
assessment update indicated the stock is not overfished and overfishing 
is not occurring. The management program divides a total annual quota 
between the recreational fishery (40 percent) and the commercial 
fishery (60 percent). The commercial quota is divided into state-by-
state quotas based on historical landings. Recreational bag/size limits 
and seasons are determined on a state-by-state basis using conservation 
equivalency.
    In 1992, the states, operating through the Commission and the Mid-
Atlantic Council, jointly adopted provisions in the FMP to establish a 
comprehensive program for the development of annual recreational 
fishing regulations for summer flounder on a coastwide basis. In the 
mid-to late 1990s, significant recreational overages began to occur and 
coastwide measures were adjusted (made more conservative) to address 
these overages of the coastwide target. Increasingly restrictive 
measures, specifically increasing size limits, began to impact the 
traditional fisheries of individual states, putting those with a small-
fish fishery at a disadvantage. In 2001, the Commission and Council 
further amended the FMP to allow for state-specific measures through 
conservation equivalency. This allowed states to develop measures that 
met the needs of their fishery to reflect the timing and size of fish 
available in their state waters. To develop conservationally-equivalent 
measures, individual states needed annual harvest targets; therefore, 
state-specific harvest targets were made based on the state proportion 
of harvest in 1998 estimates from the Marine Recreational Fisheries 
Statistics Survey (MRFSS). States may still be subject to a 
noncompliance determination by the Commission under the Atlantic 
Coastal Act if they do not implement approved management measures.
    Although the shift away from coastwide management to state 
conservation equivalency addressed the interests of some states (e.g., 
North Carolina with its smaller fish and later season, Nov-Dec 
fishery), it has given rise to concerns on the part of other states. 
While conservation equivalency provided greater flexibility for 
individual states to set their limits from year to year, individual 
state targets were based upon the state's proportion of the 1998 MRFSS 
harvest estimate. This resulted in ever increasing size limits, reduced 
bag limits, and shorter seasons for most of the states while the stock 
was at a low level and recovering. However, the impact of these ever-
restrictive measures seemed to affect New York the most, where the size 
limit reached 21 inches by 2009, resulting in a very short season with 
a mid-season closure. In 2012, with a fully recovered stock, New York's 
minimum size (19.5 inches) was at least one inch higher than any other 
state, one and a half inches higher than Connecticut and two inches 
greater than New Jersey (Table 1).
    New York has argued that reliance on the 1998 MRFSS estimate for 
management of summer flounder harvest has resulted in an unfairly low 
harvest target and chronic overages. The state points to the 
consistently higher minimum size it has been compelled to adopt as 
evidence of the problem. Recently, Marine Recreational Information 
Program (MRIP) estimates have become available which seem to further 
support this contention, with MRIP harvest estimates being higher than 
the previous MRFSS estimates for New York, while being lower for some 
other states, notably New Jersey.
    In response to concerns about the unanticipated impacts of 
conservation equivalency and the availability of updated recreational 
landings data from the MRIP, the Commission initiated a change to the 
summer flounder management program for 2013 and beyond. For 2013, each 
of the states, except New York and New Jersey, are allowed to 
liberalize their regulations under the existing conservation 
equivalency provisions. However, many of the states have indicated they 
will not take full advantage of the opportunity to liberalize their 
regulations. The Commission has initiated a proposed change to the 
management program to allow New York and New Jersey to access the 
summer flounder that will remain un-harvested by the other states. If 
adopted, it is anticipated that this will allow New York and New Jersey 
to liberalize their regulations and provide additional recreational 
fishing opportunities. There is a public comment period open until 5:00 
pm on April 12, 2013 on this proposed change; the document can be found 
on the Commission website, www.asmfc.org, under Breaking News
    For 2014 and beyond, the Commission has formed a working group 
comprised of state representatives and staff from the Mid-Atlantic 
Council. This working group will develop a suite of options for 
management of the recreational fishery. Options that will be explored 
include:

  <bullet> Coastwide management measures

  <bullet> Regional management measures

  <bullet> Modification of state shares

  <bullet> Averaging multiple years of landings data to minimize annual 
        fluctuations.

  <bullet> Different options for establishing size limits (e.g., allow 
        retention of one smaller fish with all other above a larger 
        minimum size

  <bullet> Any other option deemed viable by the working group

    The products from the working group will be presented to the 
Commission and the Council for consideration as the basis for 
management of the 2014 and beyond recreational fisheries.
    With regard to the summer flounder commercial fishery, catch is 
controlled by state-by-state quotas derived from the states' share of 
commercial landing for the period of 1980-1989. When a state quota is 
reached, that state's fishery is closed. Overages of commercial harvest 
are subtracted from that state's following year's quota. The FMP also 
provides the opportunity for states to voluntarily transfer quota on an 
annual basis to accommodate changes in landings patterns, 
participation, etc.
    Total U.S. commercial landings of summer flounder from Maine to 
North Carolina peaked in 1979 at nearly 39.561 million pounds. The 
reported landings in 2011 of 16.559 million pounds were about 94 
percent of the final 2011 commercial quota. Since 1980, about 70 
percent of the commercial landings of summer flounder have come from 
Federal waters. Large variability in summer flounder landings exist 
among the states over time and the percent of total summer flounder 
landings taken from state waters has varied widely among the states.
    Based on VTR data for 2011, the bulk of the summer flounder 
landings were taken by bottom otter trawls (96 percent), with other 
gear types (e.g., hand lines and beam trawls) each accounting for less 
than 1 percent of landings. Current commercial fishery regulations 
require a 14 inch total length minimum fish size and net mesh size 
requirements, although states implement additional measures such as 
trip limits and seasons to constrain the harvest to the state quota.
    The Commission and Council selected the state by states allocation 
system to prevent a coastwide ``race-to-fish'' which would have 
resulted in a short fishing season and low economic return. The 
allocation system allows a state to craft seasons and possession limits 
to maximize the value of the available quota and accommodate the needs 
of their fishermen. Some states have allocated their quota individual 
to fishermen through ITQ systems.
Conclusion
    Mr. Chairman, I have mentioned partnerships often throughout my 
testimony. They are the foundation of the success of 
interjurisdictional fisheries management. These partnerships must 
involve the states, commissions, Federal agencies and Congress. If any 
of these entities are not fully engaged and supportive of the process, 
we will not be able to build on our past successes. Providing resources 
to support interstate management is an investment that will pay great 
dividends through increased economic activity and job growth.
    Our management process has proven results, showing it works for the 
states, for commercial and recreational fishermen, and for coastal 
communities. It provides an outstanding example of how much can be 
accomplished when the states and the Federal government, with the 
leadership of Congress, come together to work towards their mutual 
interest.
    Thank you, Mr. Chairman and all the members of your Subcommittee 
for your continued support and leadership in fisheries management, and 
for this opportunity to discuss opportunities for greater collaboration 
and cooperation of fisheries management issues between state and 
Federal partners. I would be pleased to answer any questions the 
Subcommittee may have.

                                 Table 1.--Recreational Summer Flounder Fishery
                       2012 recreational management measures for summer flounder by state.
----------------------------------------------------------------------------------------------------------------
               State                  Minimum Size (inches)       Possession Limit             Open Season
----------------------------------------------------------------------------------------------------------------
Massachusetts                                          16.5                    5 fish       May 22-September 30
----------------------------------------------------------------------------------------------------------------
Rhode Island                                           18.5                    8 fish         May 1-December 31
----------------------------------------------------------------------------------------------------------------
Connecticut*                                             18                    5 fish         May 15-October 31
-------------------------------------------------------------
*At 44 designated shore sites                            16
----------------------------------------------------------------------------------------------------------------
New York                                               19.5                    4 fish        May 1-September 30
----------------------------------------------------------------------------------------------------------------
New Jersey                                             17.5                    5 fish        May 5-September 28
----------------------------------------------------------------------------------------------------------------
Delaware                                                 18                    4 fish      January 1-October 23
----------------------------------------------------------------------------------------------------------------
Maryland                                                 17                    3 fish      April 14-December 16
----------------------------------------------------------------------------------------------------------------
PRFC                                                   16.5                    4 fish                  All year
----------------------------------------------------------------------------------------------------------------
Virginia                                               16.5                    4 fish                  All year
----------------------------------------------------------------------------------------------------------------
North Carolina                                           15                    6 fish                  All Year
----------------------------------------------------------------------------------------------------------------


    Senator Begich. The next speaker is Randy Fisher, Executive 
Director of Pacific States Marine Fisheries, and again, we'll 
go through all four then we'll open for questions from members.
    Mr. Fisher.

 STATEMENT OF RANDY FISHER, EXECUTIVE DIRECTOR, PACIFIC STATES 
                  MARINE FISHERIES COMMISSION

    Mr. Fisher. Good morning, Mr. Chairman, and members of the 
Committee. My name is Randy Fisher, and I'm the Executive 
Director of the Pacific States Marine Fisheries Commission. I'm 
pleased to present the commission's testimony today.
    The Interjurisdictional Fishery Act represents an important 
collaboration between NOAA and the states in the conservation 
and management of the interjurisdictional fishery resources 
throughout their range. This collaboration has worked well for 
us for over three decades.
    On the west coast in Alaska, Federal and state funds were 
matched to engage in the following: management of the west 
coast Dungeness fishery, crab fishery, which is the most 
valuable fishery on the west coast; management of the west 
coast pink shrimp fishery--we conduct rockfish surveys and 
tagging projects on the west coast in Alaska; and management 
over the coastal pelagic fisheries. All these species straddle 
Federal and state management jurisdictions. They need to be 
jointly managed.
    We are painfully aware of the downturn pressure on NOAA 
Fisheries' budget the coming years. The Congress and the 
administration should take advantage of matching programs that 
maximize the fiscal resources available to marine conservation 
and management.
    The IJFA funds requires that the states match at least 25 
percent of the non-Federal match for the funding activity, and 
many of the states on the west coast, projects are matched on 
the dollar-for-dollar basis.
    Pacific States Marine Fishery Commission recommends that 
the IJFA be reauthorized at its formal level of $5 million 
annually. We believe that additional non-Federal funds could 
become available if NOAA increases the commitments under the 
IJFA matching funds program.
    We are also concerned about the $4.5 million reduction in 
the President's budget for the regional councils and the 
commissions.
    The Pacific Council enacted catch shares in 2011. Bycatch 
is down and revenues are up, but there's still work to be done.
    We want electronic monitoring to be an option for the 
fishermen and will be--but that will require council action.
    We are in the process of testing cameras and electronic log 
books with the goal of reducing costs to the fishermen while 
obtaining the needed data for our management activities.
    We also believe in the future that commissions could be 
more involved in surveys and habitat work. The commissions are 
in a unique position to provide people and expertise in these 
areas.
    My overhead rate is between 10 and 12 percent, if we hire 
and manage people. If we pass money directly through to the 
states, our rate is 1.7 percent. These rates are obviously very 
competitive.
    I'd like to thank the Commission and the Committee for the 
opportunity to testify and be happy to answer any questions you 
may have.
    Senator Begich. Thank you very much.
    [The prepared statement of Mr. Fisher follows:]

   Prepared Statement of the Interstate Marine Fisheries Commissions
    The Pacific States Marine Fisheries Commission, the Atlantic States 
Marine Fisheries Commission, and the Gulf States Marine Fisheries 
Commission strongly support the reauthorization of the Inter-
Jurisdictional Fisheries Act.
    The Commissions and the twenty seven coastal states they represent 
also strongly oppose the Administration's proposal to terminate IJFA 
funding and reduce the Councils/Commissions funding line item within 
the Commerce, Science, Justice Appropriations Act for Fiscal Year 2013.
Background
    The President's Fiscal Year 2013 Budget Request proposes to 
terminate the Inter Jurisdictional Fisheries Act (``IJFA'') Grants to 
States program. The IJFA was established by Congress to promote and 
encourage state activities in support of the management of inter-
jurisdictional fishery resources throughout their range. Funding under 
the IJFA supports the monitoring and assessment programs of the States 
and Interstate Commissions, as well as funding for research that gauge 
the health of commercially and recreationally important fish stocks. 
The IJFA is a matching grant program. Funds received by the states must 
be matched on a dollar-for-dollar basis. This is a classic example of 
an effective and affordable federal/state partnership for the 
management of near shore fisheries with inter-jurisdictional 
boundaries. The Administration used its discretion to allocate 
``unspecified reductions'' within the 2012 NOAA Spend Plan to eliminate 
the IJFA grants for 2012. The Congress is currently debating the 
Commerce-Justice-Science appropriations for Fiscal Year 2013, as part 
of the Continuing Resolution. The Conferees have restored the IJFA 
program to $2 million. The Interstate Marine Fisheries Commissions 
strongly support this action.
    NOAA is currently going through a painful process of reducing its 
budget to conform to the Sequestration budget targets. In an era of 
declining budgets, programs such as the IJFA that approach a dollar-
for-dollar match should be fostered because they maximize the financial 
resources available for marine conservation and management. Authorizing 
and appropriating $2.5 million annually for the IJFA results in an 
equal financial commitment from the States.
    The President's Budget also calls for $27,349,000 for the Regional 
Councils and Commissions in Fiscal Year 2013, a reduction of roughly 
$4.5 million over the levels enacted in FY 2012. The Regional Councils 
are the workhorses of the Federal regulatory process for marine 
fisheries. Each Council is working to revise the fishery management 
plans under its jurisdiction to end overfishing and rebuild fish 
stocks. The ability of the Councils and Commissions to fulfill their 
statutory mandates will be severely hampered by the proposed cutbacks. 
As part of the Continuing Resolution, the Conferees have proposed an 
appropriation of $31,555,000 for the Councils/Commissions line item. 
The Interstate Marine Fisheries Commissions strongly support this level 
of funding.
Potential Impact
    The proposed elimination of the IJFA Program and the proposed cuts 
in the ``Councils and Commissions'' line item would result in a severe 
curtailment and/or elimination of many fishery conservation and 
management activities currently being administered by the States and 
Interstate Marine Fisheries Commissions. The following is a brief 
synopsis of these activities by region.
Pacific Region
    IJFA funds are used by the Pacific States Marine Fisheries 
Commission (``PSMFC'') to coordinate the Tri-State Dungeness Crab 
Fishery. With a landings value in 2011 of over $185 million, Dungeness 
Crab is the most valuable crab fishery in the U.S. It is managed on an 
inter-jurisdictional basis with funding from the IJFA. This was a 
Federal fishery delegated to the States of Washington, Oregon, and 
California for management under the Magnuson-Stevens Act because it was 
deemed to be more efficient to use the States' landing laws as an 
enforcement mechanism to regulate fishing activity. If funding for this 
management regime ceases, NOAA will be forced to take the fishery back 
to the Pacific Fishery Management Council to develop a new fishery 
management plan at a time when the House and the President are also 
proposing to cut back Council funding. Any savings hoped to be achieved 
in eliminating the IJFA grants will be lost to the costs of this new 
program.
    PSMFC and the West Coast states also use their IJFA matching grants 
to engage in a wide range of other activities, including the conduct of 
rockfish surveys and tagging projects on the West Coast; management of 
the Pink Shrimp Fishery; management of the coastal pelagic species 
fisheries (Pacific Sardines, Pacific Mackerel, and Jack Mackerel 
account for 86,000 tons of commercial catch in California); research on 
the abundance and migratory patterns of steelhead on the Snake River; 
spawning and catch sampling of Pink, Chum, and Coho in Southeast 
Alaska; and conservation of coastal cutthroat trout (an ESA listed 
species); technical support for the U.S.-Canada Groundfish Committee, 
which is tasked with inter-jurisdictional management cooperation for 
groundfish that border both nations; and the planning and prevention of 
such invasive species as Quagga and Zebra Mussels from entering the 
West Coast river systems. These management activities will either cease 
or be severely curtailed.
    The proposed cuts in funding in the Councils/Commissions line item 
will reduce public participation in the North Pacific and Pacific 
Fishery Management Councils. Each Council currently meets five times 
per year. The proposed cuts would result in at least one of the 
meetings and possibly two being cancelled. The Councils will be 
required to reducing staffing by 25 percent. This will result in less 
public outreach and lower stakeholder input. With fewer meetings and 
less staff to analyze and present scientific information to Council 
Members, the Councils will be forced to err on the side of caution, 
resulting in smaller quotas and quicker fishery closures. This will 
result in lost jobs in the fishing and seafood processing industries, 
less sport fishing time, and a reduction in taxes to Federal, State, 
and Local Governments.
    Specific initiatives will also suffer. The North Pacific Council 
will have to slow down its work in resolving halibut and salmon bycatch 
issues; the halibut catch sharing plan; and the implementation of new 
regulatory amendments to address safety issues in the factory longline 
fishing fleet. The Pacific Council will be hampered in its ability to 
regulate the Sacramento River fall Chinook fishery, which is currently 
experiencing a rebound from the fishery disasters of 2008 and 2009.
Gulf Region
    In the Gulf of Mexico, the IJFA is the cornerstone of the fishery 
management programs for the states and has provided the support for 
long-term databases for commercial and non-commercial crustaceans and 
finfish in the Gulf of Mexico. The fishery-independent databases are 
becoming increasingly utilized in state and Federal stock assessments 
and will be critical to future regional management success. The five 
Gulf States' long-term monitoring programs are funded to a large extent 
by the IJFA and provide the States' the ability to gauge the health of 
commercially and recreationally important fish stocks in their waters. 
NOAA has established a Federal fisheries stock assessment process 
designated the SouthEast Data, Assessment, and Review (SEDAR) to 
develop reliable fishery stock assessments for the Gulf of Mexico and 
Atlantic regions. These assessments rely heavily upon the independent 
data provided by the states related to abundance indices of many 
species. As new stock assessment methodologies, such as ecosystem and 
food web approaches to management are explored and implemented, these 
state-derived data will be even more important. However, the ability to 
conduct stock assessments will hinge upon the quality and duration of 
these datasets which have been supported by the IJFA.
    The loss of IJFA funds in Florida and Texas have drastically 
reduced the direct support for the monitoring of the shrimp and crab 
fisheries. The loss of IJFA has resulted in the elimination of other 
funding sources under the 1-for-1 match requirement, including 
contributions from limited state license revenues. Florida uses IJFA 
funds to manage inter-jurisdictional stocks over a 1,200 mile 
coastline. Texas has used their IJFA funding to determine the status of 
their shellfish populations for formulating shellfish management and 
harvest regulations in coastal waters. These data have been used to 
assess Texas' limited entry and license buy-back programs for the bay 
shrimp industry and the crab industry.
    Louisiana has noted that successive reductions in the availability 
of IJFA funding have led to cuts in sampling programs resulting in a 
reduced ability to comprehensively monitor growth and distribution of 
the state's marine resources; reduced the accuracy of projections; and 
slowed the development of appropriate management recommendations. The 
loss of IJFA funds to Mississippi jeopardizes the continuation of an 
almost forty year time series of data on the abundance and distribution 
of species important to Mississippi and northern Gulf commercial and 
recreational species. The cuts have eliminated scientific staff and 
vessel services required for data collection. The reduction or 
elimination of monitoring and assessment funds has jeopardized the 
ability of Mississippi to conduct fisheries stock assessments at a time 
when more and better data are needed.
    In Alabama, IJFA funds were used in direct support of fisheries 
enforcement activities in both Federal and states waters. The loss of 
this funding has resulted in less efficient enforcement related to 
Alabama and Gulf of Mexico fisheries and the interactions of fishing 
activities among protected species. This situation could eventually 
lead to unsustainable fishing practices.
    In addition to the five States' fisheries monitoring, the IJFA also 
provides funding for the Gulf States Marine Fisheries Commission 
(GSMFC) to regionally coordinate inshore, state water fishery resources 
by the development of regional fishery management plans (FMP). The FMPs 
are used by the states to enact appropriate management strategies with 
conservation standards intended to maintain sustainable stocks into the 
future and provide coordinated support to get these management measures 
passed through their respective state commissions and/or legislative 
bodies. The GSMFC uses its limited IJFA funds to support the completion 
of regional stock assessments that are currently excluded from the 
Federal SEDAR program but required in regional FMPs. Finally, the funds 
from the IJFA also provide coordination for marine law enforcement in 
the five Gulf States which is critical to the enforceability of the 
regulations enacted by the states in accordance with the regional FMPs.
    If the budget cuts become reality, the Gulf Council will remain 
short of staff. This will result in a reduction in the Gulf Council's 
ability to address Fishery Management Plans for red drum, among other 
species, because of insufficient staffing. Reductions in staff will 
slow progress on efforts to implement ecosystem-based management. Such 
issues as barotrauma and the status of goliath grouper will be 
protracted for several years. The cuts result in a reduction in direct 
contact between the Council and the public. The Gulf Council also 
expects to reduce the number of the Scientific and Statistical 
Committee meetings, jeopardizing the public credibility of the Gulf's 
management measures. This will ultimately result in a slowdown of 
Fishery Management Plan development for all species.
Atlantic Region
    The fiscal resources available to the Atlantic States Marine 
Fisheries Commission (ASMFC) have been nearly static, and diminished in 
some areas during the past decade. However, the demands of 
stakeholders, the necessary rigor of stock assessments, and the simple 
cost of administering and maintaining the transparency of the ASMFC 
process has increased. This contrast between funding and demands has 
required the ASMFC to prioritize activities at the expense of stock 
assessments and fishery management updates. This constraining of the 
ASMFC's budget is occurring at a time of unprecedented state budget 
cuts and threatens to limit the effectiveness of the ASMFC process and 
interstate management along the Atlantic coast.
    The ASMFC process is extremely efficient and produces a high return 
on investment. With a budget of under $10 million annually, the ASMFC 
manages 25 species that generate billions of dollars of economic 
activity from Maine through Florida. In fact, 35 percent of the total 
commercial landings value from Atlantic fisheries in 2011 was 
attributed to landings within 3 miles of shore. Over 90 percent of the 
Atlantic coast recreational catch is taken in state waters, with many 
of the most prominent species, like Atlantic striped bass and summer 
flounder, moving through multiple state jurisdictions. This investment 
by Congress and the states in the ASMFC process likely represents one 
of the best return rates in all natural resource management. Continued 
investment in interjurisdictional management along the Atlantic coast 
will fund data collection and assessments to support better management 
decisions and restoration of stocks. Improved management will create 
more fishing opportunities and jobs and strengthen economic activity 
for Atlantic coastal communities.
    The Interjurisdictional Fisheries Act (IJFA) recognizes the role of 
states in ensuring fisheries management activities across the state/
federal jurisdictions. Recently, the three interstate marine fisheries 
commissions representing coastal states in the Atlantic, Gulf of 
Mexico, and Pacific regions voiced our support for ensuring continued 
funding to the states through the IJFA grants. These grants, though 
some may be small, have been successfully leveraged by the states to 
boost their survey, data collection, and monitoring abilities, 
including northern shrimp and American lobster sampling in New England; 
monitoring state quotas of black sea bass, summer flounder, and striped 
bass in the Mid-Atlantic; and surveying flounders, drum, shrimp and 
crabs in the South Atlantic. The program is a matching grant program, 
so the funds received by the states must be matched dollar to dollar. 
The Administration's FY13 budget request proposed terminating this 
important program. An authorization level of $5 million for the IJFA 
grants will provide the opportunity for continued leveraging of these 
funds to support management of nearshore fisheries and provide data for 
stock assessments.
    The Atlantic Coastal Fisheries Cooperative Management Act (Atlantic 
Coastal Act) requires the Atlantic states to develop FMPs through the 
ASMFC and to implement and enforce those plans under state law, under 
penalty of pre-emption of a state's fishery by the Secretary of 
Commerce. The continued reduction in ``Regional Councils and 
Commissions'' funding would reduce the capacity of the ASMFC as well as 
its member states to develop, implement, and enforce FMPs. ``Regional 
Councils and Fisheries Commissions'' funding goes to help provide 
valuable sources of data that allow fisheries managers to achieve 
sustainability for commercial and recreational fisheries, generating 
billions of dollars of economic activity. Further budget cuts to the 
program would force the ASMFC to eliminate one of four ASMFC meetings, 
cancel stock assessment training for state scientists, delay (one year) 
benchmark stock assessments for American lobster, Atlantic striped 
bass, and northern shrimp, eliminate a stock assessment scientist 
position, suspend outreach activities, and reduce FMP coordination 
capacity. The resultant impact would reduce the opportunity for public 
engagement in the management process; decrease the quantity, quality, 
and timeliness of scientific advice; and reduce the ASMFC's 
responsiveness to fisheries management issues. Greater scientific 
uncertainty could result in more precautionary management decisions, 
with consequent opportunity costs to commercial and recreational 
harvesters due to lower quotas and shorter seasons. Greater uncertainty 
also may decrease the justification for ASMFC actions, potentially 
resulting in legal vulnerability. Through the ASMFC process, states 
have reduced the number of overfished species by over 50 percent during 
the past decade; further progress towards rebuilding overfished species 
will be hampered by budget cuts and resulting lack of data and slowed 
response time.
    Cutting Atlantic Coastal Act grants to the states would reduce the 
fisheries management and science activities needed to comply with the 
provisions of the Act. States use these funds to conduct nearshore 
fisheries surveys, assess stocks, monitor catches, and interact with 
stakeholders to implement and enforce the fisheries management measures 
approved by the ASMFC. For New England states, this would result in a 
loss of the ability to accurately track landings for quota management, 
prompting more precautionary management and potential triggering of 
accountability measures. Within the Mid-Atlantic region, lack of 
funding would lead to a direct loss of law enforcement presence. In 
addition, funding supports monitoring and management of important state 
and interstate fisheries, such as blue crab and horseshoe crab in 
Delaware, and red drum, Atlantic menhaden, and flounders in North 
Carolina. South Atlantic states use the funding to support both fishery 
monitoring and independent surveys, including Georgia's long-time trawl 
survey, which has been collecting data on shrimp, crabs, and finfish 
since the 1970s. In addition, funding supports data collection of 
bycatch, including protected species like sea turtles and Atlantic 
sturgeon, throughout the Mid-and South Atlantic.
    On the Federal side, there are three East Coast fishery management 
councils. The Administration's proposed 22 percent funding reduction 
(from FY12 to FY13) for the ``Regional Councils and Fisheries 
Commissions'' funding line item would reduce their capacity to engage 
stakeholders in development of FMPs and annual harvest levels. These 
cuts would reduce the number of meetings of each Council by at least 
one meeting per year; it would impact meetings of their Statistical and 
Science Committees and stakeholder advisory panels. These cuts would 
reduce scientific staff capacity to support crucial management 
questions and reduce FMP coordination capacity. The resultant impacts, 
similar to those for the ASMFC, would restrict opportunities for public 
involvement in the management process and decrease scientific advice 
available to managers, resulting in negative impacts on the Councils' 
ability to fulfill the requirements under the Magnuson-Stevens Fishery 
Conservation and Management Act. Further, the Councils' response to 
stakeholder input and their ability to make the necessary updates to 
NOAA's improved recreational data collection program and annual catch 
limits will be delayed or diminished.

    Senator Begich. Let me go now to Dave Donaldson, Assistant 
Director, Gulf States Marine Fisheries Commission.

 STATEMENT OF DAVE DONALDSON, ASSISTANT DIRECTOR, GULF STATES 
                  MARINE FISHERIES COMMISSION

    Mr. Donaldson. Thank you, Mr. Chairman and Subcommittee 
members, and I appreciate the opportunity to provide testimony 
about the Gulf Commission's role in coordinating state and 
Federal activities.
    My name is Dave Donaldson. I am the Assistant Director of 
the Gulf States Marine Fisheries Commission. It was established 
by Congress in 1949 and is, essentially, an organization of the 
five Gulf States. Its main objective is the conservation, 
development, and full utilization of fishery's resources in the 
Gulf of Mexico.
    One of its most important functions is to serve as a forum 
for discussion of various issues and challenges regarding 
marine resource management, industry, and research. It provides 
a coordinated approach among its state and Federal partners to 
address these issues for the betterment of the resource. The 
Commission administers a variety of state-Federal cooperative 
programs that allows for the conservation and management of 
these shared resources in the Gulf of Mexico.
    One such program is the interjurisdictional fisheries 
management program, which has been coordinated since 1985 by 
the Commission. The main purpose of the program is to develop 
fishery management plans that enact appropriate management 
strategies. In the Gulf of Mexico, nearshore species, such as 
blue crab and oysters, comprise about 80 percent of the 
commercial and about 90 percent of the recreational harvest 
resulting in significant social and economic benefits to, not 
only the Gulf States, but the nation. Fishery independent 
databases are becoming more and more essential in both state 
and Federal stock assessments and rely heavily upon the data 
provided through the IJF program.
    In 2012, IJF funds were eliminated in the gulf region, 
which resulted in a large reduction of long-term monitoring of 
shrimp, crab, and finfish and in both the state and Federal 
waters, as well as the elimination of other funding sources 
under the one-to-one match requirement.
    Another long-term data program coordinated by the 
Commission is the Fisheries Information Network, or GulfFIN, 
which has been around since 1995. This program is a fishery-
dependent state/federal cooperative program to collect, manage, 
and disseminate statistical data on commercial and recreational 
fisheries in the southeast.
    GulfFIN, through the Gulf States, the Commission, and NOAA 
Fisheries, have coordinated such activities as the collection 
and management dissemination of marine recreational fisheries 
data, the collection of commercial landings via the state-
commercial trip ticket programs, sampling and analysis of 
biological data which is used in stock assessments. These 
activities have led to significant improvements on the 
commercial and recreational data in the Gulf of Mexico.
    One of the newer programs the Commission has taken on came 
about in the wake of the Deepwater Horizon and it's the Gulf 
Trace Program. This is a regional electronic traceability 
program which was launched in March 2012. It's a voluntary tool 
that traces seafood product from the waters where they're 
caught to the plate where they're served. The program aims to 
drive demand for gulf seafood products, communicating its gulf 
source; thus, differentiating it from imports, and it tells a 
unique story about that product.
    It has three components, the actual traceability platform 
that utilizes the existing trip ticket, the electronic trip 
ticket program that provides businesses with access to reliable 
information about the product throughout the supply chain, a 
data quality and conformation component, as well as a marketing 
module. This program is currently offered at no cost to 
qualified gulf seafood businesses through the end of 2014. To 
date, 56 businesses have enrolled and they represent about 25 
percent of the gulf seafood processors.
    For all of these programs, adequate fiscal resources are 
needed for these current, as well as future, activities. This 
will ensure that the best data are available for critical 
management choices, and better data allows managers to make 
more informed decisions leading to improved management of the 
resources.
    Again, thank you for the opportunity to discuss these 
important issues, and I'll answer any questions.
    Senator Begich. Thank you very much.
    [The prepared statement of Mr. Donaldson follows:]

 Prepared Statement of Dave Donaldson, Assistant Director, Gulf States 
                      Marine Fisheries Commission
    Established by both state and Federal statutes in July 1949, the 
Gulf States Marine Fisheries Commission (Gulf Commission) is an 
organization of the five states (Texas, Louisiana, Mississippi, 
Alabama, and Florida) whose coastal waters are the Gulf of Mexico. It 
has as its principal objective the conservation, development, and full 
utilization of the fishery resources of the Gulf of Mexico to provide 
food, employment, income, and recreation to the people of the United 
States.
    One of the most important functions of the Gulf Commission is to 
serve as a forum for the discussion of various challenges and programs 
of marine resources management, industry, research, etc. and to develop 
a coordinated approach among state and Federal partners to address 
those issues for the betterment of the resource for all who are 
concerned.
Interjurisdictional Fisheries Management Program
    As you are already aware, the Interjurisdictional Fisheries Act 
(IJFA) of 1986, as amended (Title III, P.L. 99-659), was established by 
Congress to: (1) promote and encourage state activities in support of 
the management of interjurisdictional fishery resources and (2) promote 
and encourage management of interjurisdictional fishery resources 
throughout their range. In essence, the IJFA is to the states what the 
Magnuson Act is to the Nation and the benefits of sound fisheries 
management under these acts do not accrue separately. The IJFA is 
probably the single most important Congressional act to professionalize 
the states' scientific staff within the marine resource agencies.
    In addition to supporting resource management, the IJFA also allows 
Congress to provide assistance to the states in the event of a 
Fisheries Disaster under SEC. 113 in the form of funds and other 
economic assistance and does not require state match for financial 
relief. Following hurricanes Katrina and Rita, Congress passed an 
emergency disaster relief funding package that included $128 million 
for fisheries restoration. The package included funding to support 
restoration of oyster grounds, restoration of shrimp and other 
fisheries grounds, and cooperative research to restore fisheries. A 
second program was funded in 2007 in the amount of $85 million to 
provide assistance for individual commercial fishermen and fishery-
related business and industry that continue to recover from the post 
disaster impacts.
    In the Gulf of Mexico, nearshore species such as Spanish mackerel, 
striped mullet, blue crab, and oyster comprise the majority of the 
commercial and recreational harvest, resulting in significant social 
and economic benefits to the states and the Nation. In the last decade, 
nearly 80 percent of the Gulf's commercial landings and 90 percent of 
the recreational landings have come from state waters. In 2009, prior 
to the Deep Water Horizon disaster, 82 percent of the Gulf's total 
commercial fishery value was derived from state waters. The IJFA 
provides funding under Section 308(c) for the three interstate marine 
fisheries commissions to develop and revise interjurisdictional fishery 
management plans (FMPs) that are used by the states to enact 
appropriate management strategies with conservation standards intended 
to maintain sustainable stocks into the future. IJFA funding supports 
the states' monitoring and assessment programs and other research 
efforts that gauge the health of various commercially and 
recreationally important fish stocks.
    In the Gulf of Mexico, the IJFA is the cornerstone of the fishery 
management programs for the states and has provided the support for 
long-term databases for commercial and non-commercial crustaceans and 
finfish in the Gulf of Mexico. The fishery-independent databases are 
becoming more and more essential in state and Federal stock assessments 
and will be critical to future regional management success. The five 
Gulf States' long-term monitoring programs are funded to a large extent 
by the IJFA and provide the States the ability to gauge the health of 
commercially and recreationally important fish stocks in their waters. 
NOAA has established a Federal fisheries stock assessment process 
designated the SouthEast Data, Assessment, and Review (SEDAR) to 
develop reliable fishery stock assessments for the Gulf of Mexico and 
Atlantic regions. These assessments rely heavily upon the independent 
data provided by the states related to abundance indices of many 
species. As new stock assessment methodologies, such as ecosystem and 
food web approaches to management are explored and implemented, these 
state-derived data will be even more important. However, the ability to 
conduct stock assessments will hinge upon the quality and duration of 
these datasets which have been supported by the IJFA.
    Under the IJFA language, the appropriations provided to the states 
to support their respective fisheries monitoring programs are 
determined by a formula based on a state's total marine fisheries 
landings. Based on the 2011 appropriations, the maximum allocation that 
any state could receive was approximately $100,000 and the minimum was 
approximately $8,000. The Gulf of Mexico had three `maximum' states by 
volume and value.
    The loss of IJFA funds in the Gulf region has resulted in 
drastically reduced support for the monitoring of our shrimp, crab, and 
finfish fisheries. The loss of IJFA has resulted in the elimination of 
other funding sources under the 1-for-1 match requirement, including 
contributions from limited state license revenues. Florida has lost 
three positions from their blue crab, shrimp, and horseshoe crab 
program which represents 40 percent of their crustacean research staff. 
Texas has reprioritized other funding to determine the status of their 
shellfish populations for formulating shellfish management and harvest 
regulations in coastal waters. Louisiana will be reprioritizing their 
sampling programs which may slow the development of appropriate 
management recommendations. Mississippi has been forced to reduce 
efforts in other state fishery programs to make up the difference to 
continue collecting long-term fishery-independent data. Alabama reports 
that the loss of IJFA funding has resulted in less efficient 
enforcement related to Alabama and Gulf of Mexico fisheries and the 
interactions of fishing activities among protected species.
    In addition to the five States' fisheries monitoring, the IJFA also 
provides funding for the Gulf Commission to regionally coordinate 
inshore, state water fishery resources by the development of regional 
fishery management plans (FMP). The FMPs are used by the states to 
enact appropriate management strategies with conservation standards 
intended to maintain sustainable stocks into the future and provide 
coordinated support to get these management measures passed through 
their respective state commissions and/or legislative bodies. The Gulf 
Commission uses its limited IJFA funds to support the completion of 
regional stock assessments that are currently excluded from the Federal 
SEDAR program but required in regional FMPs. Finally, the funds from 
the IJFA also provide coordination for marine law enforcement in the 
five Gulf States which is critical to the enforceability of the 
regulations enacted by the states in accordance with the regional FMPs. 
However, the costs related to the Gulf Commission's IJFA activities 
have increased substantially in recent years, while the program has 
remained level-funded since 1998. The Gulf Commission currently has 16 
species under management plans or profiles with 10 additional species 
identified for future plan development. Unlike Federal fisheries 
management council plan development, the states provide agency staff to 
participate on the plan's technical task force and draft the regional 
inshore plans. Meeting and travel costs have more than doubled over the 
last decade forcing IJFA staff to streamline its program using 
electronic formats and Internet access to supplement its activities. In 
future reauthorizations of the IJFA, considerations should be taken to 
fund the IFJA at levels appropriate to the cost of fisheries management 
for today and beyond.
SouthEast Area Monitoring and Assessment Program (SEAMAP)
    The SEAMAP program is a State/Federal/University program for 
collection, management, and dissemination of fishery-independent data 
and information in the southeastern United States. SEAMAP is a 
cooperative program whereby Texas, Louisiana, Mississippi, Alabama, 
Florida, South Carolina, North Carolina, Georgia, Puerto Rico, the U.S. 
Virgin Islands, the United States Fish and Wildlife Service, and the 
National Marine Fisheries Service jointly plan and conduct surveys of 
economically significant fish and shellfish and the critical habitats 
that support them. The main goal of SEAMAP is to collect long-term, 
standardized, fishery-independent data on the condition of regional 
living marine resources and their environment.
    The program consists of three operational components; SEAMAP-Gulf 
of Mexico, which began in 1981; SEAMAP-South Atlantic, implemented in 
1983; and SEAMAP-Caribbean, formed in 1988. Each SEAMAP component 
operates independently under annual joint coordination, planning and 
conducting surveys and information dissemination.
    SEAMAP has sponsored long-term (1982 to present) and standardized 
research vessel surveys that have become the very backbone of fisheries 
and habitat management in the region. The long-term dataset obtained 
through SEAMAP surveys provides the ONLY region-wide mechanism for 
monitoring the status of populations and habitats. Through its 
cooperative nature, SEAMAP has the ability to sample the entire 
coastline from North Carolina through Texas during the same time period 
and describe the distribution and abundance of fish populations 
throughout their range in order to better evaluate the status of 
recreational and commercially utilized fish stocks.
    Current SEAMAP surveys include coastal shrimp and finfish trawl 
surveys (Gulf and South Atlantic), reef fish trap, hook and line, and 
video surveys (Caribbean and Gulf), inshore bottom longline (Gulf), 
bottom mapping/essential fish habitat data compilation (South 
Atlantic), spiny lobster, queen conch, and whelk surveys (Caribbean), 
annual plankton surveys (Gulf), and a striped bass winter tagging 
project (South Atlantic).
    SEAMAP data has been used to assess long-term trends in coastal 
marine species, linking population trends with changes in environmental 
conditions such as global warming, nutrient enrichment, and 
overfishing. The data is used to document and define Essential Fish 
Habitat in the fishery management plans for the Gulf of Mexico, South 
Atlantic, and Caribbean Fishery Management Councils. SEAMAP provides 
long-term monitoring of juvenile red snapper abundances for the red 
snapper stock assessments.
    SEAMAP data has been used to identify and verify the recovery of 
Gulf and South Atlantic king mackerel stocks, leading to increased 
fishing quotas, prove the need to eliminate Japanese longline fishing 
for Atlantic bluefin tuna in the Gulf of Mexico, and determine 
population size structures, abundances, and necessary information for 
stock assessments of Atlantic croaker, queen conch, spiny lobster, 
Spanish mackerel, whelk and weakfish.
    SEAMAP data has been used to evaluate the abundance and size 
distribution of penaeid shrimp in Federal and state waters to assist in 
determining opening and closing dates for commercial fisheries, assess 
the impact of the Deepwater Horizon disaster on marine species in the 
Gulf of Mexico through the Natural Resource Damage Assessment (NRDA) 
program, and conduct surveillance of hypoxia (Dead Zone) in the Gulf of 
Mexico that continues to threaten the marine resources of Louisiana and 
adjacent states. Finally, data collected through SEAMAP programs have 
been used by Federal and state fishery managers, Universities, research 
agencies, and others, to expand the knowledge on species life 
histories, define essential fish habitat, develop fishery management 
plans, and determine the impact of fishery regulations.
    In order to continue these important fishery-independent sampling 
efforts, expand current surveys, and begin new surveys to provide 
fishery-independent data on red snapper, shrimp, grouper, king 
mackerel, blue crabs, sharks, striped bass, weakfish, spiny lobster, 
queen conch, and other species that support the economies of the 
Southeast region, adequate resources need to be allocated towards these 
efforts. Without continued funding to support SEAMAP, the Southeast 
region will lose its only region-wide mechanism for monitoring the 
status of marine populations and habitats.
Fisheries Information Network (GulfFIN)
    The GulfFIN program is a State/Federal cooperative program to 
collect, manage, and disseminate statistical data and information on 
the marine commercial and recreational fisheries of the Southeast 
region. It consists of two components: the Commercial Fisheries 
Information Network (ComFIN) and the Recreational Fisheries Information 
Network (RecFIN).
    The need for a comprehensive and cooperative data collection 
program has never been greater because of the magnitude of the 
commercial and recreational fisheries and the differing roles and 
responsibilities of the agencies involved. GulfFIN, through the Texas, 
Louisiana, Mississippi, Alabama, and Florida marine agencies, the Gulf 
Commission, and NOAA Fisheries, has coordinated activities such as 
collection, management, and dissemination of marine recreational 
fisheries data; collection of catch and effort for head boats; 
collection of menhaden catch/effort data; operation of the GulfFIN Data 
Management System; implementation and operations of state commercial 
trip ticket programs; and sampling and analysis of biological data for 
commercial and recreational catches. These data collection activities 
have led to significant improvements of commercial and recreational 
data that has allowed managers to address some of the necessary 
management needs.
    However, adequate fiscal resources need to be allocated for the 
current activities as well as expansion of current efforts and 
implementation of new data collection endeavors, ensuring that the best 
data is available for critical management decisions. Better data allows 
managers to make more informed decisions leading to better management 
of these essential natural resources.
Gulf Seafood Trace Program
    In the wake of the Deepwater Horizon disaster, the Gulf Commission, 
with funding and assistance from NOAA Fisheries, developed Gulf Seafood 
Trace, a regional electronic traceability program. Launched in March 
2012, the Gulf Seafood Trace is a groundbreaking tool for promoting 
seafood from the U.S. Gulf of Mexico. The electronic, internet-based 
program aims to drive demand for Gulf seafood products from both 
seafood buyers and consumers by communicating its Gulf source (thus 
differentiating from imports), telling its unique story, and sharing 
key information from vessel to plate or shelf.
    The program is comprised of three parts: an Electronic Traceability 
Platform, a Data Quality and Confirmation Component, and a Marketing 
Module. The use of an Electronic Traceability Platform builds off of 
the current electronic trip ticket seafood landing system and empowers 
the seafood market with the ability to access reliable trace data that 
has been approved and shared by each business in the supply chain. The 
implementation and utilization of a Data Quality and Confirmation 
Component helps to ensure the quality and reliability of the shared 
data. The Marketing Module allows seafood businesses to tell the 
compelling and unique story about their Gulf seafood to consumers. The 
components of the program are powered by Trace Register<SUP>TM</SUP>, 
an electronic seafood traceability company.
    Participation in the Gulf Seafood Trace program is voluntary, and 
is currently offered at no cost to qualified, Gulf seafood businesses 
through the end of 2014. To date, 56 businesses have enrolled in the 
regional program, representing approximately 25 percent of the Gulf 
seafood processors.

    Senator Begich. And our last speaker on this panel, Eric 
Schwaab, Assistant Secretary for Conservation and Management.

          STATEMENT OF HON. ERIC C. SCHWAAB, ASSISTANT

        ADMINISTRATOR FOR THE NATIONAL MARINE FISHERIES

           SERVICE, NATIONAL OCEANIC AND ATMOSPHERIC

          ADMINISTRATION, U.S. DEPARTMENT OF COMMERCE

    Mr. Schwaab. Good morning, Mr. Chairman, Ranking Member 
Rubio, Senator Cantwell. Thank you for the opportunity to speak 
with you today about interjurisdictional fisheries management. 
I am Eric Schwaab. I am the Assistant Administrator for 
Fisheries currently performing the functions of the Assistant 
Secretary for Conservation and Management within the Department 
of Commerce's National Oceanic and Atmospheric Administration.
    NOAA's National Marine Fishery Service is dedicated to the 
stewardship of living marine resources through science-based 
conservation and management. Much of this work occurs under the 
Magnuson-Stevens Fisheries Conservation and Management Act. 
However, Federal authorities are only one aspect of effective 
marine fisheries management. NMFS has a long history of working 
cooperatively with the states and the interstate marine 
fisheries commissions in many aspects of fisheries, science, 
and management.
    In addition to the regional fishery management councils, we 
count these gentlemen here at the table with me and the states 
they represent among our most important management partners. 
The Interjurisdictional Fisheries Act, the Atlantic Coastal 
Fisheries Cooperative Management Act, and the Endangered 
Species Act provide mechanisms for NMFS to work closely with 
and provide Federal funds to states and the commissions in 
support of our shared goals. Our joint enforcement agreements 
with states, which also include funding, support another set of 
important partnerships.
    Let me say just a few words about management coordination. 
States and the Federal Government do have a long history of 
close coordination. I will note, Mr. Chairman, that personally, 
prior to coming to NOAA, I worked on two occasions at the 
Maryland Department of Natural Resources, including a 4-year 
stint as the fisheries director there during which time I 
served on the Atlantic States Marine Fisheries Commission.
    The fishery management councils principally manage Federal 
waters. Under the Magnuson-Stevens Act, the states play a vital 
role and are well represented on the eight regional fishery 
management councils. Council members include principal state 
marine fishery officials and members with expertise on regional 
fisheries appointed by the Commerce Secretary upon nomination 
from the Governors. The executive directors of the appropriate 
marine fisheries commission is also a non-voting member on the 
councils.
    In state waters, states are the principal management 
authority. In some cases, states directly lead management that 
overlaps with Federal jurisdiction. An example is in the 
Alaskan salmon fishery where NMFS in the North Pacific Fishery 
Management Council worked with the State of Alaska to 
comprehensively revise the salmon fishery management plan, 
which is executed primarily under the auspices of the state.
    On the Atlantic coast, as Mr. Beal indicated, the Atlantic 
States Marine Fisheries Commission demonstrates how states work 
together to accomplish in-shore management objectives with the 
Federal Government playing a supporting role.
    In 1981, to address declines in the striped bass stock, the 
Atlantic States Marine Fisheries Commission prepared a coast-
wide plan. The Congress then passed the Striped Bass 
Conservation Act providing Federal authority to impose 
sanctions on striped bass fishing in states which failed to 
comply with the interstate plan. That authority was 
subsequently amended to expand to other Atlantic coastal 
stocks.
    It is important to note that under the ASMFC, state 
managers play a role similar to fishery management councils in 
both coast-wide conservation and allocation decisions, 
including allocation of summer flounder quotas among states and 
fishing sectors. It is also worthy of note that in many states, 
in many cases, the states and the councils work closely to 
enact and operate under joint management plans.
    On the science front, Federal, state, and state 
partnerships are also improving the science that informs 
fishery management. State, Federal, and academic scientists 
work together through multiple venues to collect data, assess 
stocks, and monitor fisheries. I would note one example, the 
SouthEast Data, Assessment, and Review program (SEDAR) which 
brings together NMFS, the councils, the interstate commissions, 
and the states to improve the quality of fishery stock 
assessments in the south Atlantic, the Gulf of Mexico, and the 
U.S. Caribbean. SEDAR emphasizes state quota participation as 
well as independent science review of stock assessments.
    There are many other examples some of which you've already 
heard here from my fellow members of the panel.
    In conclusion, Mr. Chairman, recognizing our collective 
accomplishments, there is always room for improvement. We are 
continuing to look for ways to improve efficiency in particular 
with respect to data collection programs and ways in which we 
can improve communication and coordination among our regional 
offices, our science centers, state partners, and the 
interstate commissions. We are particularly working to support 
and strengthen these Federal-state partnerships to meet these 
emerging challenges.
    I will note, as you have already heard, that as budgets 
tighten, however, the fisheries service and our partners are 
faced with difficult decisions about where to focus our 
efforts, as our collective needs far exceed available funding. 
This is a significant and ongoing challenge, and in many 
respects, you might say, deepening challenge.
    Thank you, again, for inviting me to testify before the 
Committee today and I will be happy to answer any questions you 
might have.
    [The prepared statement of Mr. Schwaab follows:]

Prepared Statement of Hon. Eric C. Schwaab, Assistant Administrator for 
the National Marine Fisheries Service, National Oceanic and Atmospheric 
              Administration, U.S. Department of Commerce
Introduction
    Good morning, Mr. Chairman and Members of the Subcommittee. I 
appreciate the opportunity to speak with you today about 
interjurisdictional fisheries management. My name is Eric Schwaab and I 
am the Assistant Administrator for Fisheries, within the Department of 
Commerce's (DOC) National Oceanic and Atmospheric Administration 
(NOAA). The National Marine Fisheries Service (NMFS) is dedicated to 
the stewardship of living marine resources through science-based 
conservation and management. Much of this work occurs under the 
Magnuson-Stevens Fishery Conservation and Management Act (Magnuson-
Stevens Act), which sets forth standards for conservation, management 
and sustainable use of our Nation's fisheries resources. However, 
Federal authorities are only one aspect of effective marine fisheries 
management.
    NMFS has a long history of working cooperatively and effectively 
with the States and Interstate Marine Fisheries Commissions on a 
variety of fishery management issues to ensure fishery resources are 
managed sustainably and for the benefit of the Nation. Statutes such as 
the Interjurisdictional Fisheries Act provided a way for the states and 
the Federal Government to partner on a wide range of shared issues, 
while the Anadromous Fish Conservation Act and the Striped Bass 
Conservation Act focused on federal-state coordination to address 
particular fisheries issues. In many areas, states lead on management 
of marine fishery resources, with the Federal Government providing 
important support functions for management and scientific research.
    Federal funding is a critical component of our support for 
partnerships with the states and Interstate Marine Fisheries 
Commissions. A variety of authorities, such as the Interjurisdictional 
Fisheries Act, Atlantic Coastal Fisheries Cooperative Management Act, 
and Endangered Species Act, provide a mechanism for NMFS to provide 
funding to states and the Commissions in support of our shared goal of 
sustainable fisheries management. Our Joint Enforcement Agreements with 
states, which also include funding support, are an additional facet to 
our complex and important partnership. We have worked diligently to be 
able to support these important efforts, but it is a challenging 
struggle. As budgets continue to tighten, NMFS and our partners will be 
faced with more and more difficult decisions about where to focus our 
efforts.
    Marine fish and fisheries, such as salmon in the Pacific Northwest 
and Alaska, cod in New England, summer flounder in the Mid-Atlantic, 
red snapper in the South Atlantic and Gulf, tuna in the Western 
Pacific, and lobster in the Caribbean have been vital to the prosperity 
and cultural identity of coastal communities in the United States 
(U.S.). U.S. fisheries play an enormous role in the U.S. economy. 
Commercial fishing supports fishermen and fishing communities, and 
provides Americans with sustainable, healthy food sources. Recreational 
fishing is an important social activity for individuals, families, and 
communities, and it is a critical economic driver of and contributor to 
local and regional economies, as well as the national economy. 
Subsistence fishing provides an essential food source and is culturally 
significant for many people. What I want to point out about all of 
these issues is that they have national, regional, and local 
significance.
    Today, I want to talk about the continuum of coordination between 
the Federal Government and the states on marine fisheries management, 
highlighting areas of success and areas where we believe additional 
coordination can benefit our natural resources and coastal economies. 
We cannot successfully achieve our objective of sustainable management 
of marine fishery resources without state partnerships. Maintaining 
these important partnerships is critical to effective stewardship of 
our Nation's living marine resources.
Federal-State Science Partnerships
    There are a number of examples where coordination among the Federal 
Government, Interstate Fishery Commissions, and state governments has 
improved the science underpinning management of marine fisheries, and 
provided flexibility to address emerging issues and needs for fisheries 
management. I would like to highlight a few examples to illustrate the 
importance of these partnerships, and the value added that is achieved 
by this coordination.
    The SouthEast Data, Assessment, and Review (SEDAR) program is one 
excellent example of effective partnerships among NMFS, the Councils, 
the interstate Commissions, and the states. This program, begun in 
2002, improves the quality of fishery stock assessments in the South 
Atlantic, Gulf of Mexico, and U.S. Caribbean. SEDAR seeks improvements 
in the scientific quality of stock assessments and greater relevance of 
available information to address current and new fishery management 
issues. The program emphasizes constituent and stakeholder 
participation in the assessment process, and a rigorous and independent 
scientific review of completed stock assessments.
    New issues in fisheries management are constantly emerging. Our 
engagement with the Interstate Commissions has allowed us to address 
many of these challenges. For example, the Pacific States Marine 
Fisheries Commission has been a critical partner in the implementation 
of the Pacific Trawl Rationalization program. In response to feedback 
from fishermen participating in that fishery, an effort is underway to 
evaluate the utility and feasibility of electronic monitoring--the use 
of on-board cameras to monitor catch. The Pacific States Commission, in 
collaboration with NMFS and the Pacific Council, has been spearheading 
the testing of video cameras and analysis of the video to inform 
potential future management action. In addition, the Pacific States 
Commission was crucial in developing the electronic fish tickets and 
subsequent link to our database that is vital to our accounting for 
quota caught by fishermen in the catch share system.
    In the Gulf, in the wake of the Deepwater Horizon oil spill 
disaster, the Gulf States Marine Fisheries Commission, with funding and 
assistance from NMFS, developed a regional electronic traceability 
program called ``Gulf Seafood Trace'' which was launched in March 2012. 
The program aims to drive demand for Gulf seafood products from both 
seafood buyers and consumers by communicating its Gulf source, telling 
its unique story, and sharing key information from vessel to plate or 
shelf. To date, 56 businesses have enrolled in the regional program, 
representing approximately 25 percent of the Gulf seafood processors.
    The Atlantic States Marine Fisheries Commission has recently begun 
work to ascertain whether climate change and warming coastal waters are 
causing shifts in the geographic distributions of fish stocks. We 
recognize the important role climate change will play in fisheries 
management and are encouraged by the Commission's proactive effort to 
examine these shifts. We will be working with the Commission in this 
effort, which will help inform our management of important commercial 
and recreational fisheries for the states.
    One example of partnership under the Magnuson-Stevens Act is the 
requirement for the Secretary of Commerce to establish and implement a 
regionally based registry program for recreational fishermen. The 
Marine Recreational Information Program (MRIP) has from its inception 
fully consulted and partnered with the states. MRIP is the new way that 
NMFS is collecting and reporting recreational fishing catch and effort 
data to ensure that estimates of recreational fishing activity are both 
accurate and trusted. To ensure that the states' needs and priorities 
are reflected in MRIP's key policy and priority decision-making, the 
MRIP Executive Steering Committee includes representatives from the 
three Interstate Marine Fisheries Commissions. Much of MRIP's work to 
develop and pilot test new survey design, data collection and 
information management projects is undertaken by the MRIP Operations, 
Registry and Information Management Teams. These teams include numerous 
state agency program managers and technical staff. Many of the 59 
research projects that MRIP has conducted to develop improved survey 
methods have been undertaken or led by state partners.
    In addition, the states are active partners with NMFS in conducting 
the MRIP data collection efforts. With MRIP funding through the Gulf 
States Marine Fisheries Commission, the states of Louisiana, 
Mississippi, Alabama, and Florida conduct the field work to perform 
dockside interviews of anglers to collect catch data, and also do 
telephone surveys of charter boat operators to collect trip, or effort, 
data. State agency personnel in Hawaii, Puerto Rico, Maine, New 
Hampshire, Massachusetts, North Carolina, South Carolina, and Georgia 
are also funded by MRIP to conduct the dockside interviews, and we are 
working with the remaining states to find ways to include them in this 
data collection effort. Some of these states are also collecting MRIP 
data from for-hire fishing vessels. MRIP provides funding to 
California, Oregon and Washington to conduct the group of surveys 
collectively managed as Pacific RecFIN through the Pacific States 
Marine Fisheries Commission. MRIP has also provided funds to RecFIN 
states to conduct expert reviews of the survey designs and to develop 
and pilot test recommended improvements to increase the accuracy of the 
survey results.
    In addition, in 2011 NOAA supported a Blue Crab Stock Assessment in 
the Chesapeake Bay. This was the first comprehensive assessment on the 
population since 2005 and confirmed that Chesapeake Bay blue crabs are 
becoming more abundant, based in large part on the management efforts 
put in place in recent years by Maryland and Virginia. The assessment 
also provided important new data for state officials to consider as 
they continue to fully rebuild the regional stock of this iconic Bay 
species.
    Good information is the fundamental underpinning to effective 
management and yet the complexities of connecting various data streams 
is extremely challenging. The states are important partners to many of 
our data collection programs, such as the Fisheries Information Network 
(FIN) programs, and we plan to continue engaging with the states and 
Commissions to discuss ways we can improve the effectiveness and 
efficiency of these programs.
Federal-State Management
    Laws and practice have established a range of federal-state 
partnerships in marine fisheries management, where different approaches 
and processes are employed depending on the fishery. This allows for 
regional variation, depending on regional need, in how the Federal 
Government and States coordinate to achieve shared objectives for 
sustainable management.
State-led Management
    One end of the Federal-State management continuum is State-led 
fisheries management. For example, NMFS, the State of Alaska, and the 
North Pacific Fishery Management Council successfully and cooperatively 
manage fisheries in the exclusive economic zone (EEZ) off Alaska. Three 
Federal fishery management plans delegate much of the day-to-day 
fisheries management to the State of Alaska including crab in the 
Bering Sea and Aleutian Islands, scallops in the EEZ off Alaska, and 
salmon in the EEZ off Alaska.
    An example I would like to highlight is salmon fishery management. 
Along with meeting the annual catch limit requirement for salmon, NMFS 
and the Council worked with the State of Alaska to comprehensively 
revise the Salmon Fishery Management Plan (FMP). The Salmon FMP's 
unique functions--closing the vast majority of the EEZ to salmon 
fishing and facilitating State management of the few salmon fisheries 
in the EEZ--reflect the salmon life cycle. The FMP's unique functions 
also recognize that the State is the appropriate authority for managing 
Alaska salmon fisheries given the State's existing infrastructure and 
expertise. The State manages Alaska salmon stocks throughout their 
range using a management approach designed to specifically address the 
life cycle of salmon, the nonselective nature of fishing in a mixed 
stock fishery, and the fact that a given salmon stock is subject to 
multiple fisheries through its migration from marine to fresh waters.
Joint Management with the Interstate Fisheries Commissions
    Shared state and Federal management and science through the 
Interstate Fisheries Commissions is the next step along the continuum 
of successful interjurisdictional management.
    The Atlantic Coastal Fisheries Cooperative Management Act of 1993 
presented a new and innovative approach to coordinated management of 
coastal migratory fisheries along the Atlantic coast. The law 
established a cooperative management process that includes the Atlantic 
States Marine Fisheries Commission, NMFS, and the U.S. Fish and 
Wildlife Service. This Act provides a mechanism to ensure conservation 
of Atlantic coastal state fisheries while promoting compliance with 
Commission-approved fishery management plans. Examples of joint 
Federal-State management include striped bass, American lobster, summer 
flounder, black sea bass, and scup among other species. Our partnership 
with the Atlantic States Commission has continued to advance efforts to 
improve sustainability, both in fisheries within state waters and 
fisheries that span state and Federal jurisdiction.
    Striped bass management through the Atlantic States Marine 
Fisheries Commission is an example where states lead, but where the 
Federal Government plays an important role in sustainable management. 
In 1981, to address declines in this stock, the Atlantic States Marine 
Fisheries Commission prepared a coastwide management plan for striped 
bass. The Striped Bass Conservation Act of 1984 (SBCA) was passed in 
response to declines in commercial and recreational striped bass 
harvest and lower production of juvenile striped bass. It authorizes 
the Secretaries of Commerce and the Interior to use a moratorium on 
striped bass fishing in states which fail to comply with a necessary 
conservation measure in the Commission's fishery management plan.
    The SBCA also allows the Secretary of Commerce (Secretary) to 
implement regulations regarding striped bass fishing in the Exclusive 
Economic Zone (EEZ). Due in large part to the successful implementation 
of the Act, the Atlantic striped bass stock was considered recovered in 
1995. To give a sense of the scale of the recovery, the striped bass 
population had declined to less than 5 million in 1982, but by 2007 
there were nearly 56 million fish. In 2010, recreational anglers and 
commercial fishermen caught 2.9 million fish and these fishing 
businesses are a significant economic driver in coastal communities 
along the Atlantic coast. The most recent 2011 stock assessment 
concluded that the stock was not undergoing overfishing and was not 
overfished.
    Other statutes, such as the Interjurisdictional Fisheries Act of 
1986 (IFA), provide additional authority and mechanisms for the Federal 
Government and states to partner. The IFA has three overall purposes: 
(1) to promote and encourage state activities in support of the 
management of interjurisdictional resources, (2) to promote the 
management of interjurisdictional fisheries resources throughout their 
range, and (3) to promote and encourage research in preparation for the 
implementation of the use of ecosystems and interspecies approaches to 
the conservation and management of interjurisdictional fishery 
resources throughout their range.
    A variety of important fishery programs have been supported under 
the IFA around the country, including a surf clam survey in New Jersey, 
a commercial fisheries statistics information system in Virginia, the 
interjurisdictional fisheries assessment and management program for 
Louisiana's coastal fisheries, and monitoring and management of 
California's coastal pelagic species. These and other activities 
supported by the IFA supported partnerships with the states and helped 
to improve our understanding of valuable marine resources which support 
thriving fishing businesses and coastal communities.
Collaboration under the Magnuson-Stevens Act
    Concluding our progression on the continuum of Federal-State 
coordination for fisheries management is management under the regional 
fishery management process. Federal fisheries are managed under the 
Magnuson-Stevens Act. Since its initial passage in 1976, the Magnuson-
Stevens Act has charted a groundbreaking course for sustainable 
fisheries, which included establishing eight regional Councils. While 
the Councils have management authority in Federal waters, they are also 
explicitly linked to the States by design based on who has voting 
rights on each Council. The voting members of each Council include the 
principal State officials with marine fishery management responsibility 
and expertise, the regional director of NMFS, and members appointed by 
the Secretary, but nominated by state Governors. Each brings local or 
regional experience, expertise, and knowledge regarding the 
conservation and management, and commercial or recreational harvest, of 
the fishery resources of that geographic area. Each executive director 
of the appropriate Marine Fisheries Commission is a non-voting member 
on the Councils as well.
    When reauthorized in 2007, the Magnuson-Stevens Act gave the eight 
regional fishery management councils and NMFS a very clear charge and 
some new tools to support improved science and management. It mandated 
the use of science-based annual catch limits and accountability 
measures to prevent and end overfishing, provided for market-based 
fishery management through Limited Access Privilege Programs (or catch 
shares), focused on collaborative research with the fishing industry 
and bycatch reduction, addressed the need to improve the science used 
to inform fisheries management, and sought to end illegal fishing and 
bycatch problems around the globe so that foreign fishing fleets are 
held to the same standards as, and do not economically disadvantage, 
U.S. fleets.
    With the partnerships and tools inherent in the Magnuson-Stevens 
Act, the Federal fishery management system is effectively rebuilding 
fisheries and we continue to make progress towards long-term biological 
and economic sustainability and stability.
    In general, our joint efforts have allowed us to tackle the 
nation's pressing fishery management issues. However, challenges still 
exist. Inconsistency between Federal and state management requirements 
is one example. Communicating those differences and the rationale for 
them to fishermen is even more difficult. Improving connections through 
enhanced communication and coordination between all the partners will 
be an important effort for us all to make.
Conclusion
    We recognize that we have had many successes in our partnerships 
with the states and Interstate Commissions, a few of which we have 
highlighted here. In addition, we collaborate on Endangered Species Act 
designations, habitat conservation activities, and enforcement 
activities that are fundamental components to ensuring overall 
ecosystem sustainability. We have strong relationships that help us 
tackle challenges and emerging issues in ways that meets State and 
Federal needs.
    Recognizing these positive steps, there is always room for 
improvement. We will continue to look for ways to improve efficiency, 
in particular with respect to data collection programs; strengthen our 
ability to move from pilot tests to action where appropriate; and 
enhance communication and coordination among our Regional Offices, 
Science Centers, State partners and the Interstate Commissions.
    Thank you for the opportunity to speak with you today and I would 
be happy to answer any questions.

    Senator Begich. Very good. Thank you, again, to the panel 
for being here. We'll start the questioning off with the 
ranking member, Senator Rubio. We'll try to limit these to 5-
minute rounds, and if there are additional questions members 
have, they can always submit them for the record.
    Senator Rubio.
    Senator Rubio. Thank you, Mr. Chairman.
    Let me begin, Secretary Schwaab, you know, last year, 
Senators Kerry, Snowe, and others introduced the bipartisan 
Fishery Investment and Regulatory Relief Act. It was designed 
to restore the Saltonstall-Kennedy Act funding to its intended 
purpose, which is to support regionally driven fishery research 
and management programs that address the local and regional 
fishery issues.
    How much of the funding from Saltonstall-Kennedy, that 
Commerce receives each year from the Secretary of Agriculture, 
has gone to the Promote and Develop Fisheries' national grant 
program over the last 4 years?
    Mr. Schwaab. Thank you, Senator Rubio.
    I do not have the exact data for the last 4 years. We can 
certainly provide that for you. I think it is worthy of note 
that dating back many years now, first initiated by Congress, 
subsequently included in a whole series of Presidents' budgets 
and acted on in appropriation bills. The funding has been used 
to offset key, primarily, agency science programs for a number 
of years, and in 2012, 95 percent of the stock assessments and 
100 percent of cooperative research, nationwide, were funded 
through those appropriations.
    I would note that the current use of the funds include 
fisheries, research, and management, expanding annual stock 
assessments, survey and monitoring projects, and cooperative 
research.
    As to your specific numbers, I'm happy to provide them to 
you.
    Senator Rubio. We can get those, but it's safe to say, and 
we know this and your testimony, I think, confirms it, that 
some of that money that was designed efficiently, the intended 
purpose to support these regionally driven fisheries, research, 
and management programs, some of that money has been diverted 
toward operational uses, correct?
    Mr. Schwaab. Yes, sir, through appropriation bills over 
many years.
    Senator Rubio. Right. OK, so let me--do you have a 
position, or does the agency have a position on legislation 
that would permanently direct these funds towards the regional 
programs that would promote the data collection?
    Mr. Schwaab. We don't have an explicit position. I mean, we 
certainly appreciate the bill's intent to both involve the 
industry more in fisheries management process and to provide 
some of these additional marketing resources that would be very 
important to fisheries around the country.
    Senator Rubio. Let me expand to the whole panel and just 
say, well, I think I know the answer to, but I'd like you to 
elaborate on it. It's something, as I said in my opening 
statement, that's at the center of my thinking with regards to 
fisheries, and that's, do you all agree that we need to 
maintain or increase the funding for the data collection? The 
data collection is at the heart of all of these standards that 
are set. The numbers that are set are supposed to be driven by 
the data. I mean, do you all agree that this is a pressing need 
to both protect and potentially, even, increase the funding 
that goes toward the data collection? In any order, I mean, I 
guess left to right is fine.
    Mr. Donaldson. Senator Rubio, yes, I whole heartedly 
support that. I think without critical data, we can't make 
informed decisions and the more money we can associate towards 
increasing data collection and improving the data is what we 
need to focus on.
    Mr. Fisher. Yes, I agree 100 percent. The only thing is the 
situations that we've been faced with over a number of years is 
the data collection line items have been basically held the 
same, so as costs increase with healthcare and other things 
like that, what the net effect has been is a reduction in our 
ability to provide critical data.
    Mr. Beal. I agree with the previous speakers. The data to 
support the management and the science to support the 
management is the key underpinnings of all these management 
programs along, on all three coasts. I think, you know, access 
to the data and new creative ways to collect the data and a 
more cost-effective way are part of this, part of the picture 
as well.
    Senator Rubio. Let me just follow up with you, Mr. Beal, 
and then we can just go down the line the other way.
    Are your organizations, are they prepared to handle the 
increased, if increased funding came, I mean, I know this 
sounds like a funny question----
    Mr. Beal. Right.
    Mr. Rubio. --but are they prepared to handle the increased 
workload that would come with that?
    Mr. Beal. Yes, we have the capacity to expand to address 
the workload issues, and we partner with the states, and the 
states have also had the capacity to conduct more science and, 
you know, generate the data needed to support the management.
    Mr. Fisher. Yes. On the West Coast, as you know, we manage 
all of the commercial and recreational data for the West Coast 
and Alaska, so we are the data gatherers, basically, and as Bob 
indicated, the states are in a position with their budget 
problems that this would be very helpful.
    Mr. Donaldson. Absolutely. In the Gulf of Mexico, we, too, 
coordinate the collection of recreational and commercial data 
and work with the states closely and are ready to step up to 
the plate.
    Senator Rubio. And my final question is, do any of you have 
any specific recommendations as to how we can improve the 
collection of data related to the recreational industry in 
particular?
    Mr. Fisher. Well, on the West Coast, the recreational data 
is actually--we've had licenses for a number of years. 
Recreational data is actually fairly competent on the West 
Coast.
    What we are missing now with cuts, we don't, we're not 
providing data anymore for beach access-type fishing. Marine 
activities, we're all covered, but onshore and beach stuff, 
we've had to eliminate that from our databases.
    Mr. Donaldson. In the Gulf of Mexico, the need for more 
timely recreational data is becoming more and more important 
with the management regimes that are in place and that becomes 
problematic with the recreational fisheries just because of the 
large number of people that you're dealing with, and it, while 
it seems like an easy fix to give everyone iPhones and report 
their information, there needs to be some discussion, some 
exploration of how to effectively do that to ensure that we're 
getting the data in a more timely manner, but it's also 
accurate. So it's, unfortunately, it's a harder thing to 
accomplish than you would think, but I think that it's 
something that we need to focus on.
    Senator Begich. Mr. Beal, do you have anything to add 
before I move to----
    Mr. Beal. Yes, I think along the east coast, the resolution 
of the recreational data is important and it's, you know, as we 
get into the dialogue on summer flounder, one of the key issues 
is the resolution of the data and how, finally, you can 
subdivide that data to the state level or even as smaller gear-
type levels or whatever it might be.
    But the conversion that National Marine Fisheries Services 
is currently going through from the old MRFSS system to the new 
MRIP, Marine Recreational Information Program, I think that's 
an important transition that would, it's underway right now. I 
think the funding for that transition is important. I think the 
thing along the east coast that really would generate the best 
data is just increased number of intercepts, which is, you 
know, talking to folks at the dock, asking them what they 
caught, measuring their catch, and then the follow up surveys 
and interviews that characterize the effort that is taking 
place along the east coast, in particular. So, I think just the 
increased interaction with the fishermen and sampling their 
catches is one of the critical needs on the east coast.
    Senator Begich. Thank you, all, very much.
    Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman, and thank you 
and Senator Rubio for having this hearing, and it gives me a 
great deal of confidence that fish issues are going to get a 
great deal of attention knowing your two states. And I'm 
reminded of what the late Commerce Secretary Ron Brown, once 
said, that he was the Secretary of Commerce, but he guaranteed 
if a Member of Congress was calling him, it was about fish, and 
so I'm very glad that we're having this hearing and I'm glad to 
see all of you.
    And sometimes, you know, we're up here thinking, OK, who's 
underneath these polices, so take no offense to my next 
comment, but I am concerned with the start of discussions of 
Magnuson-Stevens that we don't have a Commerce Secretary that's 
confirmed. Jane Lubchenco is gone and Mr. Schwaab, you're here 
for a position that isn't filled, so you're the fourth one down 
in an agency where we need to have some leadership as it 
relates to how do we resolve these fishing issues.
    So, a couple questions I have for you, Mr. Schwaab. One, 
the U.S.-Canadian Albacore Treaty, are we getting better data 
so that the U.S. fishermen can get a better shake on tuna and 
that are we doing a good job? I know the State Department 
handles part of this, but your data can be critical.
    And I'm interested on the groundfish fishery, are we with 
all the discussion that's happening with funding and cuts, are 
we going to have an adequate observer program to make sure that 
this fishery is run well and what do we need to do to make sure 
that that happens?
    And then I'd like to see if we could also get an answer 
from Mr. Fisher about my colleague from Arizona who, I'm sure, 
doesn't see a lot of salmon, but what his amendment would do to 
impact salmon recovery, Senator McCain's amendment that he's 
been considering on the floor to zero out ``Pac surf. [Edito's 
note: PCSRF, the Pacific Coastal Salmon Recovery Fund.]''
    So, if I could get comments on all that, I would greatly 
appreciate it.
    Mr. Schwaab. Thank you, Senator Cantwell.
    Regarding data to support discussions around the U.S. 
Albacore, U.S.-Canada Albacore Treaty, I think we have a pretty 
good handle on where the fish are being caught and where the 
fish are being landed over a long period of time, and more 
recently. I think that's part of, sort of the crux of the 
challenge in that these fish do, as you know, move historically 
up and down the coast, or are available, historically, up and 
down the coast in-between U.S. and Canada waters, and more 
recently, they have predominantly been present in U.S. waters. 
So, which has, you know, which has led to some of the positions 
that have been taken more recently and--but some of those 
longer-term considerations, as well as the interest of the 
processors who receive those fish up and down the coast, are 
part of what the U.S. is factoring in, in our discussions 
regarding the future of that treaty.
    Senator Cantwell. And on the groundfish?
    Mr. Schwaab. And on the observer program, as I think you 
know, the council, in putting the new plan in place, required 
100 percent observer coverage. We supported substantially in 
year one and the costs of those observers, we actually in year 
two, changed the schedule to supplement more heavily the 
observer costs that the fishermen are experiencing. Our 
expectation is that as the fisheries become more profitable, 
the fishermen will be in a position to assume greater share of 
those costs over time. We're monitoring that situation very 
closely, as we are in other parts of the country.
    I think the other part of that equation, however, is 
bringing those costs down and a big part of that is looking at 
some of the alternative technologies that might be out there, 
and Mr. Fisher mentioned the work that the Pacific States 
Commission is doing very closely with us in support of some of 
the experimentation of some alternative monitoring 
technologies.
    Senator Cantwell. Thank you.
    I think every time the agency is before this committee, 
though, what I'm interested in is the commitment to the 
groundfish observer program as a key component and so we never 
want to see NOAA backing away from it. So you're not backing 
away from it, you're saying you're going to get it done, you're 
just, you're going to weather the storm, whatever way you can?
    Mr. Schwaab. We are doing the best we can to help the 
fishermen undergo this transition and supporting that to the 
extent that is necessary and that we can financially, and 
obviously, budget challenges are very real for us, of course.
    Senator Cantwell. But you're not going to back away from 
groundfish observing?
    Mr. Schwaab. Absolutely not.
    Senator Cantwell. OK, thank you.
    Mr. Fisher, I'll come back to you with a follow-up on that. 
I just want to--you know, the Canadian fleet is so much larger 
than ours on the tuna so, but I'll get back to you in a written 
question on that.
    But Mr. Fisher, I wanted to get your comments on the salmon 
issue, because we're making some progress in salmon recovery. 
What would the impact be if we cut the salmon recovery program?
    Mr. Fisher. Yes, Senator Cantwell, we are making a lot of 
improvements in terms of salmon habitat. Those funds basically 
go directly to the states. They're not used for operational 
things. Many of those funds have been used for habitat work. 
Senator Murray and your office have been very, very supportive 
of this over time. So if we cut this out, we're going to 
instantly probably have a problem in terms of some of the 
habitat work that's being done by the states and through a lot 
of the local watershed districts where those funds are actually 
being spent. So, we don't want to throw the baby out with the 
bathwater right now. I don't think it would be timely at all.
    Senator Cantwell. Thank you. Thank you, Mr. Chairman.
    Senator Begich. Thank you very much.
    Senator Cowan.

               STATEMENT OF HON. WILLIAM COWAN, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Cowan. Thank you, Mr. Chairman and thank you and 
Senator Rubio for calling this hearing. Gentlemen, thank you 
for your testimony and the conversation today.
    I, actually, am going to pick up, Mr. Schwaab, where 
Senator Rubio started around the issue of the funds generated 
by the Saltonstall-Kennedy Act. I know you indicated you will 
provide us more information when you have the time, but just 
for our own edification to the discussion, you know, doing a 
little math myself, it seems that in 2010, the portion that 
should have gone to the grant program, about 30 percent, 
equaled about $113 million, and I know you'll check my math on 
that, and that would have meant, of that $113 million, about 
$105 million actually went to NOAA operations. That's about 93 
percent. That leaves about $8 million for the fishing industry, 
the fishermen.
    In Massachusetts, $8 million is nothing to sneeze at, but 
$113 million is real money, money that we need for a 300-year-
old industry that is dying in large part because of its 
relationship and the actions of NOAA, including the failure to 
distribute this kind of money to our fishing industry. Are you 
satisfied that these dollars are being used in the most 
efficient way and consistent with the legislation?
    Mr. Schwaab. Thank you, Senator. I would make two points. 
First, the moneies, while not being used specifically for 
promotion and development, as envisioned in the original 
purpose, are being used very much to the benefit of fishermen 
and fishing communities around the country and certainly in New 
England and I would note, again, that those funds support 
things like cooperative research, support things like expanding 
stock assessment to deal with some of the very real challenges 
that we've already heard about here this morning, and to 
support survey and monitoring. I----
    Senator Cowan. Mr. Schwaab, I'm sorry----
    Mr. Schwaab. Yes.
    Senator Cowan.--let me interrupt for a second. I apologize, 
because I don't have a whole lot of time here, but I do 
appreciate your testimony.
    One of things I noticed was absent from your testimony and 
Mr. Beal's was much discussion about New England fisheries, 
particularly, the challenges of the Gulf of Maine cod. So when 
you say that these dollars are being expended in a way that's 
specific to the need and industry of Massachusetts, could you 
specify, in this conversation, how that money is helping the 
people of Massachusetts?
    Mr. Schwaab. So, one of the fundamental challenges that we 
have already heard referenced here is the ability to provide 
timely, accurate, and precise assessments of fish stocks and 
that includes surveying out on the water independent of the 
fisheries, that includes providing input from the fishermen 
through monitoring of both on the water and shore-side catches, 
and then incorporating those data into stock assessments to 
provide more timely information about what's happening out on 
the water and to provide more precise assessments so that we 
can, not only maximize allocation of quota, or establishment of 
quotas on a sustainable basis, but that we can pick up signals 
that might suggest something's happening on the water 
differently than what we had anticipated a year or two, three 
years' prior. So in that sense, those funds, in addition to 
providing funds directly for cooperative research that involve 
fishermen in work, both in support of stock assessment as well 
as in the development, for example, of alternative gears to 
minimize bycatch, to reduce capture costs through fuel 
efficiencies and the like, are all very much benefiting 
fishermen of New England.
    Senator Cowan. Yet we are seeing a significant drop in the 
number of fishing vessels that are coming out of the New 
England ports, substantial material numbers, and the economics 
are going horribly in the wrong direction. Would you agree with 
me, Mr. Schwaab, that if these dollars were directly going to 
the fishing industry, it would be a better use and better 
resource for the industry itself?
    You want to think about that one?
    Mr. Schwaab. I want to think about how to say this. I think 
that, fundamentally, fishermen need fish first and then we need 
to try to make sure that we find ways to maximize their market 
opportunities associated with the fish that they do catch so 
that it's difficult to answer it as an either/or question. You 
know, we need to have and we need to support fisheries through 
the most accurate assessment information possible. Now, what's 
happened more recently in New England suggests a change in our 
understanding of the status of the stocks in a relatively short 
period of time. Had we more monitoring or more survey on the 
water, we might have picked that up sooner. That would not 
necessarily have meant today we have more fish, so it's a bit 
of a challenging question in that regard.
    Senator Cowan. Mr. Chairman, I see I'm out of time. With 
your indulgence, perhaps one quick follow-up question?
    Senator Begich. Yes.
    Senator Cowan. Mr. Schwaab, you sort of alluded to both, in 
your spoken testimony, your written testimony, that the data 
collection, or perhaps another way to say it, the science isn't 
as precise or as correct as, perhaps, we'd like it to be. Would 
you agree with me if the science itself is faulty or 
inadequate, any regulations or decisions by NOAA, based on that 
faulty or inadequate science, should be called into question?
    Mr. Schwaab. Senator, I would say that we can always have 
more accurate, or more precise, or more timely data.
    Senator Cowan. I agree with you, but----
    Mr. Schwaab. That does not----
    Senator Cowan. Mr. Schwaab, specific to my question, if the 
data itself is faulty, does it call into question the 
regulations, based on that data?
    Mr. Schwaab. I guess what I would say is that's not an all 
or nothing proposition. The fact that we lack----
    Senator Cowan. It is for the fishermen in my state.
    Mr. Schwaab. So I would say that we have a reasonable 
understanding of the status of stocks that are out there, and 
some regulation that is cognizant of and built upon a 
reasonable understanding of the status of those stocks is 
appropriate and legitimate even if we don't have the most 
precise, the most timely, the most accurate information 
available.
    Senator Cowan. Mr. Chairman, I yield and I will follow up 
in writing. Thank you.
    Senator Begich. Very good. Thank you.
    Let me follow up on that if I can, Mr. Schwaab. Let me ask 
you this--that question, kind of in a different way.
    If you feel your information may not have, or is not fully 
complete but enough, isn't it usually the role of the Federal 
agencies to always get the numbers of the catch, or the quota, 
they lower it, because they want to take a more conservative 
view of what's happening, is that one of the kind of, you know, 
if you have data, but it's not maybe 100 percent, isn't the 
likelihood then you'll take a much more conservative position 
in how much of that fish stock, whatever that fish stock is, 
can be caught or dealt with; is that a fair statement?
    Mr. Schwaab. Yes, sir. Increased uncertainty leads----
    Senator Begich. Right.
    Mr. Schwaab.--generally, to scientific advice in a more, to 
a more precautionary management approach.
    Senator Begich. Which by its own method, even if they had 
100 percent, they're already cautious because they're worried 
about sustainability. So now, you're kind of creating another 
layer which is--my visit up to the seafood show. I'm talking 
with fishermen up in Massachusetts, is that, is their, one of 
their biggest concerns, it always gets to the second layer, 
deeper down, when they see the amount of fish that are actually 
occurring, but yet the data isn't as accurate as they think it 
should be and the agencies take a much lower positioning in 
regards to the stock. I mean, it only feeds on itself and it 
seems like, how do you get out of this other than trying to get 
a much more or 100 percent accuracy with more stakeholder 
involvement.
    Mr. Schwaab. Thank you, Senator. So I would just make an 
observation that there are arguably very different 
circumstances that exist now in with some of the New England 
ground stocks versus the circumstances that exist, for example, 
in the case of red snapper in the gulf. We're--there's clear 
agreement that we have a healthy and growing stock, and the 
question then becomes how close to sort of the line can you 
manage on an annual basis so that you capture as much of the 
buffer, if you will, as possible? That's a little bit different 
than the situation we face with some of the groundfish stocks 
right now where there's a lot less confidence about the current 
trajectory of the stocks of concern.
    Senator Begich. Very good.
    Let me, if I can, turn to the other three on the panel, Mr. 
Schwaab, we'll give you a break here for a second, and that is 
obviously, the Interjurisdictional Fisheries Act, and other 
activities of this nature, are important. You all mentioned a 
little bit about the funding components. As we get ready to 
reauthorize maybe that Act as well as the Magnuson-Stevens Act, 
are your organizations, your commissions, preparing or will 
prepare ideas and thoughts of how to improve the Act? Putting 
funding aside, recognizing, I think we would all agree that the 
funding issue has to be addressed so you have consistent 
research, consistent flow, and dollars available for long-term 
sustainability of the many fisheries, are you prepared and will 
you be able to do that in a way that's not just, to be very 
frank with you, kind of the gobbledygook that's out there, but 
really say, hey, here's the five things that we need improved 
and fix the acts?
    Who wants to take a shot at that?
    Mr. Beal?
    Mr. Beal. I'll go first, give it a shot.
    Senator Begich. Sure.
    Mr. Beal. The Atlantic States Commission does not have a 
position yet on the Atlantic Coastal Act, which is the 
underpinning----
    Senator Begich. Right.
    Mr. Beal.--of our operation, but we absolutely can develop 
the five key things and I think they would--two of the key 
points would be improve science and improve partnerships.
    Senator Begich. And will, I guess, here's my kind of 
underlying question because I know sometimes commissions say, 
well, let's just get some general thought and not get engaged--
--
    Mr. Beal. Yes.
    Senator Begich.--in the full and this is the real question, 
are you, each one of your commissions, willing to say here's, 
specifically, saying science is one thing, but I know you guys, 
and I've had a battle with NOAA and others on technology use. I 
think they underuse it. I harass them, I'll get into that in a 
second, on observers. I think there's a huge opportunity to be 
developed on the ground.
    Will you be specific, and that's what I want to know, and 
will the commissions take the bold political step and say, yes, 
we need to help craft in the future?
    Mr. Beal. Absolutely. I think, you know, there are 
specific, two specific issues that come to mind are climate 
change, water temperature change----
    Senator Begich. Acidification.
    Mr. Beal.--and that's changing the distribution of fish and 
changing the range of the animals that we manage. And the other 
is--I'm drawing a blank, what was it--the allocation of fish.
    Senator Begich. Right.
    Mr. Beal. We've got a number of--and summer flounder is a 
great example. We've got a number of state-by-state quotas 
within the Atlantic coast and, you know, some of those are 
based on data from the 1970s. Summer flounder is 1980s, 1990s, 
and I think the reallocation, or considering the reallocation 
of those species----
    Senator Begich. Will be important because as the waters 
warm, some of that is moving north and that's one of the 
arguments New York has.
    Mr. Beal. Yes.
    Senator Begich. Is that a fair statement----
    Mr. Beal. Absolutely.
    Senator Begich.--that they're seeing more and there is a 
scientific argument that, we see it in Alaska with changing 
water temperatures. Acidification is another element. It's 
moved, the fish are moving in different ways than maybe were 15 
years ago, 20 years ago, so those are things that you look at?
    Mr. Beal. Absolutely. And I think, you know, the question 
will be, is that a short-term change or a long-term change that 
we need to----
    Senator Begich. Right.
    Mr. Beal.--you know, look at in the management system.
    Senator Begich. Mr. Fisher.
    Mr. Fisher. In the case of the Pacific Commission, I was a 
director of fish and wildlife for a number of years in Oregon, 
and as a result of that, I never wanted to go back and do over 
regulations again, so we won't do that as long as I'm director, 
so we're a little bit different than the other commissions, in 
terms of what we manage.
    But what we do is we have the capability of lobbying and 
when the states agree on something, in terms of issues related 
to any legislation, we get involved, but the states have to 
agree and----
    Senator Begich. Understood.
    Mr. Fisher.--we will be working on that.
    Senator Begich. Mr. Donaldson.
    Mr. Donaldson. And we're--the Gulf Commission is similar to 
the Pacific in that we don't have regulatory authority like the 
Atlantic Commission does, but if our states are supportive of 
this, we will work towards that direction with their guidance 
and be willing to do that.
    Senator Begich. Let me--you just made the point, Mr. 
Fisher, Mr. Donaldson, would either one of your commissions 
want the same authority as the Atlantic?
    Mr. Donaldson. When the Atlantic Commission got the 
regulatory authority, our state constituents expressed concern 
to not do that.
    Senator Begich. OK.
    Mr. Donaldson. And as far as I know that's still their 
decision.
    Senator Begich. Still stay the same?
    Mr. Donaldson. Yes.
    Mr. Fisher. Same here with our commission, we're pretty 
happy doing what we're doing right now.
    Senator Begich. OK.
    Mr. Fisher. And that's basically managing all the data on 
the West Coast and Alaska.
    Senator Begich. Very good.
    Let me ask just a couple quick ones then I'll stop and 
I'll, we'll bring the next panel up.
    But specifically, Mr. Beal, and I want to follow up on the 
flounder issue. I know that that's one of the reasons why 
Senator Schumer is here, but you had mentioned that you're 
going to have a, kind of a working group for long-term, you 
have a short-term kind of reallocation, I don't know if that's 
the right phrase I should use, but the review of that, but you 
have a long-term review, how--what is your timetable for that 
working group to review the short-term issue on the flounder 
and how to deal with that?
    Mr. Beal. The short-term issues will have changes in place 
for 2013.
    Senator Begich. So this year?
    Mr. Beal. This calendar year, yes.
    Senator Begich. OK.
    Mr. Beal. And most of the summer flounder's fishing seasons 
in the mid-Atlantic and northern states start as the weather 
warms, so in the April and May timeframe, so those will be in 
place then and should offer some relief to New York and New 
Jersey.
    Senator Begich. OK.
    Mr. Beal. For the longer-term working group, the intent, 
anyway, is to have that work done and in place for the 2014 
fishing season. They'll look at changing, you know, at tweaking 
the current system. All we have are state-by-state shares. 
They'll look at regional approaches, coast-wide approaches, and 
it's really opening up the book and everything is on the table 
for that longer-term discussion.
    Senator Begich. Very good. And I'm assuming you're in 
contact with all the right delegations to make sure they get 
input on how that--or at least when you make that working group 
selection of those names and so forth, you'll be sharing that 
with the members?
    Mr. Beal. Yes, absolutely. We've got a subset of, I think, 
five or six states, the Mid-Atlantic Fishery Management 
Council. We also have advisory panels which are made up of 
industry members that will, obviously, participate in the 
dialogue as we move forward to look at ideas for 2014.
    Senator Begich. Very good.
    Let me stop there and just say to the two other members on 
the panel here, to the two senators, if you have any last 
minute questions you want to ask of this panel, I'll move Mr.--
--
    Senator Rubio.
    Senator Rubio. No.
    Senator Begich. OK.
    Let me--you have one more? OK. Let me say thank you--well, 
I have a list I'll submit for the record.
    And Mr. Schwaab, you've been lucky, I didn't get on to you 
about observers. You know I want technology. We're in the 21st 
century. I can tell you and show you, Canada's doing it, other 
communities are doing it, we have opportunity. Expedite, speed 
it up. We don't need a whole bunch of more observers, we need 
technology to replace some of things we're doing. I'll leave it 
at that as more of a statement. You know where I'm at and I'll 
save you from that moment.
    Thank you all very much. Thank you for being here. We'll 
submit additional questions for the record, if you wouldn't 
mind responding to. Thank you.
    Let me ask the next panel to come up next, and that's Mr. 
Jim Gilmore, Emerson Hasbrouck, and Tom, is it Fote or Foote?
    Mr. Fote. Fote.
    Senator Begich. Fote? OK. Thank you, Tom.
    We'll give a second here for the changeover.
    Thank you all very much for being here and appreciate your 
patience while we're working through some of the questions 
there. We'll start, I'm going to go, again, from this side 
over. You each have 5 minutes. If you can keep within that, we 
greatly appreciate it so we can get to the questions, if 
possible.
    First one I have is Jim Gilmore. He's the Director of the 
Bureau of Marine Resources, New York State Department of 
Environmental Conservation.
    Please.

   STATEMENT OF JAMES J. GILMORE, DIRECTOR, BUREAU OF MARINE 
            FISHERIES, NEW YORK STATE DEPARTMENT OF 
                   ENVIRONMENTAL CONSERVATION

    Mr. Gilmore. Thank you, Mr. Chairman. My name is Jim 
Gilmore and I wish to extend the appreciation of Governor Cuomo 
and DEC Commissioner Joe Martens and myself to Senators Begich 
and Rubio and the rest of the Committee members for the 
opportunity to testify on a long-term inequity for the summer 
flounder or fluke fishery.
    The fluke fishery in New York is vitally important for both 
economic and recreational reasons. Hundreds of thousands of 
recreational anglers rely on this important natural resource 
for their sport and businesses. In 2012, New York anglers made 
1.35 million trips targeting fluke which accounted for over 36 
percent of saltwater trips for New York, so you can see its 
importance.
    New York has experienced problems with the allocation of 
fluke since the development of the fishery management plan in 
1996. I'll focus my remarks on the recreational aspects since 
others will testify on the commercial fishery.
    However, it is important to note that New York has several 
hundred party and charter boats and supporting businesses such 
as bait, tackle shops and marinas and other businesses that 
rely on this fishery for their economic viability. Some of them 
have lost these businesses because of this fishery.
    Up until the mid 1990s, fluke size limits along the east 
coast were relatively constant with a 14-inch size limit. 
However, the fluke population was in decline at the same time 
the Magnuson-Stevens Act was reauthorized in 1996, which 
instituted deadlines for rebuilding fisheries. This caused 
managers to look at other ways to rebuild fluke. Fluke are 
jointly managed by ASMFC and the Mid-Atlantic Council.
    Complicating management further, fluke are smaller in the 
south and large in the north. As the rebuilding plan 
progressed, size limits were increased to change the management 
plan and allow for state-by-state conservation equivalency 
replacing the consisting cost-wide measures. It was decided 
that each state's limits would be based upon landings in 1998, 
the last year we had consistent measures along the coast, and 
this resulted in the inequities we see today. All states agreed 
to try this in 2001, but New York raised a caveat that we could 
change this if it did not work. It did not and it does not 
work.
    The Marine Recreational Fisheries Statistics Survey, or 
MRFSS, was the primary data used, but was documented in 2006 to 
have significant flaws. The plan does not provide for regional 
changes in the location of the fluke stock or angler effort 
over time. We have been locked in this approach through many 
factors no longer, or no longer valid. I believe New York 
currently has a much higher level of effort now, but is stuck 
at 17 percent with no way of determining the actual effort. 
This violates basic rules of fisheries management, not 
providing for adaptive management, nor using the most accurate 
data.
    Fluke over 17 inches are mostly females so incredibly, 
we've been harvesting the egg producers, which is really a bad 
way to be managing a fishery, but unfortunately, a well-
intended law through Magnuson has led to some bad, very bad 
fishery practices.
    We believe the population of fluke and angler effort for 
New York has increased, which is why we have exceeded our quota 
for most of the last decade as much as 112 percent, if you 
believe MRFSS. New York has been forced to annually adjust its 
limits to adjust for the overages, and it went up to as high as 
21 inches and only two fish while our neighboring state, New 
Jersey, had an 18-inch limit with six inches, six fish bag 
limit.
    The situation was so frustrating that New York attorney 
general brought a lawsuit in 2008 against NMFS to attempt NMFS 
to attempt a correction. The suit was not successful, and as 
Senator Schumer had mentioned, he has been tireless in trying 
to find a solution to this problem, and both the state and its 
anglers thank him for his continued efforts. The last 2 years 
have been seeing slight improvements but continued frustration 
for New York until the stock is rebuilt, and the New York size 
limits for fluke remain at 19.5 inches; however, in 2012, New 
York overharvested again by 14 inches because of this data.
    Our retention rate is very low on top of that. We 
essentially have to catch 10 fish for every one that we keep, 
so we're throwing back nine fish. A lot of them are dying which 
is another poor practice that we have to stop doing.
    As Mr. Beal had mentioned in the last panel, we've had some 
good news. In the last ASMFC meeting, we have had a unanimous 
decision to try to share some of the fluke and it's, we're 
thankful to the states for doing that, and we're also going to 
have a panel to look at different ways of managing this fishery 
as we go into the next year and future years. So the states are 
trying to work together to come up with some innovative 
solutions outside the restrictions of Magnuson-Stevens and 
National Fisheries Service.
    Just a couple of recommendations, in closing, for the 
future, while I'm hopeful we can develop better management 
through the ASMFC-Mid-Atlantic process, we and Magnuson-
Stevens, as you look to reauthorize it, have to explore 
different strategies for fluke and other recreational 
fisheries. Multi-year limits instead of these annual limits. 
We're getting whipsawed by trying to change the rules every 
year. Fish don't respond this quickly and management shouldn't 
be trying to fix it every year, they should let it go for maybe 
3 years at a time and get into more of a trend analysis. This 
will help us manage better and help the fishermen better. 
Annual catch limits and accountability measures are good but 
need a longer time to implement. This is having effects on 
other fisheries, such as scup and black sea bass. Science and 
statistical committees need longer time to implement their 
decisions.
    And last, we need to recognize and include in future 
management the flexibility to adapt the changing environment 
resulting shifts in fish populations which appear to be the new 
norm for now and into the future.
    Thank you, and I'll answer any questions you may have.
    [The prepared statement of Mr. Gilmore follows:]

  Prepared Statement of James J. Gilmore, Director, Bureau of Marine 
   Fisheries, New York State Department of Environmental Conservation
    Good morning. My name is Jim Gilmore and I am the Director of the 
Marine Bureau for the New York State Department of Environmental 
Conservation (DEC). I wish to extend the appreciation of Governor 
Cuomo, DEC Commissioner Joseph Martens and myself to Senators 
Rockefeller and Begich and the rest of the Committee members for this 
opportunity to testify on the history and methodology of, and potential 
inequities that may exist in, the allocation of catch of summer 
flounder between New York State and its neighboring states. My 
testimony will also address changes in data-collection and management 
which should be considered to ensure that the best available science 
informs decision-making, as well as fair and equitable allocation of 
fishing privileges, relating to this important east coast fishery.
    Under the direction of Commissioner Martens, I serve as DEC's 
marine fisheries director responsible for implementing all management 
decisions for the state's recreational and commercial fisheries. I have 
held this position since 2007 and have been with DEC for twenty-six 
years. I represent DEC Commissioner Martens as New York's 
Administrative Commissioner for the Atlantic States Marine Fisheries 
Commission (ASMFC) and the State Official member on the Mid-Atlantic 
Fisheries Management Council (MAFMC). I am also a member of the faculty 
at Stony Brook University where I teach graduate level marine fisheries 
management. Probably as important, I have been a resident of Long 
Island most of my life and an avid angler since I was a child. Like 
many youths on Long Island, I knew who the U.S. President was, the 
pledge of allegiance and that the size limit for fluke was 14 inches.
    The summer flounder fishery in New York is vitally important both 
for economic and recreational reasons. Hundreds of thousands of 
recreational anglers rely on this important natural resource to provide 
their sport and a good meal or two. In 2012, New York anglers made 1.35 
million fishing trips targeting fluke, which accounted for over 36 
percent of all saltwater fishing trips that year. So, over a third of 
all saltwater trips in New York's marine district were made for just 
one of the species available to catch. Fluke are very important 
commercially as well. Fluke harvest is tightly controlled, with an 
annual quota assigned according to the fishery management plan, but 
fluke are a high-value fish and one of the mainstays of New York's 
commercial fishery.
Fluke Catch Allocations: History and Inequities
    New York has experienced problems with the allocation of fluke 
quota among the states since the development of the fishery management 
plan in 1996. I will focus my remarks on recreational aspects since 
others will testify on the commercial fishery. However, it is important 
to note that New York has several hundred Party/Charter Boats and 
supporting businesses such as Bait and Tackle Shops, Marinas, and other 
businesses that rely on this fishery for their economic viability.
    Up until the mid-1990s, fluke size limits along the east coast were 
relatively consistent. A 13 or 14 inch size limit was the norm. 
However, the fluke population (stock) was in decline at the same time 
the Magnuson Stevens Act (MSA) was reauthorized in 1996 and instituted 
deadlines for rebuilding important fishery stocks. This statutory 
mandate prompted fishery managers to look at alternate management 
schemes to rebuild depleted stocks. Fluke occur in both state and 
Federal waters and are therefore managed through a joint fishery 
management plan (FMP) between ASMFC and MAFMC. Complicating management 
further, the size distribution of fluke along the coast varies with 
fish to the south tending to be smaller than fish to the north. As the 
rebuilding plan took hold and size limits were increased, changes to 
the management plan allowed for ``state-by-state conservation 
equivalency,'' replacing consistent coastwide measures which had been 
the norm until the late 1990s. It was decided that each state's 
recreational harvest limit would be based upon landings in 1998--the 
last year for which there were consistent measures along the coast. 
This allocation resulted in an uneven split among the east coast states 
which remains problematic to this day: NJ--39 percent; NY--17.6 
percent; Va.--17.7 percent other 6 states between 3-6 percent each.
    The states, including New York, agreed to try this approach, but at 
that time New York raised the caveat that we could ``change this if it 
did not work.'' It did and does not work. The Marine Recreational 
Fisheries Statistical Survey (MRFFS), which provides the data for key 
management decisions, was documented in 2006 to have significant flaws. 
It does not provide for regional changes in the location of the fluke 
stock even though the stock has moved further to the north, or changes 
in effort by anglers along the coast. It set up a dilemma where, if the 
population shifted or effort increased, a state experiencing a decrease 
would get fewer fish.
    While the states have been locked in a management system based on 
decisions that occurred over a decade ago, many factors are no longer 
valid. I believe New York currently has a much higher level of effort 
now but is locked at 17.6 percent with no way of determining the actual 
fishing effort. This violates basic rules of fisheries management: 
provide for adaptive approaches as a fishery changes and utilize 
accurate data.
    It's important to note here that male fluke have a typical maximum 
size of 17 inches so most fish larger than this are females. Yet New 
York's size limit is 21 inches, while New Jersey's limit is 18 inches. 
So Federal fisheries management law has forced the states to violate 
another basic principle in fisheries management--incredibly, we have 
been harvesting the large females which are the big egg reproducers for 
future recruitment. Unfortunately, a well-intended Federal law has led 
to bad fishery management.
    We also believe the disparity between our neighboring states has 
created a situation of non-compliance. Anglers simply do not follow 
rules that do not make intuitive sense. We believe the population of 
fluke off Long Island has increased, along with angler effort. This 
appears to be the primary reason why we have exceeded our 17.6 percent 
quota for most of the last decade by as much as 112 percent but with 
the highest average of all states at 32 percent, if you believe MRFSS. 
This disparity between MSA-based restrictions and available catch has 
forced New York to annually adjust its size, season and bag limits to 
adjust for the overage while experiencing a declining then rebuilding 
stock. By 2009, the New York size limit was 21 inches with a 2 fish bag 
limit and short season. The neighboring state of New Jersey had an 18 
inch size and 6 fish bag limit (Table 1).
    The situation has frustrated New York fishery managers and anglers 
for so long that the New York Attorney General brought a lawsuit in 
2008 against NMFS and ASMFC to attempt a correction. Unfortunately, New 
York was not successful at that time. Senator Schumer has been very 
active trying to find a solution to the problem and both the state and 
its anglers thank him for his continued efforts.
    The last two years have seen slight improvement but continued 
frustration for New York since we all have been successful in 
rebuilding the coastwide fluke stock, but New York's size limit 
remained high at 19. 5 inches in 2012 and once again, New York has 
overharvested its quota by 14 percent (and New Jersey by 15 percent) 
(see Figure 1). Important to note in Figure 1 is the bar graph which 
shows that the New York and New Jersey overall catch rate is very high 
but retention rate is low. This means we are catching roughly ten fish 
for every one we keep. This is not a healthy practice since a good 
portion of the ``throw-backs'' die causing unnecessary mortality. 
However, in December, 2012, ASMFC/MAFMC jointly voted again to continue 
state-by-state conservation equivalency for 2013 which could result in 
an increased size limit in New York.
    We recently had some good news. At the ASMFC Board meeting on 
February 21, 2013 the nine states in the fishery agreed to address this 
issue since the states generally recognize that New York has continued 
to be disadvantaged in this fishery despite its rebuilt status. As a 
short term fix for 2013, the seven states that under-harvested will not 
take their full harvest increases leaving fish from the coastwide quota 
available for New York. Hopefully, this interstate cooperation will 
keep our size limits the same as 2012 or even drop the size. A 
subcommittee has been formed to include key states and the MAFMC to 
explore long term solutions for 2014 and beyond. Possible approaches 
include regional conservation equivalency, retention rates, and 
waterbody limits. The bottom line is that the states have worked 
together to create innovative solutions outside of the restrictions of 
the MSA and NMFS.
Recommendations for Changes in Management
    While I am hopeful that we can develop more rational management 
through the ASMFC/MAFMC process, we have to explore alternative 
management strategies for fluke and other recreational fisheries. The 
current MSA has set up a situation where managers must react annually 
instead of waiting longer periods--say three to five years--before 
changing the rules. Fish stocks typically do not respond quickly but 
current management principles mandate quick action. We need to rely on 
good data and stop implementing annual changes based on short term data 
so that we can focus on longer term trends. Establishing consistent 
rules for a region with pre-determined minor adjustments for all states 
over several years would provide greater stability for fluke and other 
species management plans. It will also provide more stability for the 
fishing industry so they can manage their businesses more efficiently. 
The current Magnuson-Stevens Act provided some good concepts such as 
setting Annual Catch Limits (ACL) and Accountability Measure (AM) but 
again, the quick deadlines to implement these has created other 
problems such as we have seen with Black Sea Bass and Scup (Porgy). The 
Science and Statistical Committees of the Councils need for greater 
latitude to consider ultra-conservative management in the face of 
limited data may not always be the best course.
    We must also avoid setting management decisions in stone since this 
violates a fundamental principle of fishery management--natural 
populations fluctuate and we need adaptive and flexible management to 
address these changes. It is why we, the fishery managers, are in this 
business. Along with this, we also need to build in a mechanism to 
establish new baselines as fisheries change. Once we set 
disproportionate quotas, we lose the ability to get a true measure of 
effort and harvest. Lastly, we need to recognize and include in future 
management the flexibility to adapt to the changing environment and 
resulting shifts in fish populations which appears to be the new norm 
now and into the future.
    On behalf of Governor Cuomo and Commissioner Martens, I thank you 
again for the opportunity to testify. I will be happy to respond to 
questions.
Figure 1
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                              Table 1. Size Limit (inches) and Bag Limit by State and Year
--------------------------------------------------------------------------------------------------------------------------------------------------------
                    State                       Year     2001     2002     2003    2004    2005    2006    2007    2008    2009    2010    2011    2012
--------------------------------------------------------------------------------------------------------------------------------------------------------
MA                                              SIZE     16.5     16.5     16.5    16.5      17      17    17.5    17.5    18.5    18.5    17.5    16.5
                                             -----------------------------------------------------------------------------------------------------------
                                                 BAG        7        7        7       7       7       7       5       5       5       5       5       5
--------------------------------------------------------------------------------------------------------------------------------------------------------
RI                                              SIZE     17.5       18     17.5    17.5    17.5    17.5      19      20      21    19.5    18.5    18.5
                                             -----------------------------------------------------------------------------------------------------------
                                                 BAG        6        5        5       7       7       7       7       7       6       6       7       8
--------------------------------------------------------------------------------------------------------------------------------------------------------
CT                                              SIZE       17       17       17      17    17.5      18      18    19.5    19.5    19.5    18.5      18
                                             -----------------------------------------------------------------------------------------------------------
                                                 BAG        6        6        6       6       6       6       5       5       3       3       3       5
--------------------------------------------------------------------------------------------------------------------------------------------------------
NY                                              SIZE       17       17       17    17.5    17.5      18    19.5    20.5      21      21    20.5    19.5
                                             -----------------------------------------------------------------------------------------------------------
                                                 BAG        7        7        7       3       5       4       4       4       2       2       3       4
--------------------------------------------------------------------------------------------------------------------------------------------------------
NJ                                              SIZE       16     16.5     16.5    16.5    16.5    16.5      17      18      18      18      18    17.5
                                             -----------------------------------------------------------------------------------------------------------
                                                 BAG        8        8        8       8       8       8       8       8       6       6       8       5
--------------------------------------------------------------------------------------------------------------------------------------------------------
DE                                              SIZE     17.5     17.5     17.5    17.5    17.5      17      18    19.5    18.5    18.5      18      18
                                             -----------------------------------------------------------------------------------------------------------
                                                 BAG        4        4        4       4       4       4       4       4       4       4       4       4
--------------------------------------------------------------------------------------------------------------------------------------------------------
MD                                              SIZE       17       17       17      16      15      15      15      17      18      19      18      17
                                             -----------------------------------------------------------------------------------------------------------
                                                 BAG        8        8        8       3       4       4       4       3       3       3       3       3
--------------------------------------------------------------------------------------------------------------------------------------------------------
VA                                              SIZE     15.5     17.5     17.5      17    16.5    16.5    18.5      19      19    18.5    17.5    16.5
                                             -----------------------------------------------------------------------------------------------------------
                                                 BAG        8        8        8       6       6       6       5       5       5       4       4       4
--------------------------------------------------------------------------------------------------------------------------------------------------------
NC                                              SIZE    13/15    13/15    14/15      14      14      14    14.5    15.5      15      15      15      15
                                             -----------------------------------------------------------------------------------------------------------
                                                 BAG      -/8      -/8      -/8     -/8       8       8       8       8       8       8       6       6
--------------------------------------------------------------------------------------------------------------------------------------------------------


    Senator Begich. Thank you very much, again, Mr. Gilmore.
    Next person is Emerson Hasbrouck, Director, Marine Program, 
Cornell University. Thank you very much for being here.

       STATEMENT OF EMERSON C. HASBROUCK, MARINE PROGRAM

          DIRECTOR, EMERITUS SENIOR NATURAL RESOURCES

  SPECIALIST, CORNELL UNIVERSITY COOPERATIVE EXTENSION MARINE 
                            PROGRAM

    Mr. Hasbrouck. Good morning. I'm Emerson Hasbrouck and I'm 
with the Cornell University Cooperative Extension Marine 
Program. I would like to thank Chairman Begich and Senator 
Rubio for the opportunity to testify at this hearing. I would 
also like to thank Senator Schumer for working with the 
Committee to set up this hearing. I would also like to thank 
him on behalf of all New York fishermen for his support in 
fisheries' issues.
    There are currently six species in the mid-Atlantic being 
managed on the state-by-state quota allocation system. As 
requested, the focus of this testimony will be on the 
commercial summer flounder fishery; however the issues, 
economic impact, and inequities to New York fishermen are 
similar for all species. My written testimony contains further 
detail.
    In establishing the commercial state-by-state allocation, 
each state's percentage was based on the reported landings in 
that state during a baseline period. Although the fishing 
industry in New York was large and active during the base 
years, the allocation to New York is quite low. This is 
particularly evident when New York is compared to its 
neighboring states of New Jersey and Rhode Island. The basis of 
the inequity in the state-by-state allocation is the system of 
accounting for commercial fish landings that was in place 
during the baseline qualifying period. New York received 7.6 
percent of the commercial quota; Rhode Island has 15.7 percent; 
New Jersey, 16.7; Virginia, 21.3; and North Carolina, 27.4.
    The New York landings' records and histories, as compared 
to other states, were determined on a completely different and 
separate methodology. The main difference is due to the unique 
way of landing and marketing fish in New York.
    During the baseline period, National Marine Fishery Service 
had established a ``way out'' system in every major landing 
state in the northeast region except for New York. This ``way 
out'' system was developed specifically to collect, to track, 
and report commercial landings. The ``way out'' system, 
however, was not implemented in New York, because the first 
sale transaction system for placing seafood in New York was 
completely different. In states other than New York, the first 
sale of the fish occurs dockside. This transaction was recorded 
by the dealers purchasing directly from the boat and included a 
NMFS dealer report or ``way out''. New York fish landings do 
not include a dockside transaction. Fish are landed at a pack-
out dock and then shipped on consignment by the fishermen to 
various dealers at the Fulton Fish Market in New York City. 
There was no ``way out'' generated to comply all landings 
information.
    Thus, in New York, the dockside record during the baseline 
period did not include a sales transaction or species manifest, 
but simply a carton or box-total number trucked into Fulton 
Fish Market. Landings were constructed by National Marine 
Fisheries Service based on a dock-by-dock box count and an 
estimation of the content of those boxes based on dock 
personnel recall. There are no ``way outs'' available to verify 
landings. This difference in the data collecting and reporting 
system put New York at a severe and significant disadvantage 
relative to baseline calculations for state-by-state quota 
allocations.
    The result of this is that New York receives a small annual 
quota allocation and thus, New York fishermen fish under very 
low trip limits. This has had a negative impact on New York 
fishing communities in terms of economic activity and jobs. We 
can estimate potential lost revenue to New York due to a 
disadvantage quota system. In 2011, this is estimated to be a 
lost to New York of $12 million compared to Rhode Island and a 
loss of over $9 million compared to New Jersey. New York 
fishermen are allowed far less quota and a smaller trip limit 
than fishermen from other states even while they're fishing 
together, side-by-side, in Federal waters. This makes little 
sense.
    There is evidence that summer flounder, like other species, 
are experiencing changing migratory patterns based on changing 
ocean temperatures. This has resulted in a north ridge shift in 
the concentration of summer flounder. North Carolina, Virginia, 
and Delaware can no longer harvest their quota.
    We're still managing the summer flounder resource on 
incomplete data from over 25 years ago. The resource and the 
fishery have changed. It's now time to change the management of 
the resource. A change should be made away from state-by-state 
quota, from a state-by-state quota allocation system to a 
system based on regional or coast-wide quota and associated 
trip limits. This would provide equitable treatment for all 
fishermen. It would help address the inequity to New York as 
fishermen from all states would be operating under the same 
quota and trip limits. Another approach could be a combination 
of coast-wide and state-by-state quotes, depending on season.
    We also need to add flexibility into the management system. 
Not all species can fully respond with an arbitrary rebuilding 
10-year timeframe.
    Finally, we have reached a point in managing fisheries 
where management is putting demands on science that the science 
cannot keep up with. It is not that we don't have intelligent 
and qualified scientists, quite the contrary, but scientists 
can only do so many stock assessments or surveys in a given 
year based on resources available. Currently, the state and 
Federal resources available to support fishery science are not 
sufficient to meet the legal mandates of management.
    Thank you for your opportunity to testify.
    Senator Begich. Thank you very much.
    [The prepared statement of Mr. Hasbrouck follows:]

 Prepared Statement of Emerson C. Hasbrouck, Marine Program Director, 
   Emeritus Senior Natural Resources Specialist, Cornell University 
                  Cooperative Extension Marine Program
   ``State-By-State Allocation of Commercial Fisheries Quota and the 
                     Impact on New York Fisheries''
Background
    There are currently six species in the Mid-Atlantic being managed 
on a state-by-state quota allocation system. One of these species, 
striped bass, is only allowed to be harvested in state waters and will 
thus not be included in the discussion of this testimony. The other 
five species are: summer flounder (also known as fluke); black sea 
bass; bluefish; scup; and spiny dogfish. The state-by-state quota 
allocation for these species is each based on its own baseline time 
period during the late 1970s, the 1980s and early 1990s. See Table 1.

               Table 1.--Baseline Period for Each Species
------------------------------------------------------------------------
                       Species                          Baseline  Years
------------------------------------------------------------------------
Fluke                                                         1980-1989
Scup                                                          1983-1992
Black Sea Bass                                                1983-1992
Bluefish                                                      1981-1989
Spiny Dogfish                                                 1990-1997
------------------------------------------------------------------------

    The reported commercial landings during the baseline period for 
each species, for each state, provides basis for the percent allocation 
to each state of the total commercial annual quota. The state-by-state 
allocations for these five species are shown in Table 2.

                        Table 2.--State-by-State Allocation--Percent of Commercial Quota
----------------------------------------------------------------------------------------------------------------
                                                                          Black Sea                     Spiny
                                                Fluke         Scup          Bass        Bluefish       Dogfish
----------------------------------------------------------------------------------------------------------------
Maine                                               0.0           0.1           0.5           0.7
---------------------------------------------------------------------------------------------------
New Hampshire                                       0.0             0           0.5           0.4            58
---------------------------------------------------------------------------------------------------
Massachusetts                                       6.8          21.6          13.0           6.7
---------------------------------------------------------------------------------------------------
Rhode Island                                       15.7          56.2          11.0           6.8
---------------------------------------------------------------------------------------------------
Connecticut                                         2.3           3.2           1.0           1.3
----------------------------------------------------------------------------------------------------------------
New York                                            7.6          15.8           7.0          10.4           2.7
----------------------------------------------------------------------------------------------------------------
New Jersey                                         16.7           2.9          20.0          14.8           7.6
----------------------------------------------------------------------------------------------------------------
Delaware                                            0.0             0           5.0           1.9           0.8
----------------------------------------------------------------------------------------------------------------
Maryland                                            2.0             0          11.0           3.0           5.9
----------------------------------------------------------------------------------------------------------------
Virginia                                           21.3           0.2          20.0          11.9          10.8
----------------------------------------------------------------------------------------------------------------
North Carolina                                     27.4             0          11.0          32.1          14.0
----------------------------------------------------------------------------------------------------------------
South Carolina                                                                                0.0
----------------------------------------------------------------------------------------------------------------
Georgia                                                                                       0.0
----------------------------------------------------------------------------------------------------------------
Florida                                                                                      10.1
----------------------------------------------------------------------------------------------------------------

    The U.S. manages its fisheries in the Exclusive Economic Zone (3 to 
200 miles offshore) through the Department of Commerce, NOAA and the 
National Marine Fisheries Service. The enabling legislation is the 
Magnuson-Stevens Act (MSA) (as amended) originally signed into law in 
1976. The MSA established 8 regional fishery management councils to 
advise NMFS on fisheries management and to develop Fishery Management 
Plans for the conservation and utilization of our Nation's marine 
resources. Summer flounder, as well as the other 4 species managed 
under state-by-state quota fall under the jurisdiction of the Mid-
Atlantic Fishery Management Council (MAFMC).
    Fisheries within 3 miles are managed by the individual states. 
However, the 15 Atlantic coastal states from Maine to Florida have come 
together to form the Atlantic State Marine Fisheries Commission. The 
ASMFC develops fishery management plans which the member states then 
implement in their respective states. The 5 species managed under 
state-by-state quota are also under the purview of the ASMFC.
    Although the MAFMC and the ASMFC are two separate entities, they 
work together on the development of Fishery Management Plans, including 
stock assessment, quota setting and other management measures. In fact, 
many individuals are members of both the Council and the Commission. 
Thus both are responsible for management issues relative to these 
state-by-state quota species.
    As requested, the focus of this testimony will be on summer 
flounder, or fluke. However, the issues, economic impact and inequities 
to New York fisherman are similar for all five species.
History
    Although the fishing industry in New York was large and active 
during the base years, the allocation to New York is quite low for many 
of the species. This is particularly evident when New York is compared 
to its neighboring states of New Jersey and Rhode Island. The fish did 
not avoid New York fisherman nor were New York fisherman any less 
skilled at catching fish. The basis of the problem and of the inequity 
in the state-by-state allocation is the system of accounting for 
commercial fish landings that was in place during the baseline 
qualifying periods.
    As shown in Table 2 above, the state-by-state allocation system in 
place for the commercial summer flounder quota puts New York fishermen 
at a severe disadvantage. NY receives 7.6 percent of the commercial 
quota, while the allocation to other states is: RI--15.7 percent; NJ--
16.7 percent; VA--21.3 percent; NC--27.4 percent. Other states receive 
less allocation.
    The NMFS data collection system for commercial landings that was in 
place during the time period that established individual states' 
percent allocation of the summer flounder annual commercial quota 
caused inherent inadequacies in New York's allocation. The data 
collection system during the baseline period on which the state-by-
state summer flounder allocation was based, put New York at a severe 
disadvantage compared to other states. The methodology used for data 
collection during the baseline period was inadequate and thus the 
method of allocation was prejudicial.
    The NY landing records and histories, as compared to the other 
states, were determined on a completely different and separate 
methodology. The main difference is due to the unique way of landing 
and marketing fishery resources in NY as compared to the rest of the 
east coast. During the baseline period, NMFS had established a 
``weighout system'' in every major landings state in the Northeast 
Region, except for New York, Connecticut and N. Carolina. This 
``weighout system'' was developed specifically to collect, track and 
report commercial landings within the regulatory framework available at 
the time. The ``weighout system'', however, was not implemented in NY 
because the first sale transaction system in place for seafood in NY 
was completely different from what occurred in other states. The 
majority of all fisheries landings for all states other than NY involve 
a process that included a dockside transaction, meaning, the sale and/
or auction of the fish occurred at that point. This transaction was 
recorded not only by the dealers purchasing directly from the boat but 
also included a NMFS dealer report (weighout) that was generated at the 
point of sale. Thus, summer flounder landings were tracked at this 
point of first sale and then could be verified by individual fishing 
records generated by the ``weighout system''. NY fishery landings, 
including summer flounder, do not for the most part include a dockside 
transaction. Fish are landed at a pack-out dock and then shipped on 
consignment to various dealers at the Fulton Fish Market in NY City. 
The first-sale transaction does not occur dockside as in other states.
    Thus, in NY the dockside report/record during the baseline period 
did not include a sales transaction or a species manifest, but simply a 
carton or box total number trucked to Fulton Fish Market. The 
consignment agreement between the fisherman and the Fulton Fish Market 
wholesaler during this period was simply completed by a return made by 
the Fulton wholesaler directly to the commercial fisherman detailing 
the result of the sale of the products with no copy or ``weighout'' 
provided to NMFS or NYSDEC or the unloading dock. During the period 
leading up to the summer flounder fishery management plan being 
implemented, there were no mandatory requirements for Fulton Market 
dealers to report their consignment sales/purchases. Mandatory 
reporting for dealers licensed to purchase from federally permitted 
fishing vessels did not go into effect until 1994. NY State did not 
initiate mandatory reporting for state dealers until after that. So 
there were no reports or ``weighouts'' generated by Fulton Market 
dealers during the summer flounder baseline period. Further, the 
general attitude by the NY fishing industry (including the Fulton Fish 
Market) was to treat this information as proprietary in nature. 
Specifically, there was a great amount of secrecy and thus information 
about landings by species and by location was protected for a myriad of 
reasons. Since there was no dockside transaction, NY landing histories 
were not readily available and proved to be inadequate at that time. 
Landings were constructed by NMFS based on a dock-by-dock box count and 
an estimation of the content of those boxes based on dock personnel 
recall. There were no ``weighouts'' available to verify landings.
    This system also allowed for some volume of fish to go completely 
unaccounted for. Some small remote docks were not regularly visited by 
NMFS personnel to collect box-count information. There were also some 
number of fishermen in close proximity to the Fulton Market that would 
deliver their fish directly without any packing dock involved. During 
the 1970s, 1980s and early 1990s, there was a fleet of North Carolina 
and Virginia fishing vessels that fished out of NY ports during summer 
months. The dealers that these vessels normally sold to in their home 
ports would send trucks to NY ports to continue to buy from these 
vessels and truck the fish back to their homeport. Since there was no 
dock-side purchase by the unloading dock, these fish were reported by 
the first transaction dealers as landed in Virginia or North Carolina.
    We need at this point to look back in time to when the state-by-
state allocation developed and implemented and review the NMFS regional 
data collection activities at that time. If in fact, because the NY 
system of landing and marketing fisheries products resulted in 
inadequate histories available at the time compared to the rest of the 
region, an argument could be made that the dissimilar basis of the 
landing histories used, unfairly/inaccurately portrayed NYS summer 
flounder landings. Simply put, the NMFS system for collecting and 
reporting landings data was significantly different in NY than it was 
in the other Mid-Atlantic and New England states. This difference in 
the data collection/reporting system put NY at a severe and significant 
disadvantage relative to baseline calculations for state-by-state quota 
allocations. These included summer flounder as well as other species 
such as scup, sea bass and bluefish. Further, the disadvantaged NY 
industry was discriminately treated in an unfair manner in the 
establishment of the state-by-state quota allocation.
    Recent attempts have been made to validate and/or collect NY 
baseline period landings information in several different ways: (1) An 
effort was made to correlate the Fishery Market News ``green sheets'', 
which were maintained by the National Marine Fisheries Service that 
tracked the daily general Fulton Fish Market activity, in order to 
determine some landing history. This proved to be difficult and did not 
generate useable information. (2) An effort was made to collect landing 
histories from individual NY fisherman by the NYS Department of 
Environmental Conservation in cooperation with commercial fishing 
organizations and others. This information also proved difficult to 
collect across the board and again did not result in a composite NY 
State landing history.
    As was mentioned above, NMFS also did not have an established 
``weighout'' system in place in Connecticut and North Carolina. 
However, the issue was resolved in those states in the following 
manner. In North Carolina, the Division of Marine Fisheries had in 
place a reporting and sampling program during the baseline period. 
These data were used to establish North Carolina's state percent 
allocation. In 1993, Connecticut successfully convinced the MAFMC to 
re-examine their percent quota based on the fact that NMFS did not have 
a port-agent in Connecticut, nor were there weighouts available on 
which to base landings. In Amendment 4 to the FMP, Connecticut's 
percent of the annual quota was increased. No such consideration was 
ever given to NY.
    Senator Schumer has previously arranged meetings with NMFS 
leadership to help resolve the severe and significant disadvantage for 
NY of the summer flounder state-by-state quota. A meeting was held in 
NY with the fishing industry to discuss issues relative to NY's summer 
flounder allocation. Attending this meeting were Senator Schumer, 
Congressman Bishop, Eric Schwaab--then NMFS Assistant Administrator for 
Fisheries and Dr. Jane Lubchenco--then NOAA Administrator. Nothing 
resulted from the meeting to help address the inequity of NYs fluke 
allocation.
Impacts
    Since the implementation of the summer flounder fishery management 
plan, the resource has been steadily increasing and is now fully 
rebuilt and overfishing is not occurring. However, we are still 
managing a fully rebuilt stock the way we were managing a depleted 
stock 20 years ago. It is time to update the management of the summer 
flounder fishery.
    Also, as the stock has increased, there is some evidence that there 
has been a shift in the concentration in the resource such that NY is 
geographically located near very high concentrations of summer flounder 
year-round based on new migratory patterns. In fact, this shift in the 
northward concentration of the summer flounder resource has also 
affected the fishery in the southern portion of the fish's range. For 
the past couple of years, neither North Carolina nor Virginia has been 
able to harvest their quota allocation. Additionally, North Carolina 
has been transferring quota to Virginia due to issues with North 
Carolina vessels not being able to access North Carolina ports because 
of shoaling inlets. In fact, even after transferring over half of its 
quota to Virginia, North Carolina still only harvested 65 percent of 
its quota in 2012. Also Virginia harvested 97 percent of its quota and 
Maryland only harvested 52 percent of its quota. None of this underage 
was offered to NY. The fish just aren't available any more in large 
abundance off of these southern states. High fuel costs prohibit 
vessels from North Carolina and Virginia from traveling to waters off 
of New York for access to the resource. Neither the distribution of the 
fish nor the fishery are the same as they were 20 to 30 years ago.
    A significant amount of the summer flounder commercial harvest 
occurs outside of 3 miles. NY fishermen are fishing alongside of 
fishermen from RI, NJ and other states while fishing in Federal waters. 
NY fishermen are allowed far less quota and thus a smaller trip limit 
than fishermen from these other states, even when fishing together in 
Federal waters. Over the years, this has forced some NY fisherman to 
purchase (at a premium price) state fluke permits to allow them to land 
in New Jersey or Rhode Island. This only serves to reduce economic 
activity and jobs in NY and increase operating expenses for NY 
fishermen.
    Table 3 highlights the impact to NY's economy, relative to other 
states, because of the state-by-state quota system. The value in Table 
3 is ex-vessel value--the amount paid directly to the fisherman. The 
full economic return to the local community is approximately 4.2 times 
ex-vessel value. Conversely the economic loss to local NY communities 
can be seen as 4.2 times the potential lost revenue due to a 
disadvantaged quota system. In 2011, this amounted to a loss of $12 
million compared to Rhode Island or a loss of $9.3 million compared to 
New Jersey--a severe impact to jobs and the economy in local NY 
communities.

Table 3.--2011 Ex-Vessel Value of Summer Flounder Landings (excludes RSA
                                landings)
------------------------------------------------------------------------
                                                    Value in Dollars
------------------------------------------------------------------------
New Jersey                                                    5,422,719
New York                                                      3,208,277
North Carolina                                                6,136,621
Rhode Island                                                  6,057,311
Virginia                                                      5,920,332
TOTAL VALUE                                                  26,763,260
------------------------------------------------------------------------

Recommendations
    We are still managing the summer flounder resource (and other 
state-by-state quota species) on incomplete data from over 25 years 
ago. Further, we are managing summer flounder the same way we did 25 
years ago for an overharvested stock. The resource and the fishery have 
changed. It is now time to change the management of the resource.
    A change should be made away from state-by-state allocation to a 
system based on a regional or coast-wide quota and associated trip 
limits. This would provide equitable treatment for all fishermen and 
would help address the inequity to NY fishermen that was precipitated 
by the discriminatory NMFS data collection system in place in NY during 
the baseline period. As in other fisheries, qualified fishermen could 
fish where they wanted in the EEZ and all fishermen fish under the same 
regulations, quotas, trip limit or days at sea, regardless of what 
state they are from.
    Another approach could be a combination of coast-wide and state-by-
state quotas. As an example, Amendment 8 to the Scup FMP adjusted the 
scup fishery to modified partial coast-wide partial state-by-state 
quota system. In the summer months, the fishery is divided into a 
state-by-state quota system to allow inshore fishermen that fish in 
state waters equal access to the resource. Then in the Winter I and 
Winter II periods, when traditionally a larger portion of the fishery 
took place offshore, scup is regulated by a coast-wide quota system in 
which all states have the same limit per trip until the quota for that 
period is caught. During the development of Amendment 8 to the scup 
FMP, it was acknowledged that the year-round state-by-state system 
developed for summer flounder was not a desirable system. It would be 
advisable to create a modified partial state-by-state/coastwide fishery 
for summer flounder and other state-by-state fisheries, as the MAFMC 
did for the scup fishery in 1996. However, the state-by-state portion 
must be a more fair and equitable distribution than was established 25 
years ago.
    We also need to add flexibility into the management system. Not all 
species can fully respond within an arbitrary rebuilding 10-year time 
frame. Summer flounder is a prime example of that. Senator Schumer was 
successful in obtaining an additional 3 years in the rebuilding period 
for summer flounder. The fish did just fine and the stock is fully 
rebuilt. I urge you to consider providing for flexibility of rebuilding 
schedules in the upcoming reauthorization of Magnuson.
    As our fishery resources become fully restored, management has to 
change to a new philosophy. All of the fishery management plans in the 
Mid-Atlantic were developed to rebuild overfished stocks. But now that 
stocks are fully rebuilt, the management approach has not changed. We 
have fully rebuilt stocks, but fishermen are still conservatively 
restrained. Ask any commercial or recreational fisherman if they have 
seen any improvement in their catch for fully restored summer flounder 
or black sea bass and they will respond in the negative.
    Due to the current management process, quotas are set way below the 
level that could be harvested without causing overfishing to occur. The 
output from the stock assessment could allow harvests at higher levels. 
However managers must take a precautionary approach to setting quotas. 
The precautionary approach is driven by some of the uncertainties in 
the inputs to stock assessment models. If there is uncertainty or low 
confidence or high variability in the data inputs to the stock 
assessment, it causes uncertainty in the output. The greater the 
uncertainty the more precautionary the management approach and the 
lower the harvest quota becomes. But the uncertainty can also mean that 
there is either a higher or lower level of abundance than estimated. 
But the precaution always results in a lower quota.
    The science of stock assessments is an imprecise science at best. 
Yet the management process is being driven by an approach that says 
because it is imprecise we have to take an extremely precautionary 
approach. Precautionary is a subjective term. Poor or incomplete data 
just makes the analysis even more imprecise and drives further 
precaution.
    Much of this uncertainty and precaution is driven by poor or 
incomplete data. Often times even the ``best available data'' can still 
be poor or lacking data or science. We have reached a point in 
management, particularly with setting annual catch limits and 
accountability measures, where the science cannot keep up with 
management. Management is putting demands on science that the science 
cannot keep up with.
    It is not that we don't have intelligent qualified scientists. 
Quite the contrary. But our scientists can only do so much in a day's 
work and the management asks for more. Scientists can only do so many 
stock assessments in a year. Many species go several years between 
benchmark stock assessments. Summer flounder is a prime example. It has 
been 5 years between full assessments for summer flounder.
    Scientists can also only do so many surveys in a year. Or only 
collect so much data in a year. The current level of staffing for 
fisheries science cannot do all things for all species every year. So 
we settle for a precautionary approach based on uncertainty and the 
fishermen and the communities that depend on them pay the price.
    Much of the problem of course is funding. Currently the state and 
Federal resources available to support fisheries science are not 
sufficient to meet the legal mandates of management. More funding, of 
course, can solve most of the science issues. But I realize the fiscal 
reality that this is not likely to occur. The alternative is for 
management to not require science to do things we cannot afford to fund 
it to do. This can be fixed in the reauthorization of Magnuson.
    An opportunity to help with science and data collection is 
cooperative research. Cooperative research is where scientists get 
together with fishermen to implement innovative programs to collect and 
provide needed fisheries data and information. Scientists and fishermen 
working side by side on fishing boats to improve fisheries science. It 
is good for the scientists, good for the fishermen and good for the 
fish. And it is supported by scientists and fishermen alike. 
Cooperative research does cost money. But it is less expensive and 
provides an excellent return for the investment.

    Senator Begich. Our next speaker is Tom Fote, the 
Legislative Chair, Jersey Coast Anglers Association. Tom.

STATEMENT OF THOMAS P. FOTE, LEGISLATIVE CHAIRMAN, JERSEY COAST 
 ANGLERS ASSOCIATION AND NEW JERSEY FEDERATION OF SPORTSMEN'S 
                             CLUBS

    Mr. Fote. I would like to thank the Chairman and the 
members of the Committee for this opportunity to testify. I 
have served in the Atlantic States Marine Fisheries Commission 
for 17 years and have attended their meetings since 1988. This 
experience has formed my testimony today.
    Fisheries management is based on data. Data determines the 
stock assessment, the size of quotas, and the rebuilding 
period. The Federal and state's needs for better data for quota 
management continues to increase and so do the cost. In 1994, 
were quotas on a couple of species on the east coast, now 
almost every species managed in state or Federal is based on 
quota management.
    In the reauthorization of MSA, NMFS was required to collect 
better recreational data, but the necessary funding was not 
supplied. I believe we have been underestimating the number of 
recreational anglers and the number of fish they are catching. 
This also means, has been underestimating the size of available 
stocks of these species that have a major recreational catch.
    This is what happened to New York in 2003 regarding the 
summer flounder and scup fisheries. I believe that New York was 
treated unfairly and testified to this fact in 2004 in the 
Subcommittee to Fisheries, Conservation, Wildlife, and Ocean 
and suggested a solution to NMFS. They were ignored.
    In my recent testimony, I tried to address Senator 
Schumer's letter to the commissioners to the ASMFC. New York 
actually made the motion in selecting 1998 for the base year 
for summer flounder and it was done with much deliberation. 
ASMFC is a compact estate, it is not our jobs to take advantage 
of other states. Our job is to make interjurisdictional 
fisheries decisions in the best interest of the marine resource 
in all the states. I have included a lengthy discussion on this 
problem and why I supported New York.
    This could affect any state sometime in the future when we 
get the data that actually better reflects the recreational 
catch. The ASMFC and NMFS are trying to manage the recreational 
catch with tools that are not designed for the task due to lack 
of funding. These tools were designed to establish trends in 
the recreational fishing industry as cheaply as possible and 
not quota management.
    The other problem faced in the letter is really the lack of 
good stock assessment data. The SSC reduces the quota because 
of lack of confidence in the data. The recreational-commercial 
fishing industry suffer because of lack of spending of stock 
assessment. The SSC has insisted on keeping summer flounder 
sporting stock biomass numbers at the highest recorded level 
even after the last stock assessment included that recruitment 
is not based on how large a sporting stock biomass is.
    There are varied opinions about the amount of flexibility 
that managers should have. The 2006 reauthorization of MSA gave 
too much power to the SSC. In 2013, we will have to reduce the 
catch for summer flounder and black sea bass in New York and 
New Jersey. SSC is telling us that unless we reduce the catch 
in New York and New Jersey in 2013, we will exceed the quota.
    In my written testimony, I gave the estimate a number of 
damaged boats estimated in New York and New Jersey at over 
52,000 boats combined from Hurricane Sandy. I will give you 
four to one odds that New Jersey and New York catch will be 
below the set quota for both summer flounder and black sea bass 
for no other reason than the hurricane. In 2013, the SSC will 
have lower catch numbers and suggest we can expand our catch in 
2014 even though 2013 is a fluke year. Common sense management 
would consider the impact of the hurricane on numbers and would 
have a suggested status quo for 2013 and 2014 based at 2012. 
The managers need flexibility to take huge events into 
consideration rather than just rely on numbers crunching.
    Here are the six suggestions, here are the three of the six 
suggestions I made in my written testimony:
    The Federal Government needs to appropriate real money to 
develop and implement a system that will give us data we need 
and this needs to fund the north, northeast area monitoring 
assessment program as a line item budget issue.
    Money should be allocated to states that do the actual data 
gathering. The states have proven they can implement any data 
gathering program more efficiently, accurate, and cost 
effective than the government contractors.
    The elephant in the room is climate change. As far as 
fishermen are concerned, climate change is already there. The 
rise in water temperature is already having huge impacts on 
fish habitat. The change in temperature just by a couple 
degrees is already pushing fish further north. We need to spend 
money to study the impact of climate change and address the 
changes in fisheries management. Of course, what we really need 
to do is halt the progress of man-made climate change.
    In closing, in the last hundred years, we have made amazing 
advances in science and technology, but when it comes to 
knowledge about what's happening in the ocean, we're still in 
the dark ages. So I hope that Congress and the President will 
keep the ocean as a priority. I know these are difficult times, 
but dollars invested in research and data collection will pay 
huge dividends in the economic recovery of the fishing industry 
and its ancillary businesses.
    [The prepared statement of Mr. Fote follows:]

Prepared Statement of Thomas P Fote, Legislative Chairman, Jersey Coast 
   Anglers Association and New Jersey Federation of Sportsmen's Clubs
    I am here testifying for Jersey Coast Anglers Association and New 
Jersey State Federation of Sportsmen's Clubs. These two organizations 
are comprised of 150,000 concerned sportsmen and women throughout New 
Jersey. I would like to thank the Chairman Mark Begich and the 
Committee for this opportunity to testify on this important issue. I 
would especially like to thank Senator Lautenberg for all his hard work 
for the citizens of New Jersey, the environment and the marine 
resource. I would also like to thank Senator Schumer for being a strong 
advocate for recreational anglers and working with Senators Menendez 
and Lautenberg for funding for stock assessment research through other 
groups including Partnership for Mid-Atlantic Fisheries Science 
Research. In addition to my volunteer work with JCAA and the NJ 
Federation of Sportsmen's Clubs, I have served on the Atlantic States 
Marine Fisheries Commission as the Governor's appointee for 12 years 
including 2008--the present, Legislative proxy for 5 years and a 
concerned citizen since 1990. That experience forms my testimony today. 
The reason I can do all this volunteer work is because I retired as an 
Army Captain in 1970 after being wounded in Vietnam. I am a disabled 
vet. In the aftermath of Hurricane Sandy, the work of the Senate has 
become even more vital in restoring the fishing industries in New 
Jersey and New York. I remain hopeful that the House of Representatives 
will follow your lead and fund this crucial work. The following is 
NOAA's current assessment was released March 15, 2013.

  <bullet> NOAA's ``Initial Assessment of the Economic Impacts of Sandy 
        on New Jersey and New York Commercial and Recreational Fishing 
        Sectors. ``The report estimates total uninsured losses of $78 
        million to $121 million in New Jersey and $77 million in New 
        York.

  <bullet> The greatest damage from Sandy was to businesses supporting 
        recreational fishing in New Jersey ($62 million to $105 
        million) and New York ($58 million). These damages included 
        damage to marinas, docks, spoiled bait, destroyed tackle and 
        damages to for-hire vessels.

  <bullet> Impacts to commercial fishing were estimated at $14 million 
        in NJ and $19 million in NY but this total in both states 
        excludes damage to state-licensed vessels. The main types of 
        damage included structural damage to processor and dealer 
        facilities, loss of product, damages to commercial fishing 
        vessels and lost gear.

  <bullet> The evaluation provides information specific to the fishing 
        industry in each state to assist governors information to help 
        them assess storm-caused damage. It supplements ongoing work by 
        the states.

  <bullet> I reread my testimony from 2004 on data management and the 
        problems we encounter. I discovered I would need to repeat much 
        of what I said then since little has changed. The 
        reauthorization of the Magnusson Act in 2006 required the NMFS 
        to fix the data problems. Five years later much remains to be 
        done.

    I have testified before the House of Representatives Sub-Committee 
on Fisheries, Wildlife, Oceans and Insular Affairs on many fisheries 
management and environmental issues since the eighties. However, data 
management is certainly one of the most important topics. Most of what 
takes place in fisheries management is based on data. Data determines 
the stock assessment, the size of quotas and the rebuilding period. 
Without data we can't manage fisheries. The quality of fisheries 
management decisions is directly tied to the quality and accuracy of 
the data. The data we need does not come cheaply. As the Federal and 
state demands on fisheries management increase, particularly in the 
area of quota management, the need for quality data continues to 
increase and so does the cost. When I first got involved in fisheries 
management, there were quotas on only four or five species on the East 
coast. Now almost every species managed at the state or Federal level 
is based on quota management. Quota management is data intensive. To 
get good data you must have the proper systems in place to collect and 
quantify this data. It also takes a lot more money than we have in the 
present system.
    The systems we are using were not designed for Quota or Total 
Allowable Catch (TAC) management for recreational fisheries. We were 
trying to use tools like the Marine Recreational Fisheries Statistical 
Survey (MRFSS) to set up state-by-state quotas for recreational 
fishing. We are now switching to Marine Recreational Information 
Program, or MRIP, as the new way that NOAA Fisheries is collecting and 
reporting recreational fishing catch and effort data. Even with the new 
program, the data is still insufficient to allow for accurate state by 
state quota management. The new program is still only showing trends, 
not giving real time information and producing data good enough for 
quota management. . The weaknesses of the MRIP are that for the most 
part that program has only tweaked the models to look at bad data in 
different ways. There is still a lack of confidence levels and the same 
lag time, especially the confidence among recreational anglers. The 
number of intercepts that are done in each state varies greatly. Some 
states collect enough data to make the data slightly more reliable with 
less percentage of statistical error (PSE). Other states have sample 
sizes that are so small for specific species that a couple of outliers 
can totally skew the data. The problems with the intercepts are both in 
the number and in the quality. For 30 years many fisheries managers 
have been questioning the data collected, particularly on species that 
have large night time fisheries. For example, many private, charter and 
party boats along with surf anglers fish for bluefish and striped bass 
at night when no intercepts are collected. I understand that this will 
start being implemented in the immediate future. The lack of that data 
indicates a smaller stock and then impacts on overall stock assessment. 
When you passed the Magnusson Act in 2006, you authorized NMFS to 
collect better recreational data but did not supply the necessary 
funding.
    Everyone is demanding a more accurate count of the number of 
recreational anglers and the fish they are catching. As we get better 
data, we are confronting new problems. I always believe we have been 
underestimating the number of recreational anglers and the number of 
fish they are catching. This also means we have been underestimating 
the size of the available stocks of species that have a major 
recreational catch. The virtual population analysis (VPA) uses catch 
figures and release figures in estimating the size of the stocks. What 
happens if a state starts adding intercepts? Or what happens if a state 
begins doing intercepts at night? I believe that we will discover that 
a state has more anglers making more trips and catching more fish. This 
would not reflect a change in fishing behaviors or overall catch, just 
a change in actual reporting. The management tools we presently use 
have no way to address this potential change. What will show up 
statistically will be more anglers entering the fishery, making more 
trips and catching more fish. This will erroneously indicate possible 
overfishing and lead to more restrictive management rules for the 
following year. This is what I think happened in New York in 2001--2003 
regarding the summer flounder and scup fisheries.
    New York was required to make a 48 percent reduction in summer 
flounder TAC and a 55 percent reduction in the scup fishery TAC. I 
think this is partially due to issues discussed in the previous 
paragraph. After a careful review of the data available, I believe that 
New York was treated unfairly and testified to this fact on 6/14/04 to 
the Subcommittee on Fisheries Conservation, Wildlife and Oceans on Data 
Collection and suggested solutions to NMFS that were ignored.
    I was born and grew up in Brooklyn. I fished the North and South 
Shores of Long Island from one end to the other. When I moved to New 
Jersey, I was amazed to find that we usually counted double and 
sometimes triple the number of anglers that were counted in New York. I 
have always been interested in the trends from the MRFSS for both New 
York and New Jersey. The trends were generally similar. This makes 
sense since we share the same weather, the same fishing seasons and 
often the same waters.
    I will use summer flounder catches in New York and New Jersey as an 
example. According to the MRFSS, for about 20 years New York averaged 
between 400,000 and 600,000 participants. During that same period, New 
Jersey has ranged from 1.5 million to 800,000. In 2001, MRFSS indicated 
New Jersey had 1.3 million participants. New York had over 700,000. 
Although that was not an all-time high for New Jersey, it was for New 
York. I wish I could share the 2002 figures but NMFS gave the contract 
for 2002 to the lowest bidder, fired the contractor after 6 months and 
then extrapolated figures from previous data to arrive at figures for 
2002. They failed to tell ASMFC or the states about this problem and 
allowed management decisions to be made using this bizarre data. I have 
included more details in the attached article from the JCAA Newspaper. 
Given this problem, we really cannot use the faulty data from 2002. In 
2003, the MRFSS showed New Jersey had 1, 054,000 participants. This 
decrease in 2003 may represent a legitimate trend in New Jersey due to 
weather and changes in fishing conditions. In 2001, we had excellent 
conditions. The drought allowed fishing almost every day. The winter 
was mild and we were able to fish comfortably through January 2002. In 
2003 we had a rainy spring, lousy early fishing and we were freezing in 
November. A drop of about 250,000 participants makes sense. The total 
number of trips dropped by about 800,000. What happened in New York? In 
2001, New York had its highest participation level in 20 years. In 
2003, sharing our weather and fishing conditions, we would expect to 
see a decrease. Instead, MRFSS reported a huge increase to over 900,000 
participants, the highest level ever recorded in New York. Perhaps bad 
weather and lousy fishing is attractive to New Yorkers. Or the data was 
horrible. Or the data was finally more accurate and the previous 21 
years were inaccurate. The ASMFC had no choice but to interpret the 
data as a huge increase in New York because this is a jointly managed 
plan with the Mid-Atlantic Fisheries Management Council. The Council 
falls under Federal guidelines which do not allow for the necessary 
flexibility. They were unable to even consider that it was the previous 
data that was inaccurate. This led to a significant decrease in the 
summer flounder TAC for New York for 2004 and did have a devastating 
impact on New York's recreational fishing industry and all the 
ancillary businesses.
    Because the summer flounder fishery is such an important one for 
New York, the estimates are a loss of tens of millions of dollars to 
the New York economy. In order to be in compliance, New York 
implemented 3 fish, 17 inches and a season from May 8 to September 6. 
The irony of New York's draconian regulations is this is only a 20 
percent reduction and according to the tables they are out of 
compliance since New York needs to take a 48 percent reduction.
    I'm from New Jersey. In 2003, why should I have worried about this? 
Most people feel this is strictly New York's problem. In addition to my 
concerns about using faulty data to make management decisions, this 
will also have an impact on New Jersey. I never thought I would hear 
charter boat captains from New Jersey talking about their concerns if 
tens of thousands of New Yorkers began fishing in New Jersey waters. 
Our bag limit of 8 fish, 16\1/2\ inches and a season from May 8 to 
October 8 was attractive to any New Yorker within reasonable traveling 
distance. New York was at 3 fish, 17 inches and a season from May 8 to 
September 8. Our regulations were based on our historical catch, not 
with consideration of a significant influx of New York anglers. This 
could have had a devastating impact on our 2004 statistics and on our 
regulations for 2005. We could have gone over TAC even after taking the 
most conservative path according to the tables we use to calculate 
seasons. What a hell of a way to run a system! I could discuss many 
other data gathering strategies including the Large Pelagic Survey but 
the message would be the same.
    I carefully considered Senator Schumer's letter to the 
Commissioners for the Atlantic States Marine Fisheries Commission. 
Senator Schumer has been a strong advocate for recreational anglers. He 
has also been a strong advocate with Senators Menendez and Lautenberg 
for funding for stock assessment research through other groups 
including Partnership for Mid-Atlantic Fisheries Science Research. 
Because of this funding we have better information about summer 
flounder. Because of my respect for his work, I need to respond to some 
of his concerns. First, when we set the years for quota distribution 
for summer flounder and black sea bass using 1998 as the base year, it 
was done with much deliberation and concern. New Jersey gave up 20 
percent of its catch so other states could raise their commercial 
levels. After much deliberation and a year of reviewing the charts, a 
motion was made at the Management Board Meeting by Gordon Colvin, the 
then director of Marine Fisheries for New York. Mr. Colvin is without a 
doubt the toughest negotiator for his state's interests that I have 
ever met. I always joke that he gives away snow in the winter. This was 
not the best or worst year for New Jersey and we were willing to agree 
to support the needs of other states. We are a compact of states. It is 
not our job to take advantage of other states for our own interest. Our 
job is to make interjuristictional decisions in the best interest of 
the marine resource and the states. This decision in 1998 predated the 
great increase in counting recreational anglers in New York in 2001--
2003. It is this data that has helped create the difficulty for New 
York. Common sense suggested to me that we were not only 
underestimating the number of anglers and trips in New York but also 
underestimating the stock size. Despite my suggestion to resolve this 
issue, NMFS refused to address this problem. There is something else 
happening with this fishery. In order to stay within these quotas with 
this huge spawning biomass, we are required to further restrict the 
recreational catch. We can restrict bag limits, size limits and 
seasons. New York has been relying on size limits rather than seasons. 
New Jersey emphasizes changing seasons to gain the needed reductions. I 
understand the concerns facing New York's managers. Long Island Sound, 
Montauk, Captree, Sheepshead Bay and City Island, all areas I fished 
while living in New York, represent different management needs as far 
as size and seasons. Sometimes those varied needs are difficult in a 
single plan. We have the same problem in New Jersey dealing with 
Fortescue, Cape May, Barnegat Bay and Sandy Hook. We even have species 
like winter flounder and scup that don't migrate south of Barnegat Bay. 
I have included a comparison (Tables 1) of New York and New Jersey's 
regulations for the past few years. I have also included a table 
showing the reductions in other states from 2001 (Table 2). In our 
latest guidance in an ASMFC conference call last week on black sea 
bass, the technical committee recommended shorter seasons would give 
the most opportunity to meet the quota. It is important to point out 
that research done beginning in the 70s, showed that some species like 
black sea bass and summer flounder have an interesting migratory 
pattern. These species move back and forth from the offshore to inshore 
waters from one season to another. Summer flounder travels as far as 
the continental shelf to spawn. They do not return directly to the same 
bay or estuary. It seems as these fish get larger, they go out and 
return further north. Because we are uniformly raising size limits for 
southern states, it causes the stocks to migrate farther north. We have 
continually seen larger and larger black sea bass and summer flounder 
harvested in the northern states. By raising size limits, we are 
causing other problems. If we caught the same poundage in 1994 and 
2013, the number of actual fish is about 25 percent in 2013. That means 
the four anglers on a boat can catch only one fish to have the same 
poundage. Everyone else will need to catch and release despite the 
mortality problems that causes. Striped bass has a big hook and release 
contingent. We always knew the numbers for striped bass would be high. 
In many years we kill as many fish by catch and release as we do by 
catch and keep. Summer flounder and black sea bass are not considered 
the same way by anglers. Summer flounder and black sea bass are 
considered catch and eat, prime dinner fare in New York and New Jersey. 
We are not seeing figures for some years that suggest we are killing 
more summer flounder and black sea bass with catch and release than we 
are for catch and eat. These are called regulatory discards and the 
problem is created when the size limits are so large anglers need to 
discard multiple fish before they have a legal size for dinner. This is 
a terrible waste and has a huge impact on stock assessment. A dead fish 
is a dead fish. We need a better way to manage. I am a Brooklyn boy who 
grew up fishing from Canarsie Pier, Steeple Chase Pier and party boats 
from Sheepshead Bay. I understand the needs of the anglers who continue 
to fish in those areas and would like to work with this committee to 
make sure they are able to harvest fish for their families. I was 
always proud to bring home a fish for my Mom to cook for dinner in 
Brooklyn.
    The Atlantic States Marine Fisheries Commission and the National 
Marine Fisheries Service are trying to manage the recreational catch 
effectively with the tools available. The tools they are using are not 
designed for the task due to a lack of funding. The current tools were 
designed to establish trends for the recreational fishing industry as 
cheaply as possible. We are requiring them to use data that is not 
appropriate for the task. It is no wonder that the decisions made using 
this data creates more problems than they solve. In a 2003 article 
which is included, Menakhem Ben-Yami stated, ``Fisheries management is 
all about people. People are all it can manage, and people are those 
who either enjoy or suffer from its consequences, including depletion 
of fish stocks. Therefore, it cannot be feasible if it is perceived by 
fishing people as erroneous, wrong, unjust, etc. This is one more 
reason for fisheries management not working.'' I absolutely believe 
this is true. ASMFC and NMFS have been working on the Atlantic Coast 
Cooperative Statistical Program (ACCSP) to design and implement a 
better system for compiling fisheries catch data for both recreational 
and commercial fishing. They signed an agreement a number of years ago 
and are making some progress with this task. But the demands for 
fisheries management are increasing more quickly than the new system is 
being developed and implemented. With the reauthorization of the 
Magnusson Act in 2006, MRIP is slowly being implemented. What has 
lagged behind is the stock assessment work needed to make MRIP 
accurate.
    The other problem we face is really good stock assessment. Because 
we cannot physically count every fish in the ocean, we rely on modeling 
to get an estimation of the stocks. My experience with these models is 
that they are based on assumptions that are very conservative. When you 
begin to layer one conservative assumption on another, the resulting 
model is extremely conservative. This is great when you are rebuilding 
stocks. It is necessary to take a very precautionary approach when 
stocks are rebuilding to guarantee success. However, I believe once the 
stocks are rebuilt or are well on the way, these models can result in a 
significant underestimation of the existing stocks. Summer flounder is 
a good example. We began rebuilding the stocks in 1994 when there was a 
low spawning stock biomass. We implemented measures to rebuild this 
spawning stock biomass with a target goal. The scientists set an 
unrealistic target which created numerous problems until several 
revisions became more realistic. We have been hovering at close to or 
slightly above that spawning stock rebuilding target since 2011. 
However, there has been relatively little or no increase in the summer 
flounder quota. The SSC (Statistical and Scientific Committee) for the 
Mid-Atlantic Fisheries Management Council has insisted on keeping the 
spawning stock biomass number the highest since we have recorded data. 
The last stock assessment concluded that recruitment is not based on 
how large the spawning stock biomass is. There are other factors that 
impact on the successful recruitment beyond the spawning stock biomass 
number. We can only guess what those other factors might be. We can 
make some assumptions about the availability of forage species, water 
temperature, weather and environmental contaminants. Without reliable 
data, it remains only a guess. But we know for sure that there is often 
no reliable relationship between actual recruitment and the spawning 
stock biomass number. We have had some of the highest recruitments in 
years when the spawning stock biomass was half of what it is now. And 
with this very high spawning stock biomass we have had some low 
recruitment. Again, what is needed is more money to develop appropriate 
data gathering tools. I know these models have been peer tested but in 
the article below, Menakhem Ben Yami states, ``I think that another 
reason for having inadequate science in charge for so many years is 
that the ``peer reviewing'' of publications and scientific reports is 
being done by scientists, however independent, who come from the same 
discipline and the same, prevailing school of thought as the authors. 
Thus, assessments made on the basis of statistical models are reviewed 
by statistical modellers, who obviously believe in their basic 
methodology, but not by scientists who may think that the whole 
existing modeling methodology cannot produce reliable results.'' I have 
been saying the same thing for years.
    There has been ongoing conversation about flexibility. There are 
varied opinions about the amount of flexibility the managers should 
have. Historically, some Federal management councils did not act 
responsibly in implementing rebuilding measures. Because of the few 
irresponsible decisions there is a general mistrust of all of the 
councils by some of the scientific and fisheries advocate groups. With 
the last reauthorization of the Magnusson Act, more power was given to 
the SSC. This created problems rather than resolving them. The 
scientific modellers can take bad data in which we have little 
confidence and find ways to treat it as credible. It should be up to 
the fisheries managers to use the data in responsible way. In 2014, we 
will have to reduce the catch for summer flounder and black sea bass in 
New York and New Jersey. The SSC is telling us that unless we reduce 
this catch in 2013 NY & NJ will exceed the recreational quota on summer 
flounder and black sea bass. In the beginning of this presentation I 
gave you the economic numbers from Hurricane Sandy. What I didn't give 
you were the number of damage boats (estimated at over 52,000 combined 
New York and New Jersey attached article). This means less boats in the 
water, marinas and boat ramps still inaccessible, many of the beaches 
remain closed due to hurricane damage. If I was a betting man I would 
give you 4 to 1 odds that our catch will go down significantly on both 
summer flounder and black sea bass for no other reason than the 
hurricane. So what will happen in 2014? The SSC with the lower catch 
numbers will suggest we can expand our catch in 2014 by increasing 
seasons and lowering bag limits. Common sense management experts would 
consider the impact of the hurricane on the numbers and suggest status 
quo for 2013 and 2014 based on 2012. The managers should have the 
flexibility to take this huge event into consideration rather than just 
relying on the SSC numbers crunching. Common sense should prevail.
    I would like you to consider the following suggestions:

  1.  The Federal Government needs to appropriate real money to develop 
        and implement a system that will give us the data we need and 
        need to make the Northeast Area Monitoring and Assessment 
        Program a line item in NMFS budget.

  2.  The money should be allocated to the states to do the actual data 
        gathering. The states have proven they can implement any data-
        gathering program more efficiently, accurately and cost 
        effectively than government contractors.

  3.  We need a fund new stock assessment that counts fish more 
        accurately. We also need to collect the Recreational Data 
        necessary to bring the Percentage of Statistical Error to an 
        acceptable level.

  4.  We need to develop a culture that respects the expertise of 
        responsible fisheries managers that allows them to use the data 
        in a flexible way. The SSC is charged with providing data, not 
        making management decisions. The SSC should not be allowed to 
        insert their own perspective on additional conservation since 
        the need for conservation is already built into the models.

  5.  The elephant in the room is climate change. As far as fishermen 
        are concerned, climate change is already here. This is a 
        reality. Water temperature is having a huge impact on fish 
        habitat. The change in temperature by just a couple of degrees 
        pushes some fish further north or eliminates the surf clam 
        fishery off Island Beach State Park. Who knows what the next 
        5--10 years will bring? We need to spend the money to study the 
        impact of climate change and be flexible enough to address 
        these changes in fisheries management. Of course what we really 
        need to do is halt the progress of man-made climate change.

  6.  NMFS and ASMFC needs to revisit all the allocation of fish 
        between commercial and the recreational sectors, State 
        allocations and sector allocation. Especially before NMFS tries 
        to set up catch shares.

    In closing, in the last hundred years there have been amazing 
advances in science and technology. We can count the craters on the 
moon. We are able to use satellites to photograph a four foot area on 
earth from tens of thousands of miles away. We can actually land a 
vehicle on Mars to analyze the soil. These are things we couldn't even 
dream of 50 years ago. But when it comes to knowledge about what is 
happening in the ocean, we are still in the dark ages. The two recent 
Oceans Reports point this out dramatically. We're not even sure about 
the impact of human activity on the ocean. It is my hope that Congress 
and the President will see the ocean as a priority. That will have the 
most dramatic effect on all of our lives. I know these are difficult 
economic times but dollars invested in research and data collection 
will pay huge dividends in the economic recovery of the fishing 
industry and all its ancillary businesses.
Table 1
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Table 2
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               Fisheries Management & Legislative Report

     by Tom Fote (from Jersey Coast Anglers Association April 2004 
                               Newspaper)

Summer Flounder
    At the ASMFC meeting there was a lengthy discussion about New 
York's summer flounder overages and the necessary reduction. I fought 
hard for a motion that would give New York some relief. Some people 
asked me why I fought so hard to reach a solution that was not allowed 
for in the plan. The implication was that I had not fought as hard when 
other states faced reductions due to overages. My reply is that times 
are different and the situation is different. My responsibility as 
commissioner is to look at each issue individually and consider the 
current situation. Circumstances change and in this case there were 
some outstanding reasons why I changed my mind. In 2002, because of the 
issue of paybacks, states were being very conservative on the 
implementation of changes in their fluke regulations for 2003. Most 
states made a good faith effort to develop regulations that would keep 
them in compliance with their targets. They used the available data 
conservatively in developing their regulations. None of us were told 
there was a problem with the 2002 Marine Recreational Statistical 
Survey. New York, New Jersey and other states used those figures as 
though they were calculated in the same way as the figures from 2000 
and 2001. Even though we know none of these figures are accurate we 
expected some consistency from year to year. The National Marine 
Fisheries Service should have told us about the problem with the data 
for 2002. It is irresponsible to punish a state for developing 
regulations when they were given inconsistent data. Right now, New York 
is required to take a 48 percent reduction in the summer flounder 
fishery. This will have a devastating economic effect on the marine 
recreational fishing industry in New York and impact on the quality of 
life for recreational anglers. If this happened in New Jersey the 
impact would be even more devastating and I am not sure what actions we 
would need to take. We just can't use the Marine Recreational 
Statistical Survey to do quota management. It was not designed for this 
task and continues to create problems throughout the system. We are 
encountering the same problems in scup, sea bass, tautog and any other 
species that uses this data.

    Open the Pandora's Box: A Discussion about Fisheries Allocations

    NOAA Fisheries has released the first-ever compilation and 
discussion of fisheries allocation issues which summarizes input 
received from a broad spectrum of stakeholders. The report is a direct 
outcome of commitments made by NOAA during the National Saltwater 
Recreational Fisheries Summit to address stakeholder concerns regarding 
allocation. To read the report, go to http://www.nmfs.noaa.gov/stories/
2013/01/docs/lapointe_allocation_report_final.pdf. I have included the 
white paper's conclusions below.
    In politics the third rail is social security. In fisheries the 
third rail is allocation. This is the topic everyone avoids at all 
cost. It is one of the most difficult to deal with. I have asked Bruce 
Freeman to develop a white paper on the history of this issue. I have 
also asked some sports writers who have the institutional memory to 
consider writing articles on this topic. The recreational community has 
taken it on the chin on allocations because of the failure of the NMFS 
to historically gather good recreational statistics. NMFS never thought 
that the recreational sector would catch enough fish to need 
regulations. NMFS was created from the Bureau of Sports Fisheries and 
the Bureau of Commercial Fisheries. The Bureau of Commercial Fisheries 
was the site of all the money. They had port agents and were spending 
millions of dollars to collect commercial landings. The restrictions on 
the commercial fisheries go back hundreds of years. The Bureau of 
Sports Fisheries looked at trends in recreational fishing but was never 
intended to set up allocations. The money was never spent for Marine 
Recreational Fisheries Statistical Surveys. We were spending millions 
of dollars on commercial catch figures and a pittance on surveying all 
the recreational anglers in the country. This continues to this day 
under NMFS. While the budget for recreational surveys has doubled, 
double almost nothing is still almost nothing.
    In the 1980s NMFS looked at historical recreational surveys and 
literally cut the numbers for the recreational sector fisheries in half 
with no scientific validation. When the Councils and Commissions began 
setting quotas, the only data available was from NMFS. This data was 
the flawed MRFS data and the 50 percent reduction data. Hardly 
scientifically valid! This has extremely negative consequences on the 
recreational sector to this day. The report referenced above will be 
used to generate a discussion about changing present allocations and 
making future allocations. Remember, the recreational sector is already 
in the penalty box and any decisions based on previous allocations will 
continue to handicap the recreational sector. We need to be skeptical 
in discussing the issues raised in this report since if fails to 
recognize the systemic problems already in existence. Without an 
acknowledgement of the history, the future will not be favorable for 
recreational anglers. We need to get the people who have the historical 
knowledge to share with all of us before any decisions are made.
                                 ______
                                 

        Marine Fishery Allocation Issues White Paper Conclusions

                           by George Lapointe

    Allocation issues pervade fishery management discussions and 
decisions in the US, and likely elsewhere. Almost all fishery 
management decisions, direct and indirect, have allocative effects and 
stakeholders in fishery management are attuned to these impacts. 
Perceptions about the fairness of individual and cumulative allocation 
decisions can drive stakeholder's perspectives about the fairness of 
the overall fishery management system.
    As mentioned in a number of project discussions, fishery managers 
have a difficult time explaining the process, rationale, and outcomes 
of allocation decisions because. At best, it's very hard to explain to 
a group or individual why a decision was made in a way that they do not 
agree with. In more difficult allocation discussions, it is nearly 
impossible to achieve an outcome that is not perceived as very unfair 
by some stakeholders.
    Also evident from this project is that most managers and 
stakeholders favor an allocation process that is more efficient and 
understandable than currently done. Many suggestions were made about 
improvements to the management process to make allocation decisions 
more clearly understood, fairer, and based more on quantitative factors 
and less on qualitative factors which are often perceived as biased and 
arbitrary.
    Clearly, there is difficult work to be done on allocation in the 
Nation's fishery management system. A logical conclusion from this type 
of perception is that fishery managers at the state, regional, and 
national levels need to focus more time and resources to allocation 
discussions and decisions. This should begin in the initial stages of a 
fishery management action and should include clear, direct language 
about the allocation definitions and decisions to be made, who is 
responsible for the decisions, and how stakeholders can engage in the 
process.
    Similar to most difficult policy issue, progress lies in hard work, 
additional attention to the issue, and frank discussion among 
stakeholders. This project has identified some courses of action for 
decision makers to consider. Other options will likely be identified by 
decision makers and stakeholders as future discussions about how to 
best address fishery allocation is discussed in states, at Council 
meetings, and at National venues. This project is clearly an initial 
step in this important discussion
                                 ______
                                 

     From my Testimony on 6/14/04 to the Subcommittee on Fisheries 
          Conservation, Wildlife and Oceans on Data Collection

               Some More Comment About Fisheries Science

    Menakhem Ben-Yami is a fisheries Management and Development Advisor 
from Israel. I communicate with him through a message board that 
includes people from around the world. He sent me this e-mail and I 
wanted to share it with you. Pay particular attention to #5 where he 
discusses the peer review process. I have been saying the same thing 
for years. I mentioned to Menakhem that he did not include recreational 
fishing in his definitions. He replied that most of the countries he 
deals with pay little attention to recreational fishing.

          Article from Menakhem Ben-Yami--Appeared on Fishfolk

    I think that it might be useful to recall some definitions that we 
discussed here several years ago:

  1.  Fishery management is about maintaining the production of fish 
        and the well-being of fish producers at sustainable levels.

  2.  Good assessment of the desired level of production (expressed 
        either in the terms of input or output, or a combination of 
        both), and of the production sector are necessary for 
        successful management. The fishery science, as practiced today, 
        may not be able in many cases to produce such assessment. It 
        may be ``the best available'' but not necessarily adequate 
        science.

  3.  Fisheries management is all about people. People are all it can 
        manage, and people are those who either enjoy or suffer from 
        its consequences, including depletion of fish stocks. 
        Therefore, it cannot be feasible if it is perceived by fishing 
        people as erroneous, wrong, unjust, etc. This is one more 
        reason for fisheries managements' not working.

  4.  Choice of management strategy (by the authorities in charge) is 
        in most cases political and economic. The two basic strategies 
        are (1) favoring the existing fishing people and their 
        communities, and (2) favoring larger and financially more 
        efficient owners, which as a rule includes large corporations. 
        Both strategies may eventually achieve similar fish yields, but 
        each at different social and economic costs.

  5.  Within each strategy various technical/technological means can be 
        adapted. Some of those are today criticized as based on 
        inadequate, or just wrong science and assumptions. An example: 
        selective fishing for only larger individuals in groundfish 
        fisheries that, according to some scientists, leads to creation 
        of stunted, starving populations of undersized, early and weak 
        spawners, and, perhaps, genetic changes in those fish 
        populations where genetically slower growers enjoy the 
        selective fishing and bequeath this trait over an increasing 
        share of the stock.

    I think that another reason for having inadequate science in charge 
for so many years is that the ``peer reviewing'' of publications and 
scientific reports is being done by scientists, however independent, 
who come from the same discipline and the same, prevailing school of 
thought as the authors. Thus, assessments made on the basis of 
statistical models are reviewed by statistical modellers, who obviously 
believe in their basic methodology, but not by scientists who may think 
that the whole existing modeling methodology cannot produce reliable 
results.
                                 ______
                                 

  NEWS from BoatUS--November 14, 2012--Boat Owners Association of The 
                             United States

FOR IMMEDIATE RELEASE

     Press Contact: D. Scott Croft, 703-461-2864, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0e5d4d7c61687a4e4c616f7a5b5d206d6163">[email&#160;protected]</a>

    Over $650 Million in Estimated Losses to Boats Makes Storm Single 
Largest Disaster for Recreational Boats on Record
    Boat Owners Association of The United States estimates that 
Hurricane Sandy's damage to recreational boats will reach $650 million, 
with over 65,000 boats damaged or lost, like these boats at a marina on 
Great Kills Harbor, Staten Island NY.
    STATEN ISLAND, NY, November 14, 2012--The nation's largest group of 
boaters, Boat Owner's Association of The United States (BoatUS), 
estimates that over 65,000 recreational boats were damaged or lost as a 
result of Hurricane Sandy. BoatUS also estimates that dollar damage to 
all recreational boats (only) is $650 million, making the late October 
storm the single-largest industry loss since the Association began 
keeping track in 1966. A video of the BoatUS Catastrophe response team 
on the ground in New York and New Jersey can be found at http://
youtu.be/TGoCBe6ObpA.
    ``We are all reeling from the huge impact this storm has had on 
communities and people's lives,'' said BoatUS AVP Public Affairs Scott 
Croft. ``We've never seen anything like it. The scope of the damage to 
boats is unprecedented, affecting large areas from the Atlantic 
seaboard as far inland as the Great Lakes, with the majority of damage 
in New Jersey, New York and Connecticut. The combination of boats 
stored ashore at low elevations and record high surge levels caused 
hundreds, if not thousands, of boats to float away into neighborhoods, 
parks and marshes. The tri-state coastline left no place for the surge 
to go, but up. While some boats that stayed in the slips did fine, 
other boats tied to floating docks simply lifted off too-short pilings 
and floated away--still tied to the dock. Some vessels never made it 
out of their slip and rest on the bottom.''
    The BoatUS Catastrophe Response Team reports that the marine 
community has rallied to gain the upper hand on the recovery process. 
``If there is a story to tell, it's about how the boating industry got 
together immediately after the storm to help each other out and get 
boats back in their place,'' said BoatUS Catastrophe Team Member Jack 
Hornor. While some New Jersey barrier islands continue to restrict 
access delaying boat recovery efforts, some marinas, boat clubs and 
yards have recovered their customers' boats and put them back on blocks 
to undergo damage assessments. Many boating facilities, especially 
those on New Jersey's coast, Staten Island and western Long Island, 
sustained significant damage to infrastructure such as docks, 
workshops, clubhouses and equipment, which will likely have an impact 
on the 2013 boating season.
    BoatUS estimates over 32,000 boats were damaged in NY, followed by 
New Jersey's 25,000, Connecticut's 2,500 and 6,000 remaining in various 
states. Dollar damage to recreational boats (only) in New York is 
estimated at $324 million, followed by $242 million in New Jersey and 
$23 million in Connecticut. Previously, in the 2005 storm season, 
Hurricane Wilma and Katrina damage was estimated at over $700 million 
combined.
    As with any storm, the BoatUS Marine Insurance Program will be 
investigating hurricane damage prevention measures taken by boaters and 
possible new solutions, but one early indication is that boats tied-up 
to protected floating docks with tall pilings had the best chance of 
survival with Sandy. ``However, you can't base a hurricane preparation 
plan on one storm. While storm surge was the biggest factor here, wind 
and rain can be major factors in the next one. Hindsight is only good 
if you look at the bigger picture,'' said BoatUS Director of Technical 
Services Bob Adriance.
    One new factor that is affecting post-hurricane boat recovery 
efforts? Snow. BoatUS reports there is some concern in the industry 
that storm damaged vessels may not be winterized in time with the 
arrival of colder weather.

    Senator Begich. Thank you very much.
    Let me thank you for your, all three of your testimony and 
we'll have a little bit of time here to ask some questions, so 
I'm going to turn to Senator Blumenthal, whose joined us, and 
we appreciate his attendance, so we'll turn to him for his 
first line of questions.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you, Senator Begich and thank you 
for chairing this subcommittee meeting and thank you to Senator 
Schumer for helping to convene it and to each of you, the 
witnesses who are here now and the prior panel.
    I am very concerned, not only about the stock that exists 
naturally, but also about aquaculture, that is, efforts to 
increase the ability of our region and our nation to, in 
effect, grow the sources of seafood, food from the sea. 
Particularly in light of the challenge that we face, the Food 
and Agriculture Organization of the United Nations is 
predicting that we have to double our seafood supplies by 2050 
to meet expected demand from around the world, including in 
this country. The general population growth is expected to make 
that challenge necessary to meet and a lot of experts are 
saying that aquaculture has to be a primary driver of the 
supplies necessary to meet that extraordinary demand.
    So let me begin, perhaps, with you, Mr. Hasbrouck, to ask 
whether you think that currently we devote enough resources, 
right now it's a very, very small part of our Federal budget, I 
think NOAA spends a fraction of its $5 billion budget on this 
objective, and whether we should be spending more on this kind 
of aquaculture effort?
    Mr. Hasbrouck. Thank you, Senator Blumenthal.
    I'd just like to point out, before I directly answer, that 
I was born and raised in Connecticut and all my interests in 
fisheries and marine science to my youthful activities along 
the beaches of Stratford and Milford in the tidal estuaries of 
the Housatonic River.
    Senator Blumenthal. Thank you. And we welcome you back 
anytime.
    Mr. Hasbrouck. Thank you. I still have a lot of family in 
Connecticut.
    Senator Blumenthal. Wonderful. You look like a real expert 
to me. I didn't know that Connecticut roots were part of it.
    Mr. Hasbrouck. It's from my roots in Connecticut.
    I agree that we should be spending more money on 
aquaculture and that there are probably a lot more 
opportunities for aquaculture. Aquaculture is being practiced 
in more extent in other parts of the world. We do have some 
aquaculture taking place. A lot of it is relative to 
shellfisheries. As you know, oysters were at one time a 
tremendous industry in Connecticut as well as New York. That 
industry now is based a lot on aquaculture. So we've made great 
strives in shellfish culture, not only with the oysters, but 
hard clams and recently with bay scallops, but I think there's 
a lot more opportunity with fin fisheries. We need to take a 
look at what impacts there may be to the environment of large-
scale aquaculture facilities, but I think we have the ability 
to do that. I think we also need to make sure that any fills 
fish culture utilizes local wild stock as broodstock.
    An issue with aquaculture is high cost of electricity, 
especially in New York, and I think Connecticut has high 
electrical costs, as well. In terms of the shore-side support 
facility for aquaculture, I just mentioned that as a fact of 
life, essentially the cost of electricity for running pumps and 
so forth, but yes, I think we need to have more emphasis and 
more funds toward aquaculture.
    Senator Blumenthal. As you may know, the half shell market 
and shellfishing is still a very vibrant and important 
industry. As a matter of fact, it produces about $30 million 
and employs 300 people in the state of Connecticut, many of 
them in the Milford, Stratford area where you're from, and so I 
very much appreciate that answer, and the National Marine 
Fisheries Service spent about .07 percent last year on 
aquaculture research which is about $5.5 million out of the 
budget of almost $5 billion, so there's a lot of potential, a 
lot of opportunity there.
    I don't know whether any of the other witnesses have any 
comments on that issue?
    Senator Begich. Mr. Fote.
    Mr. Fote. I've served, as I said, 17 years, the last 23 as 
either commissioner or the legislative proxy as a volunteer all 
these years on the Atlantic states. One of the biggest battles 
we had, going back about 10 years ago, is using foreign oysters 
and afraid of contamination of the stock going back and forth.
    The other problem we have, I mean, clams, mussels, 
everything, like the shellfish seems to be the prime target 
with what goes on and it doesn't cause ecological damage that 
other species have with the amount of antibiotics and drugs 
that we have to put into the fish to basically put them in a 
those tight pens.
    Yes, it's an important part and we should be looking at it, 
but it's something that's got to be done carefully. There's a 
lot of concerns about, you know, and--genetically engineered 
fish being put into the environment that will affect the other 
stocks of fish. So shellfish seems to be prime as long as we 
keep the native shellfish and not bring ones from around the 
world. And it's also how the invasive species have affected 
those stocks, also, but yes, I mean, it's a way of 
supplementing the food and who wouldn't be--if it wasn't for 
aquaculture, I wouldn't get the clams I want to eat or the 
oysters I want to eat. I grew up in Brooklyn so I used to eat 
at one of these fish markets in Sheepshead Bay where Senator 
Schumer probably had clams. I don't know if he eats clams 
because they're not kosher, but you know what I'm saying, 
that's the same fish market that we had.
    Senator Begich. Very good.
    Senator Blumenthal. Thank you.
    Senator Begich. Mr. Gilmore.
    Mr. Gilmore. Thank you, Senator, and I'm not from 
Connecticut, I'm--was originally from the Bronx, so I 
apologize.
    Actually, and I agree with most of the accounts, we need to 
put more into aquaculture, but one cautionary note here is that 
we got to make sure we maintain our wild populations and that 
we don't, in terms of, you know, advancing aquaculture, maybe 
impact those negatively. I think there are mistakes that can 
be, that were from the past in the inland fisheries that we had 
and essentially, we now have complete artificial populations, 
and just personally, wild fish tastes much better than 
aquaculture fish. So if we can maintain the wild populations 
but then augment that with aquaculture, I think that would be a 
good way to be going.
    Thank you.
    Senator Blumenthal. Well, my time has expired, but I really 
want to thank all three of you. These comments have been really 
excellent, and I take to heart the caveats that have been 
raised by both Mr. Fote and Mr. Gilmore, and thank you, Mr. 
Hasbrouck, for being here today and for your excellent work on 
the program at Cornell. Thank you.
    Senator Begich. Thank you very much.
    Let me ask a couple follows-ups on that and then have a 
couple other individual questions.
    I agree with your comments, especially on shellfish. We're 
doing some, as you know, in Alaska, but I've been one of those 
outspoken critics of what we call frankenfish or genetically 
engineered fish because of the impact it could have and your 
cautionary notes are very well received. And I agree with you, 
Mr. Gilmore, we would always say in Alaska, wild caught is 
always better, and you know, there's a great effort, as you 
know, we've introduced a piece of legislation about 
traceability and I know there is some discussion about some of 
the work, on the last panel, in making sure that what we catch 
is what we eat, which is a big issue. And when you get into 
fish farming or agriculture, you have to be very careful with 
the impacts that could happen, but also what the consumer 
actually thinks they're getting at the end of the day, which is 
very important, so I appreciate your comments there.
    Let me ask you, and it seemed to be a consistent 
commentary, and I'm just going to go right to the flounder 
issue, and that is, and correct me, and I tried to write down 
the numbers as quick as possible on the states, but it was, I 
think it was Virginia, Maryland had a higher percentage but 
they weren't getting caught, and New York has a lower 
percentage and sees more; is that a--I'm trying to summarize, 
New York-New Jersey, I should say that region; is that a fair 
summary, to Mr. Gilmore, to Mr. Fote?
    Mr. Gilmore. Yes. Actually, the way, for the recreational 
fishery, the two highest states----
    Senator Begich. Yes.
    Mr. Gilmore.--are New York and New Jersey then followed by 
Virginia. The rest of the states only harvest between 3 and 5 
percent, so the three big states are those.
    Senator Begich. Of their percentage that's required or is 
that----
    Mr. Gilmore. Of the percentage of that unequal 
distribution.
    Senator Begich. OK.
    Mr. Fote. When we changed regulations and we started 
raising the size of fish, I mean, New York and New Jersey took 
a ride, you know, we got a pass in the early years because when 
we raised the size limit from--North Carolina, Maryland, and 
Virginia had 12-inch size limits. They went to 13 inches, they 
went to 14 inches. They lost the amount of fish they could 
catch under those size limits.
    Senator Begich. OK.
    Mr. Fote. We started going to 15 and 16, they got more 
greatly impacted on what it is, so sometimes, if they don't see 
the bigger fish, some of that is not to do with climate change. 
Summer flounder's studies going back to the 60s show that as 
they get bigger, they do this kind of v-shape and move north.
    Senator Begich. Gotcha.
    Mr. Fote. So smaller fish are available unless you can't 
catch them at 12 or 13 inches so some of them are migrating 
north before they can get caught by the southern states.
    Senator Begich. Let me ask you, and I think you all said it 
a little bit there, this whole concept of the state-by-state 
allocation system. Again, give me your thoughts on that, does 
there need to be a reexamination, obviously, of that it seems, 
from at least some of the testimony, but give me, and we'll 
start here then kind of go down.
    Mr. Fote. The commission looked at state-by-state 
allocation because we realized coast-wide didn't work for 
states like Virginia, Maryland, and North Carolina. They were 
getting unfairly disadvantaged because of the small size fish 
that are predominantly in their waters for summer flounder. So 
we looked at a method that would basically be equitable to all, 
with a lot of deliberation on this, and we basically set--but 
we came up with a good system.
    One of the problems with New York, as I pointed out in my 
written testimony, is they all of a sudden started having 
200,000 more anglers and that's when they started pushing over, 
and I suggested that we give them a special allocation, back in 
2004, and spread this out for the other years.
    Senator Begich. Yes.
    Mr. Fote. Also, what happened is when we thought that the 
fisheries would be increasing, instead of when you put the SSC 
in charge, that we'd be up to about 30 or 40 million pounds of 
quota by now----
    Senator Begich. Right.
    Mr. Fote.--that all the increases in quota above 29 
million, what we were thinking about back then, was to be 
equally divided among the states.
    Senator Begich. Gotcha.
    Mr. Fote. And catch up. But all of a sudden, we got into 
this crazy airs where they demanded the spawning stocks' 
biomass be so large before we could harvest any fish. And you 
know, one of the most frustrating jobs I've had in my life as a 
volunteer is this, because I never come back with good news. 
When I first got involved with fisheries and management, I 
thought because we did the right thing, we protected the 
stocks, we rebuild the stocks----
    Senator Begich. It could go this way, yes.
    Mr. Fote. We would, basically, be allowed to harvest, both 
commercially and recreationally, more fish, and just the 
opposite. Recreationally, right now compared to 1994, a 
recreational angler in either states, any of the states along 
the coast are harvesting one-fourth the number of fish they 
harvested when the stocks were collapsed. The problem is those 
fish are so much bigger because we're forced to reel in bigger 
and bigger fish----
    Senator Begich. Understood.
    Mr. Fote.--that it takes less fish to fill up that 200,000 
pounds.
    Senator Begich. OK.
    Mr. Fote. So, instead of getting--I'll give an example, it 
has nothing to do with it, but instead of getting five fish to 
do this, you're now getting one fish because you're catching 
bigger fish.
    Senator Begich. Gotcha.
    Mr. Fote. And that's really the real problem. So the angler 
tries to go out for a day to catch fish is now getting the 
opportunity to bring a fish home because of the bigger size 
limits.
    Senator Begich. Mr. Gilmore.
    Mr. Gilmore. The state-by-state allocation was essentially 
something, as I said in my testimony, to try to correct, there 
was a downward, it was a decline in the stocks, so we had to do 
something, and the issue really came that we couldn't get out 
of this box. It was something we etched in stone and that was 
really the problem with it.
    The other issue that surrounded it was not only was the 
MRFSS data suspect, but the MRFSS's data was originally 
designed to be the only estimate of the state-wide, or a coast-
wide effort now from different anglers, whatever, it was never 
designed to be used on individual states. So we violated a 
statistical principle by even using that back in, you know, the 
early 2000s when this, this whole thing decided, you know, when 
we decided to go by state-by-state. So the idea was one where 
we, it just was that we did not allow an escape out of this, 
out of the box to essentially reevaluate the fishery and now 
we're stuck. Because once we set up an unequal quota along the 
coast, we really don't have any way to go back and say, well, 
what is the normal fishing----
    Senator Begich. Right, what's the real baseline.
    Mr. Gilmore. Correct.
    Senator Begich. Right.
    Mr. Gilmore. We need to establish a new baseline before we 
can actually decide what an appropriate distribution would be.
    Senator Begich. Let me end on this comment and first say, I 
appreciate each one of you who did give recommendations and 
some ideas as we get ready to deal with some of these 
reauthorizations, especially the Magnuson-Stevens Act, which 
will be significant. And our approach is going to be to have 
regional as well as hearings here to make sure we walk through 
this very carefully because it has long-term impact, and 
fisheries is not something you turn off and on and I like the 
idea of trends versus every year going through this process of 
trying to figure out allocation numbers and I think it makes a 
big difference, so first, thank you for that.
    Second, Mr. Fote, you made a very interesting comment, 
which I just want to put on the table, because I know some 
folks here in the Senate have heartburn when they hear the word 
``climate change''. I do not. I think of one group that 
understands this more than most people is fishermen, because 
they're seeing the impact. We can argue why, but the fact is 
it's happening, and it's a combination of warming of waters and 
acidification of waters. These two things are having--in 
Alaska, which is, in my personal view, one of the more 
sustainable fisheries in the country, the two things that are 
impacting us that is hard to manage are these two things which, 
so for you to bring it up, I appreciate it. And it's important 
because I think the economic impact is significant, because if 
you're now in one region, the waters are warming, the fish are 
moving, you know, hypothetically, north. Those fishermen, that 
whole infrastructure that's built around that industry in one 
area now has potential of, I don't want to say collapsing, but 
having huge negative economic impact, and not recognizing that 
maybe it's moving north and what we have to do, depending on 
the species. And I think as we deal with this issue, people 
always ask me: What do I think about climate change?
    Well, I look at it from an economic issue. Maybe it's 
fisheries or Sandy is a great example. You know, there--weather 
is changing and we have to figure out how to adapt to that. And 
fisheries, if I were to have asked this question of fishermen 
in Alaska half a dozen years ago, they would not really have it 
on their radar screen. They know some things were changing. 
When I ask them today, it's very clear that they're having 
impact and they, they're not sure the answer, and that's the 
scariest part of all this, that what is the answer when your 
waters are becoming more acidified or you're dealing with 
warming trends that where you used to fish now you're having to 
go, and especially in Alaska, further north. That it's not 
usual for the type of species. Or some of the fish is not going 
further north, depending on, again, the species.
    So, I want to thank you for kind of putting that on the 
table.
    Please.
    Mr. Fote. One of the most important industries commercially 
in New Jersey is surfclam fishery. I live in, right by Island 
Beach State Park. That was one of the biggest grounds--we 
actually supplied at one point, it was 40 percent of the clams 
that we're eating around the country as clam strips. They have 
disappeared from that area because of warm water temperatures. 
They have moved further offshore. It has affected the 
commercial fishery dramatically in our area and just because of 
warm waters.
    And we see the same thing with sand eels. When the sand eel 
population, they need a cold temperature to spawn and 
basically, when they disappeared during the 1980s and 1990s, 
that's when the bluefish populations went way down.
    Senator Begich. Right.
    Mr. Fote. So we, we're seeing it and we're afraid of what's 
the consequences. Fishermen know it and we're looking for you 
for the answers.
    Senator Begich. Right. Well, I appreciate the fact that you 
mentioned it, because I, you know, you know the controversy 
over what causes it and, again, I don't debate that. What I say 
is there's a changing temperature pattern, water and onshore, 
so what do we do, how do we manage this for the economic losses 
that could be accumulating at a rapid pace if we're not 
careful.
    Please, Mr. Gilmore.
    Mr. Gilmore. And if you look at the fisheries that, say, 
it's our best example, besides what Mr. Fote had mentioned, I 
mean, the lobster fishery in southern New England is in bad 
shape just because of climate changes. Look at the data, it's 
warmer water and they're all moving into the Gulf of Maine and 
that fishery is doing very well. And then we just heard a 
couple of weeks ago, we have blue crabs in the Gulf of Maine 
for the first time----
    Senator Begich. This is unheard of.
    Mr. Gilmore.--for the record. So it's, if you don't want to 
listen to climate change, watch the fish because that's what's 
telling us what's going on.
    Thank you.
    Senator Begich. Good point.
    Mr. Hasbrouck.
    Mr. Hasbrouck. As I mentioned in my testimony, summer 
flounder, like other species, are experiencing a change in 
migratory patterns based on ocean temperatures and this has 
resulted in a north ridge shift in the concentration of summer 
flounder----
    Senator Begich. That's right.
    Mr. Hasbrouck.--to the extent that some of the southern 
states, like North Carolina, Virginia, and Delaware, can no 
longer harvest their commercial quota because the fish are up--
--
    Senator Begich. They moved.
    Mr. Hasbrouck.--in the northern part of their range now----
    Senator Begich. Yes.
    Mr. Hasbrouck.--rather than down in the southern part of 
their range. And fish move based on temperature, food, and 
spawning.
    Senator Begich. Right.
    Mr. Hasbrouck. And spawning is usually based on temperature 
as well.
    Senator Begich. Absolutely.
    Mr. Hasbrouck. And if that's changing then the resource is 
changing.
    Senator Begich. Again, thank you all very much and let me 
just check with staff.
    We'll keep the record open for 2 weeks for additional 
questions that may be submitted by the Members, the Committee, 
to both this panel and the current, or the previous panel.
    We want to thank you very much for being here. Thank you 
for helping us put some issues on the table, and as you'll see, 
this committee will continue to be pretty active, based with 
the new Ranking Member and myself, on dealing with issues in 
Magnuson-Stevens and other issues, so thank you all very much.
    This hearing is adjourned.
    [Whereupon, at 12:13 p.m., the hearing was adjourned.]
                            A P P E N D I X

          Prepared Statement of Hon. John D. Rockefeller IV, 
                    U.S. Senator from West Virginia
    Before we begin the first hearing of the Subcommittee on Oceans, 
Atmosphere, Fisheries, and Coast Guard in the 113th Congress, I want to 
congratulate Senator Rubio on his elevation to Ranking Member of the 
Subcommittee. Hailing from Alaska and Florida -the states with the two 
longest coastlines in the country- there is not a duo in this chamber 
more invested in and better equipped to navigate the important issues 
of the Oceans Subcommittee than Senator Begich and Senator Rubio. I 
look forward to engaging collaboratively with both them and the 
Subcommittee's other members, as has generally been the tradition with 
the work of this subcommittee and the Commerce Committee as a whole.
    Collaboration is in fact the subject of today's hearing, which will 
take a look at how we manage our interjurisdictional fisheries 
resources. Though individual states have jurisdiction over the 
fisheries that occur within their maritime borders, the natural range 
of many species do not adhere to our political boundaries. These ``fish 
without borders'' require close coordination between various state, 
federal, and intergovernmental partners for management to be effective. 
And given the value the oceans' bounty provides our nation, it is 
crucial that we get it right. According to the National Oceanic and 
Atmospheric Administration, fisheries-supported industries provided 
nearly 1.7 million jobs and over $57 billion in income nationwide in 
2011, the most recent year for which such statistics are currently 
available. In short, whether it's for livelihood or pleasure, fishing 
is an activity critical to our economic well-being.
    Yet, I am concerned that the collaborative approach to managing our 
shared fisheries may be in jeopardy. Authorizations for a number of 
Federal statutes relating to interjurisdictional fisheries have 
expired, and updates to them may be warranted to reflect changing 
scientific and management needs. In addition, funding at both the 
Federal and state levels for much of the science that underpins 
management decisions has been flatlining or reduced in recent years. In 
some cases, it has disappeared altogether. I hope to hear from 
witnesses on how the Federal government can better partner with state 
interests to support interjurisdictional fisheries, whether through 
additional investments or new authorities. I also want to make sure 
that when it comes to using and managing these fisheries sustainably, 
everybody involved shares in the benefits and burdens fairly. 
Cooperation can only work when everyone shares in the sacrifices and 
rewards.
    To that end, we will be receiving testimony from a number of 
federal, state, and intergovernmental partners and stakeholders today, 
including representatives from each of the three interstate marine 
fisheries commissions. As laboratories of management for their 
respective coasts, each of the commissions has their own unique role in 
the stewardship of their member states' shared fisheries resources. I 
look forward to hearing from them about what is going right and what 
improvements we can make. As the Committee looks to them for insight 
into the opportunities and challenges of interjurisdictional 
management, perhaps they can learn from each other's shared experiences 
in the process.
                                 ______
                                 
   Prepared Statement of Hon. Brian Schatz, U.S. Senator from Hawaii
    Thank you, Chairman Begich, for holding this important hearing. 
Fisheries hold great cultural and economic importance for my home state 
of Hawaii. The ocean in large part defined life for early Native 
Hawaiians as they used marine resources for their daily needs. They 
managed and conserved the fisheries by placing a ``kapu,'' a law, 
forbidding people to catch certain fish. Fisheries remain critically 
important in Hawaii as they are a local source of healthy food and 
serve as a major economic driver.
    Therefore, I am deeply concerned about the harmful impacts of 
sequestration on the National Marine Fisheries Service. As many of us 
know, the Federal government will not be able to carry out vital 
services, including managing and protecting fisheries in U.S. oceans, 
because of significantly reduced funding levels. Inadequate funding for 
the National Marine Fisheries Service will essentially mean that there 
will be less fish available to the public.
    Drastic budget cuts will limit the resources National Oceanic and 
Atmospheric Administration's (NOAA) fisheries scientists need to 
conduct research for fishery stock assessments. Without the necessary 
information, NOAA's scientists will set lower catch limits to ensure 
that overfishing does not occur. Lower catch limits will mean that both 
commercial and recreational fishermen will catch fewer fish. And as a 
result, there will be less fish available in the marketplace. In 
addition, sequestration will also have a devastating impact on jobs. 
Fishing is an important industry in this country, especially in Hawaii. 
According to NOAA, recreational and commercial fishing accounted for 
more than one million jobs in 2009. We must work together to find ways 
to mitigate the effects of sequestration on our fisheries.
    I look forward to working closely with NOAA and members of this 
Subcommittee to ensure that the National Marine Fisheries Service not 
only has much needed tools and resources to protect marine life, but is 
also equipped to effectively manage commercial and recreational 
fishing, which are so vital to the culture and economic growth of this 
country.
    Thank you, Mr. Chairman.
                                 ______
                                 
Prepared Statement of Larry B. Simpson, Executive Director, Gulf States 
                      Marine Fisheries Commission
    Established by both state and Federal statutes in July 1949, the 
Gulf States Marine Fisheries Commission (Gulf Commission) is an 
organization of the five states (Texas, Louisiana, Mississippi, 
Alabama, and Florida) whose coastal waters are the Gulf of Mexico. It 
has as its principal objective the conservation, development, and full 
utilization of the fishery resources of the Gulf of Mexico to provide 
food, employment, income, and recreation to the people of the United 
States.
    One of the most important functions of the Gulf Commission is to 
serve as a forum for the discussion of various challenges and programs 
of marine resources management, industry, research, etc. and to develop 
a coordinated approach among state and Federal partners to address 
those issues for the betterment of the resource for all who are 
concerned.
Interjurisdictional Fisheries Management Program
    As you are already aware, the Interjurisdictional Fisheries Act 
(IJFA) of 1986, as amended (Title III, P.L. 99-659), was established by 
Congress to: (1) promote and encourage state activities in support of 
the management of interjurisdictional fishery resources and (2) promote 
and encourage management of interjurisdictional fishery resources 
throughout their range. In essence, the IJFA is to the states what the 
Magnuson Act is to the Nation and the benefits of sound fisheries 
management under these acts do not accrue separately. The IJFA is 
probably the single most important Congressional act to professionalize 
the states' scientific staff within the marine resource agencies.
    In addition to supporting resource management, the IJFA also allows 
Congress to provide assistance to the states in the event of a 
Fisheries Disaster under SEC. 113 in the form of funds and other 
economic assistance and does not require state match for financial 
relief. Following hurricanes Katrina and Rita, Congress passed an 
emergency disaster relief funding package that included $128 million 
for fisheries restoration. The package included funding to support 
restoration of oyster grounds, restoration of shrimp and other 
fisheries grounds, and cooperative research to restore fisheries. A 
second program was funded in 2007 in the amount of $85 million to 
provide assistance for individual commercial fishermen and fishery-
related business and industry that continue to recover from the post 
disaster impacts.
    In the Gulf of Mexico, nearshore species such as Spanish mackerel, 
striped mullet, blue crab, and oyster comprise the majority of the 
commercial and recreational harvest, resulting in significant social 
and economic benefits to the states and the Nation. In the last decade, 
nearly 80 percent of the Gulf's commercial landings and 90 percent of 
the recreational landings have come from state waters. In 2009, prior 
to the Deep Water Horizon disaster, 82 percent of the Gulf's total 
commercial fishery value was derived from state waters. The IJFA 
provides funding under Section 308(c) for the three interstate marine 
fisheries commissions to develop and revise interjurisdictional fishery 
management plans (FMPs) that are used by the states to enact 
appropriate management strategies with conservation standards intended 
to maintain sustainable stocks into the future. IJFA funding supports 
the states' monitoring and assessment programs and other research 
efforts that gauge the health of various commercially and 
recreationally important fish stocks.
    In the Gulf of Mexico, the IJFA is the cornerstone of the fishery 
management programs for the states and has provided the support for 
long-term databases for commercial and non-commercial crustaceans and 
finfish in the Gulf of Mexico. The fishery-independent databases are 
becoming more and more essential in state and Federal stock assessments 
and will be critical to future regional management success. The five 
Gulf States' long-term monitoring programs are funded to a large extent 
by the IJFA and provide the States the ability to gauge the health of 
commercially and recreationally important fish stocks in their waters. 
NOAA has established a Federal fisheries stock assessment process 
designated the SouthEast Data, Assessment, and Review (SEDAR) to 
develop reliable fishery stock assessments for the Gulf of Mexico and 
Atlantic regions. These assessments rely heavily upon the independent 
data provided by the states related to abundance indices of many 
species. As new stock assessment methodologies, such as ecosystem and 
food web approaches to management are explored and implemented, these 
state-derived data will be even more important. However, the ability to 
conduct stock assessments will hinge upon the quality and duration of 
these datasets which have been supported by the IJFA.
    Under the IJFA language, the appropriations provided to the states 
to support their respective fisheries monitoring programs are 
determined by a formula based on a state's total marine fisheries 
landings. Based on the 2011 appropriations, the maximum allocation that 
any state could receive was approximately $100,000 and the minimum was 
approximately $8,000. The Gulf of Mexico had three `maximum' states by 
volume and value.
    The loss of IJFA funds in the Gulf region has resulted in 
drastically reduced support for the monitoring of our shrimp, crab, and 
finfish fisheries. The loss of IJFA has resulted in the elimination of 
other funding sources under the 1-for-1 match requirement, including 
contributions from limited state license revenues. Florida has lost 
three positions from their blue crab, shrimp, and horseshoe crab 
program which represents 40 percent of their crustacean research staff. 
Texas has reprioritized other funding to determine the status of their 
shellfish populations for formulating shellfish management and harvest 
regulations in coastal waters. Louisiana will be reprioritizing their 
sampling programs which may slow the development of appropriate 
management recommendations. Mississippi has been forced to reduce 
efforts in other state fishery programs to make up the difference to 
continue collecting long-term fishery-independent data. Alabama reports 
that the loss of IJFA funding has resulted in less efficient 
enforcement related to Alabama and Gulf of Mexico fisheries and the 
interactions of fishing activities among protected species.
    In addition to the five States' fisheries monitoring, the IJFA also 
provides funding for the Gulf Commission to regionally coordinate 
inshore, state water fishery resources by the development of regional 
fishery management plans (FMP). The FMPs are used by the states to 
enact appropriate management strategies with conservation standards 
intended to maintain sustainable stocks into the future and provide 
coordinated support to get these management measures passed through 
their respective state commissions and/or legislative bodies. The Gulf 
Commission uses its limited IJFA funds to support the completion of 
regional stock assessments that are currently excluded from the Federal 
SEDAR program but required in regional FMPs. Finally, the funds from 
the IJFA also provide coordination for marine law enforcement in the 
five Gulf States which is critical to the enforceability of the 
regulations enacted by the states in accordance with the regional FMPs. 
However, the costs related to the Gulf Commission's IJFA activities 
have increased substantially in recent years, while the program has 
remained level-funded since 1998. The Gulf Commission currently has 16 
species under management plans or profiles with 10 additional species 
identified for future plan development. Unlike Federal fisheries 
management council plan development, the states provide agency staff to 
participate on the plan's technical task force and draft the regional 
inshore plans. Meeting and travel costs have more than doubled over the 
last decade forcing IJFA staff to streamline its program using 
electronic formats and Internet access to supplement its activities. In 
future reauthorizations of the IJFA, considerations should be taken to 
fund the IFJA at levels appropriate to the cost of fisheries management 
for today and beyond.
SouthEast Area Monitoring and Assessment Program (SEAMAP)
    The SEAMAP program is a State/Federal/University program for 
collection, management, and dissemination of fishery-independent data 
and information in the southeastern United States. SEAMAP is a 
cooperative program whereby Texas, Louisiana, Mississippi, Alabama, 
Florida, South Carolina, North Carolina, Georgia, Puerto Rico, the U.S. 
Virgin Islands, the United States Fish and Wildlife Service, and the 
National Marine Fisheries Service jointly plan and conduct surveys of 
economically significant fish and shellfish and the critical habitats 
that support them. The main goal of SEAMAP is to collect long-term, 
standardized, fishery-independent data on the condition of regional 
living marine resources and their environment.
    The program consists of three operational components; SEAMAP-Gulf 
of Mexico, which began in 1981; SEAMAP-South Atlantic, implemented in 
1983; and SEAMAP-Caribbean, formed in 1988. Each SEAMAP component 
operates independently under annual joint coordination, planning and 
conducting surveys and information dissemination.
    SEAMAP has sponsored long-term (1982 to present) and standardized 
research vessel surveys that have become the very backbone of fisheries 
and habitat management in the region. The long-term dataset obtained 
through SEAMAP surveys provides the ONLY region-wide mechanism for 
monitoring the status of populations and habitats. Through its 
cooperative nature, SEAMAP has the ability to sample the entire 
coastline from North Carolina through Texas during the same time period 
and describe the distribution and abundance of fish populations 
throughout their range in order to better evaluate the status of 
recreational and commercially utilized fish stocks.
    Current SEAMAP surveys include coastal shrimp and finfish trawl 
surveys (Gulf and South Atlantic), reef fish trap, hook and line, and 
video surveys (Caribbean and Gulf), inshore bottom longline (Gulf), 
bottom mapping/essential fish habitat data compilation (South 
Atlantic), spiny lobster, queen conch, and whelk surveys (Caribbean), 
annual plankton surveys (Gulf), and a striped bass winter tagging 
project (South Atlantic).
    SEAMAP data has been used to assess long-term trends in coastal 
marine species, linking population trends with changes in environmental 
conditions such as global warming, nutrient enrichment, and 
overfishing. The data is used to document and define Essential Fish 
Habitat in the fishery management plans for the Gulf of Mexico, South 
Atlantic, and Caribbean Fishery Management Councils. SEAMAP provides 
long-term monitoring of juvenile red snapper abundances for the red 
snapper stock assessments.
    SEAMAP data has been used to identify and verify the recovery of 
Gulf and South Atlantic king mackerel stocks, leading to increased 
fishing quotas, prove the need to eliminate Japanese longline fishing 
for Atlantic bluefin tuna in the Gulf of Mexico, and determine 
population size structures, abundances, and necessary information for 
stock assessments of Atlantic croaker, queen conch, spiny lobster, 
Spanish mackerel, whelk and weakfish.
    SEAMAP data has been used to evaluate the abundance and size 
distribution of penaeid shrimp in Federal and state waters to assist in 
determining opening and closing dates for commercial fisheries, assess 
the impact of the Deepwater Horizon disaster on marine species in the 
Gulf of Mexico through the Natural Resource Damage Assessment (NRDA) 
program, and conduct surveillance of hypoxia (Dead Zone) in the Gulf of 
Mexico that continues to threaten the marine resources of Louisiana and 
adjacent states. Finally, data collected through SEAMAP programs have 
been used by Federal and state fishery managers, Universities, research 
agencies, and others, to expand the knowledge on species life 
histories, define essential fish habitat, develop fishery management 
plans, and determine the impact of fishery regulations.
    In order to continue these important fishery-independent sampling 
efforts, expand current surveys, and begin new surveys to provide 
fishery-independent data on red snapper, shrimp, grouper, king 
mackerel, blue crabs, sharks, striped bass, weakfish, spiny lobster, 
queen conch, and other species that support the economies of the 
Southeast region, adequate resources need to be allocated towards these 
efforts. Without continued funding to support SEAMAP, the Southeast 
region will lose its only region-wide mechanism for monitoring the 
status of marine populations and habitats.
Fisheries Information Network (GulfFIN)
    The GulfFIN program is a State/Federal cooperative program to 
collect, manage, and disseminate statistical data and information on 
the marine commercial and recreational fisheries of the Southeast 
region. It consists of two components: the Commercial Fisheries 
Information Network (ComFIN) and the Recreational Fisheries Information 
Network (RecFIN).
    The need for a comprehensive and cooperative data collection 
program has never been greater because of the magnitude of the 
commercial and recreational fisheries and the differing roles and 
responsibilities of the agencies involved. GulfFIN, through the Texas, 
Louisiana, Mississippi, Alabama, and Florida marine agencies, the Gulf 
Commission, and NOAA Fisheries, has coordinated activities such as 
collection, management, and dissemination of marine recreational 
fisheries data; collection of catch and effort for head boats; 
collection of menhaden catch/effort data; operation of the GulfFIN Data 
Management System; implementation and operations of state commercial 
trip ticket programs; and sampling and analysis of biological data for 
commercial and recreational catches. These data collection activities 
have led to significant improvements of commercial and recreational 
data that has allowed managers to address some of the necessary 
management needs.
    However, adequate fiscal resources need to be allocated for the 
current activities as well as expansion of current efforts and 
implementation of new data collection endeavors, ensuring that the best 
data is available for critical management decisions. Better data allows 
managers to make more informed decisions leading to better management 
of these essential natural resources.
Gulf Seafood Trace Program
    In the wake of the Deepwater Horizon disaster, the Gulf Commission, 
with funding and assistance from NOAA Fisheries, developed Gulf Seafood 
Trace, a regional electronic traceability program. Launched in March 
2012, the Gulf Seafood Trace is a groundbreaking tool for promoting 
seafood from the U.S. Gulf of Mexico. The electronic, internet-based 
program aims to drive demand for Gulf seafood products from both 
seafood buyers and consumers by communicating its Gulf source (thus 
differentiating from imports), telling its unique story, and sharing 
key information from vessel to plate or shelf.
    The program is comprised of three parts: an Electronic Traceability 
Platform, a Data Quality and Confirmation Component, and a Marketing 
Module. The use of an Electronic Traceability Platform builds off of 
the current electronic trip ticket seafood landing system and empowers 
the seafood market with the ability to access reliable trace data that 
has been approved and shared by each business in the supply chain. The 
implementation and utilization of a Data Quality and Confirmation 
Component helps to ensure the quality and reliability of the shared 
data. The Marketing Module allows seafood businesses to tell the 
compelling and unique story about their Gulf seafood to consumers. The 
components of the program are powered by Trace Register<SUP>TM</SUP>, 
an electronic seafood traceability company.
    Participation in the Gulf Seafood Trace program is voluntary, and 
is currently offered at no cost to qualified, Gulf seafood businesses 
through the end of 2014. To date, 56 businesses have enrolled in the 
regional program, representing approximately 25 percent of the Gulf 
seafood processors.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
  to Robert Beal and answered by the Atlantic States Marine Fisheries 
                               Commission
Interjurisdictional Fisheries Management
    Under the current spend plan for programs under the 
Interjurisdictional Fisheries Act, the statute's grant program, which 
supports fisheries science at the state level, has been zeroed out 
since FY2012. Funding for the Commissions to produce fishery management 
plans has largely been level going back to at least FY08.

    Question 1. Beyond funding issues, are there updates to statutes 
like the Interjurisdictional Fisheries Act and other 
interjurisdictional statutes that would help support the Commission and 
States' management efforts?
    Answer. The Interjursidictional Fisheries Act, as well as the 
Atlantic Coastal Fisheries Cooperative Management Act and the Atlantic 
Striped Bass Conservation Act have provided the states the opportunity 
to form successful partnerships among themselves and with their Federal 
counterparts, to carry out their public trust responsibility of 
sustainably managing shared marine fishery resources. All three of 
these laws are effective, efficient, and continue to achieve the 
Congressional objective of supporting and enhancing fisheries 
management across state and Federal boundaries.
    The Interjurisdictional Fisheries (IJF) Act recognizes the states' 
role in ensuring fisheries management activities across the state/
federal jurisdictions along the Atlantic, Pacific, and Gulf coasts. 
These grants, though some may be small, have been successfully 
leveraged by the states to boost their survey, data collection, and 
monitoring abilities, including Northern shrimp and American lobster 
sampling in New England; monitoring state quotas of black sea bass, 
summer flounder, and striped bass in the Mid-Atlantic; and surveying 
flounders, drum, shrimp and crabs in the South Atlantic.
    Through initial passage of the Atlantic Striped Bass Conservation 
Act (Striped Bass Act) and the hard decisions and sacrifice by the 
states and the fishermen, the Atlantic striped bass fishery is a 
success story. The authorization provided by the Striped Bass Act 
required the Atlantic States Marine Fisheries Commission (Commission) 
to facilitate state action to recover the collapsed striped bass stock 
in the 1980s. The fishery management plan, agreed to, implemented, and 
enforced by the states, has sought to provide protection to the 
spawning populations. These protections have in turn resulted in 
renewed recreational and commercial fishing opportunities as well as 
expanded economic benefits to coastal communities throughout the range 
of the stock.
    The success of the Striped Bass Act paved the way for the Atlantic 
Coastal Fisheries Cooperative Management Act (Atlantic Coastal Act), 
which empowered the Commission to facilitate development and 
implementation of mandatory conservation measures for all of its 
interstate plans. This management process has given our states the 
tools they need to make sound management decisions, providing for 
sustainable fisheries for both recreational and commercial fishermen 
along the coast.
    Some stakeholders have suggested that guiding principles, akin to 
the Magnuson-Stevens National Standards, should be added to the 
Atlantic Coastal Act. While these guiding principles would likely be 
less prescriptive than the Magnuson-Stevens National Standards, there 
is a delicate balance needed when considering Federal mandates on the 
management of state fishery resources. The Atlantic States Marine 
Fisheries Commission feels these statues are generally functioning well 
and would not benefit from significant updates. Although beyond the 
scope of this question, the need for adequate funding is critical to 
the effectiveness and continued success of interjurisdictional 
management of shared resources.

    Question 2. In your opinion, how well has the Commission been able 
to work collaboratively to overcome inconsistent state fishery 
management issues?
    Answer. Each of the interstate fishery management plans (FMPs) 
developed by the Commission provides minimum compliance standards for 
each state. The states are often provided considerable flexibility to 
meet the needs of their stakeholders while achieving the compliance 
standards. This This flexibility is one of the hallmarks of the 
Commission's success, however it does, at times, create inconsistencies 
in regulations among neighboring states that need to be addressed.
    Collaboration and cooperation are the very principles upon which 
the Commission was founded. It has a 70-year history of effectively 
bringing the states together to address state, regional and coastwide 
issues. Operating under the principles of fairness and equity, the 
states seek outcomes that maximize the benefit to all versus the 
benefit to one state or region.
    The state allocations included in many of the FMPs are based on 
states' landings history during an agreed-upon base period. The 
Commission has initiated a review of some FMP allocations to determine 
if the base period is still appropriate given the current abundance 
trends and fisheries practices. For example, a working group was 
developed to explore alternative management strategies for the summer 
flounder, scup, and black sea bass recreational fisheries. It is 
anticipated that the products of this working group will be considered 
when establishing the 2014 summer flounder recreational management 
program. Also, the Commission has tasked its Management and Science 
Committee with evaluating the impacts of changing ocean conditions 
including increased water temperature on the geographic distributions 
of fish stocks. The results of this evaluation will be considered by 
the Commission to determine if current allocations should be 
reconsidered.

    Question 3. Can you identify any gaps in regulation and management 
of migratory fish stocks between jurisdictions? How would you propose 
to address those shortcomings?
    Answer. Overall, the state, interstate, and Federal management 
efforts along the Atlantic coast are well coordinated resulting in 
comprehensive management programs throughout the range of most species. 
The Commission maintains FMPs for eight species that are also managed 
by the Atlantic coast regional fishery management councils. These joint 
and complementary FMPs ensure consistent management programs in state 
and Federal waters.
    Over the past several years, the Commission has significantly 
advanced our assessment efforts on shad, river herring (alewife and 
blueback herring) and American eel with the completion of benchmark 
assessments for all three species groups. Further, the states (through 
the Commission) have initiated management responses to all three 
assessments, mandating a moratorium on fishing for shad and river 
herring in the absence of state-specific sustainable FMPs and proposing 
changes to state eel fisheries. The Commission has also worked closely 
with the Mid-Atlantic and New England Fishery Management Councils to 
address bycatch of river herring in small mesh fisheries that occur in 
Federal waters.
    The membership of the Commission and the regional councils has 
considerable overlap including state and Federal fishery managers, 
stakeholders, and Commission staff. This overlap provides a critical 
link in cooperative management efforts.
    While there are many positive example of effective coordination and 
collaboration, I would offer that improvements could be made in the 
state/federal coordination of endangered species/protected resources 
and highly migratory species (HMS). Recent activities such as the 
listing of Atlantic sturgeon under the Endangered Species Act (ESA) and 
proposed coastal shark management changes have left the Atlantic coast 
states frustrated by the lack of collaboration between NOAA Fisheries 
and the states.
    The recent listing of Atlantic sturgeon as threatened/endangered 
under the ESA is a highly visible example of a missed opportunity for 
greater collaboration. The states could have provided additional 
information and insight on the population status and biology of 
Atlantic sturgeon. While this collaboration may not have changed the 
listing decision, there would have been greater confidence among the 
stakeholders that NOAA Fisheries was fully informed during the process. 
The states also request greater transparency and collaboration, 
including data sharing during the development of response plans.
    Another opportunity for improved collaboration is the management of 
coastal sharks. In response to a request from NOAA Fisheries, the 
Commission adopted an Interstate FMP for Atlantic Coastal Sharks to 
complement Federal management actions and increase protection of 
pregnant females and juveniles in inshore nursery areas. Following the 
approval of the Interstate FMP, NOAA Fisheries HMS Division made a 
number of changes to the Federal management program with limited 
opportunity for state input and collaboration on these decisions. . The 
states' primary opportunity for input is through the HMS Advisory Panel 
process, where states are seated with other stakeholders. Further, HMS 
public comment opportunities frequently do not overlap with a 
Commission Meetings to allow for the development and submission of a 
unified state position. Given that the states have invested 
considerable resources to manage shark species at the state-level, they 
would like a reasonable opportunity to provide input on HMS activities.
Seafood Traceability I
    Through a cooperative agreement with the National Marine Fisheries 
Service, the Gulf Commission has established a voluntary, regional 
seafood traceability program called ``Gulf Seafood Trace''. Though Gulf 
Seafood Trace is in its infancy and has an uncertain future, the 
program holds great promise as a value-added service for both producers 
and consumers in the way it distinguishes traced seafood from 
competitors.

    Question 4. Has the Atlantic Commission explored the possibility of 
doing something similar to the Gulf Seafood Trace Program?
    Answer. The Commission has not explored a comprehensive 
traceability program similar to Gulf Seafood Trace. A few states, for 
specific fisheries, have considered traceability programs as part of 
sustainability certification programs. The Commission and its member 
states are participating in the national dialogue on seafood marketing, 
traceability, and sustainability with the goal of improving the 
economic return of domestic fisheries.
Seafood Traceability II
    The brilliant thing about Gulf Seafood Trace is that it ``piggy-
backs'' on the electronic trip ticket systems that the Gulf Coast 
States already have in place to track landings as a part of their 
conservation efforts. As I understand it, Gulf Coast fishermen filling 
out an electronic trip ticket have the option, with just an additional 
click of a button, of providing basic information regarding the species 
and date of their catch, as well as the general fishing area where it 
was caught, to the Gulf Seafood Trace system. The information is 
available to processors, distributors, retailers, and ultimately 
consumers, thereby assuring the integrity of the product and enhancing 
its value throughout the supply chain. The Pacific Coast States have a 
Pacific Fisheries Information Network that could be capable of serving 
as a conduit for basic traceability information for fish landed in 
Alaska, Washington, Oregon, and California.

    Question 5. Is there any kind of electronic trip ticket ``back-
bone'' capable of serving as a similar conduit for basic traceability 
information for fish landed on the Atlantic Coast?
    Answer. Since the mid1990s, the states have focused on collecting 
comprehensive catch and effort data through the Atlantic Coastal 
Cooperative Statistics Program (ACCSP). ACCSP is a cooperative state-
federal marine fisheries statistics data collection program that 
integrates data into a single data management system to meet the needs 
of fishery managers, scientists, and fishermen. In 2005 in response to 
the needs of its' partners, the Standard Atlantic Fisheries Information 
System (SAFIS) was created by ACCSP. An on-line electronic reporting 
system, SAFIS is designed to meet the increasing need for accurate, 
real-time commercial landings data necessary for quota and compliance 
monitoring. In addition, SAFIS enables data, collected under the 
authority of the associated program partners, to be transferred 
directly into the ACCSP Data Warehouse (the on-line database populated 
with fisheries dependant data supplied by the program partners). ACCSP 
is comparable to the Pacific Fisheries Information Network and the Gulf 
Fisheries Information Network.
    The data collected through SAFIS could serve as the foundation for 
an Atlantic coast seafood traceability program. In some instances, 
additional data elements would need to be collected. However, with 
these enhancements, ACCSP could provide the value-added service of 
traceability for both producers and consumers.
    It is important to remember; the Gulf Seafood Trace system was 
developed as a component of the Gulf States Commission's Oil Disaster 
Recovery Program and was supported through funds derived from the 
Deepwater Horizon oil spill. While the ACCSP can provide the foundation 
for a traceability program, additional resources would need to be 
secured to fund the effort. There are many funding options that can be 
explored, including partial funding by industry. With additional time, 
we can estimate the cost of establishing a program similar to Gulf 
Seafood Trace.
ASMFC and Judicial Review
    The Atlantic Coastal Fisheries Cooperative Management Act contains 
specific procedural and substantive requirements for rules issued by 
the Commission, as do the Commission's own rules and regulations and 
the Interstate Fisheries Management Program Charter.

    Question 6. What administrative recourse do regulated individuals 
have in order to challenge the Commission's regulatory actions?
    Answer. The Commission's procedures concerning the formulation and 
amendment of FMPs provide for broad rights of participation for all 
persons and entities whose interest may be affected (see Interstate 
Fisheries Management Program Charter (``Charter''), Sec. Sec. 1(c)(2), 
4(e)(2), 6(a)(6); ASCMC Rules and Regulations, Art. II, Sec. 1; Art VI, 
Sec. 3). This public participation typically involves the opportunity 
to review proposed or draft policies; to submit written comments; and 
to attend and present oral and written comments at public hearings.
    Once a plan or plan amendment has been finally adopted, the 
Commission's procedures do not provide for further administrative 
recourse for interested persons or entities that are not member states. 
Under the Commission's Appeals Process, any member state or group of 
member states may obtain a review of a management board's decision by 
the Commission's Interstate Fisheries Management Program Policy Board 
(see Charter, 3(d)(9), 4(h); ASMFC, Appeals Process (August 18, 2004)). 
The grounds on which appeals may be pursued include claims that the 
decision of a management board is not consistent with the relevant FMP 
or failed to follow applicable procedures.
    The Commission does not directly regulate individuals; rather, it 
promulgates FMPs that member states implement pursuant to state law, by 
means such as adoption of regulations or enactment of regulation. Those 
plans frequently afford states considerable flexibility as to the 
choice of means for implementing plan requirements. Parties subject to 
state administrative action that implements Commission FMPs may be able 
to challenge those state decisions under state law, to the extent that 
the challenge does not seek to overturn required elements of a 
Commission FMP.

    Question 7. After exhausting all administrative recourse available 
to them, do regulated individuals or others have the right to challenge 
the Commission's regulatory actions in state or Federal court, either 
on the grounds that the Commission failed to conform to its procedural 
or substantive requirements, or on other grounds?
    Answer. As courts have uniformly held, there is no Federal right of 
judicial review of Commission FMPs (see New York v. Atl. States Marine 
Fisheries Comm'n, 609 F.3d 524 (2d Cir. 2010); Martha's Vineyard/Dukes 
Cnty. Fishermen's Ass'n v. Locke, 811 F. Supp. 2d 308 (D.D.C. 2011), 
appeal dismissed, 11-5311, 2012 WL 1922402 (D.C. Cir. May 14, 2012)).
    This understanding has persisted throughout the Commission's more 
than 70 years of existence, including 20 years under the management 
regime set forth in the Atlantic Coastal Fisheries Cooperative 
Management Act, 16 U.S.C. Sec. Sec. 5101, et seq. The carefully 
designed institutional mechanism set forth in the Compact and related 
laws, rather than litigation, has served as the central means of 
providing oversight of the Commission's fishery management decisions.
    This longstanding practice reflects the fundamental ways in which 
the Commission differs from administrative agencies such as the 
National Marine Fisheries Service or state wildlife agencies. The 
Commission is an interstate compact organization that exists by virtue 
of the congressionally-approved agreement of the member states and 
those states' continuing assent and support. The Commission's 
structure--including state delegations composed of a top state fishery 
management official; a state legislator, and a public representative 
(see Compact, Art. III)--is designed to ensure broad representation of 
affected interests in a manner somewhat akin to a legislative body and 
markedly different from most administrative agencies.
    The Commission, moreover, is subject to a variety of checks that 
administrative agencies typically are not, including the need for 
policies to secure the support of a majority of state delegations 
representing a broad array of stakeholders; the absence of any means of 
enforcing its own management measures (and the requirement, discussed 
below, that the Secretary of Commerce make formal findings subject to 
strict procedural requirements before the Department of Commerce may 
enforce Commission plans), and the ability of member states to withdraw 
from the Compact (see Compact, Art. XII).
    Furthermore, while there is no private right of judicial review, 
member states stand in a much different position. Precedents under the 
Compact Clause indicate that in appropriate circumstances compacting 
states may sue to enforce their rights under the Compact (see, e.g., 
Oklahoma v. New Mexico, 501 U.S. 221, 245 (1991); Texas v. New Mexico, 
462 U.S. 554, 569-70 (1983); State of Nebraska v. Central Interstate 
Low-Level Radioactive Waste Compact Comm'n, 187 F.3d 982, 985 (8th Cir. 
1999)). Furthermore, Federal precedent affirming the absence of a 
private remedy for certain statutory violations indicates that, even 
when individual right to sue does not exist, that the Federal 
Government is entitled to bring suit to remedy violations of Federal 
statutes. See Alden v. Maine, 527 U.S. 706 (1999).

    Question 8. If regulated individuals currently cannot appeal final 
administrative decisions of the Commission in state or Federal court, 
given that the ASMFC has the ability to enforce its recommendations on 
member states through a Federal moratorium, do you agree ASMFC 
decisions should be subject to some form of judicial review?
    Answer. The statement that the Commission has ``the ability to 
enforce its recommendations on member states through a Federal 
moratorium'' is not accurate. Under the Atlantic Coastal Fisheries 
Cooperative Management Act (Atlantic Coastal Act), if the Commission 
determines that a member state is not in compliance with the provisions 
of a FMP, it notifies the Secretary of Commerce (see 16 U.S.C. 
Sec. 5105(a), (b)). The Secretary shall then determine whether the 
state is out of compliance with the relevant FMP and ``if so, whether 
the measures that the state has failed to implement and enforce are 
necessary for the conservation of the fishery in question.'' Id. 
Sec. 5105(a), (b). If the Secretary makes those findings, the Secretary 
declares a moratorium and promulgates Federal regulations governing the 
moratorium. Id. Sec. 5106(c).
    Thus, before any moratorium may be imposed, the Secretary must make 
independent determinations of noncompliance and conservation need. It 
is the Federal agency that declares the moratorium, which is then 
implemented pursuant to Federal regulations. Because the Secretary's 
actions in declaring a moratorium and promulgating regulations to give 
effect to the moratorium are ``agency actions'' under the judicial 
review provisions of the Administrative Procedure Act, 5 U.S.C. 
Sec. 706, parties adversely affected or aggrieved by a moratorium could 
obtain review of the Secretary's decisions in Federal court. That 
review could, in appropriate cases, include challenges to the 
Secretary's determinations as to whether the ASMFC management plan 
provisions in question are ``necessary for * * * conservation.''
    While Federal law thus provides an opportunity for judicial review 
of the Secretary of Commerce's action to enforce compliance with a FMP, 
creating a private right to judicial review of Commission FMPs would 
represent a significant departure from longstanding practice and would 
raise a number of serious concerns, a few of which are briefly outlined 
here.
    Adding judicial review of Commission plans could be problematic 
from the perspective of the Commission's central mission of ensuring 
healthy, self-sustaining Atlantic fisheries. The Commission manages 25 
fish species and is continually amending and reevaluating plans to take 
account of changing stock statuses and new data. Litigation, and 
litigation delays, could complicate and disrupt that process, and 
compromise some of the flexibility and responsiveness that have often 
been important features of effective coastal fishery management. 
Litigation schedules are poorly suited to fishery management needs.
    The Commission currently directs its staffing and financial 
resources primarily toward developing sound scientific information and 
administering the interstate fisheries management process. The 
Commission's small staff is principally focused on compiling and 
analyzing fisheries data and managing its public processes. The 
Commission does not employ any legal staff (in the Commission's 
relatively rare participation in litigation, it has been represented by 
outside counsel). Judicial review would also likely be highly resource-
intensive, and would either divert already stretched Commission 
resources, or require major expansion of the Commissions resource 
allocations from states or the Federal Government.
    Furthermore, introducing the ready option of court challenges to 
fisheries management decisions would likely undermine a collaborative 
management process that has proven successful over many years. 
Fisheries management decisions tend to involve inherently complex 
technical determinations that must be made under conditions of 
uncertainty and where it is certain that important private interests 
will be affected no matter what decision is made. The Commission's 
current process orients all participants toward reaching common ground 
and finding practical solutions that can carry broad support among the 
Atlantic coastal states and the many varied stakeholders.
    The availability would divert the focus and energy of these many 
stakeholders--which include not only commercial and recreational 
fishermen and groups, but also conservation groups, community 
organizations, and others--away from finding practical and effective 
management solutions and toward prosecuting (or defending against) 
court challenges. Creating a right of judicial review would make these 
various groups, who often have significantly divergent interests and 
outlooks, less likely to cooperate and compromise and more likely to 
dig in theirheals or ``hold'' out in hopes for achieving complete 
victory in litigation. The Commission's carefully crafted public 
process--rather than being the central forum for deciding difficult 
questions of fishery management--could become a mere preliminary to the 
litigation phase, which would be perceived b all as the main event. 
This would represent a significant, unwelcome and problematic departure 
from a management regime that has been remarkably successful for many 
years.
    Finally, imposing such a judicial review regime on the Commission 
member states without their consent and support would raise serious 
questions of interstate compact law and federalism. It is important to 
note that, when Congress, in passing ACFCMA in 1993, added significant 
new provisions affecting the Commission's responsibilities, it did only 
after lengthy consideration and after experience had clearly indicated 
that difficulties in implementing Commission FMPs had seriously 
hampered coastal fishery management efforts. Furthermore, the Atlantic 
Coastal Act, including its carefully limited obligations on the 
Commission, its provision for Federal support for but not takeover of 
the Coastal States' cooperative management efforts, and the carefully 
crafted enforcement mechanism described above--enjoyed broad support 
from the Commission member states and the Commission itself (see 
Statement of Philip G. Coates, Chairman, ASMFC, Hearing Before the 
Subcommittee on Fisheries Management, of the House Committee on 
Merchant Marine and Fisheries, on H.R. 2134 at 10-11, 53-60 (Serial No. 
103-25) (May 19, 1993)). In contrast, there has not been any compelling 
case of a need for any such significant revision with respect to 
judicial review; indeed, it seems highly unlikely that provisions 
ostensibly creating rights of judicial review would command support 
from the Commission or its member states.

    Question 9. What concerns with judicial review, if any, would the 
Commission have, and can you recommend judicial review limitations or 
alternatives that would balance effective management with due process 
for affected individuals?
    Answer. We cannot concur with any suggestion that Commission's 
current fishery management practices have deprived affected 
stakeholders of ``due process'' either in the constitutional sense or 
in the everyday sense of basic fairness. The Commission's decision-
making is marked by a high degree of transparency and an extensive 
public process that typically affords stakeholders multiple 
opportunities for meaningful participation, both directly and through 
the state delegations represent them. (Indeed, the Commission's 
structural features and decision-making processes provide those 
affected considerably greater opportunity for involvement and 
protection than the administrative agencies to which it is sometimes 
likened). The Commission has, we believe, continued to fulfill its duty 
to make inherently difficult fishery management decisions--which are 
inherently difficult and sometimes highly contested--in a manner that 
affords meaningful participation for and fair treatment of all affected 
stakeholders.
    Finally, as noted, the Commission is an organization composed of--
and resting upon the consent and support of--its member states. Any 
major change in organizational structure and practice such as a 
proposal to create a private right of judicial review of fishery 
management decisions would, at a minimum, require careful consideration 
by, and the approval of, the member states. But given the concerns 
briefly explained in response to the previous question, we are quite 
skeptical that t of private right of a judicial review would improve 
the quality of fishery management, and we believe such a change would 
come at significant cost in terms of the Commission's core mission and 
its historic strengths.
External Participation in the Commission's Technical and Scientific 
        Processes
    Question 10. It is my understanding that the Commission is 
developing guidelines for participation in technical committee meetings 
and stock assessment workshops by experts advising industry and non-
governmental stakeholders. At the Federal level, many regions allow 
appropriately credentialed experts a reasonable opportunity to 
effectively participate in these types of discussions. Will the 
Commission be considering making similar allowances in its new 
guidelines? If not, what is the rationale for excluding valid 
scientific opinion, expressed in open scientific debate?
    Answer. Earlier this year, the Commission updated its existing 
`Technical Support Group Guidance and Benchmark Stock Assessment 
Process' document that has defined participation in Commission 
technical meetings since the 1990s. (http://www.asmfc.org/publications/
ASMFC_CommitteeGuidanceAssessmentProcess_May2013.pdf). It provides 
guidelines for public participation in the Commission's technical and 
stock assessment processes. Overall, the guidelines strive for openness 
and transparency, while ensuring the integrity and rigor of the 
scientific process is upheld.
    The Commission welcomes valid scientific input to its stock 
assessment and other technical processes, recognizing the best science 
is often produced via thorough and constructive debate among all 
scientific parties. The Commission's guidelines for technical committee 
meetings allow for participation by the public, including experts who 
advise industry. Following are relevant excerpts from the document:

        Public Participation at Meetings
        Public comment or questions at committee meetings may be taken 
        at designated periods at the discretion of the Committee Chair. 
        In order for the Committee to complete its agenda, the Chair, 
        taking into account the number of speakers and available time, 
        may limit the number of comments or the time allowed for public 
        comment. The chair may choose to allow public comment only at 
        the end of the meeting after the Committee has addressed all of 
        its agenda items and tasks. Where constrained by the available 
        time, the chair may limit public comment in a reasonable manner 
        by: (1) requesting individuals avoid duplication of prior 
        comments/questions; (2) requiring persons with similar comments 
        to select a spokesperson; and/or (3) setting a time limit on 
        individual comments. The Commission's public participation 
        policy is intended to fairly balance input from various 
        stakeholders and interest groups.
        Members of the public may be invited to give presentations at 
        committee meetings if the board/section has tasked the 
        Committee with reviewing their materials, or if members of the 
        public have been invited in advance by the Committee Chair to 
        respond to a request from the Committee for more information on 
        a topic. Invitations will be offered in advance of the meeting. 
        Public presentations will not be allowed without these 
        invitations. See Section 8 for additional details regarding 
        public participation in stock assessment data, assessment, and 
        peer review workshops.

        General Submission of Materials
        Public submissions of materials for committee review outside of 
        the benchmark assessment process must be done through the 
        board/section chair (see Section 4.0). The chair will 
        prioritize the review of submitted materials in relation to the 
        existing task list. Materials provided by the public should be 
        submitted to the chair at least one month in advance of the 
        meeting. A committee is not required to review or provide 
        advice to the board/section on materials provided by the public 
        unless it is specifically tasked to do so by the board/section 
        chair in writing. Materials will be distributed to committees 
        by Commission staff.

        Benchmark Assessment Submissions
        The Commission welcomes the submission of data sets, models, 
        and analyses that will improve its stock assessments. The 
        Commission will issue a press release requesting data and 
        assessment submissions at the start of the benchmark process. 
        The press release will contain specific deadlines and 
        submission requirements for materials to be considered. For 
        data to be considered at a data workshop, data files must be 
        sent in the required format with accompanying methods 
        description to the designated Commission Stock Assessment 
        Scientist at least one month prior to the specific workshop at 
        which the data will be reviewed; see Section 8.6.1. Alternative 
        analyses, models, or assessments must be submitted three months 
        in advance of the assessment workshop and the board/section 
        chair must request they be reviewed before consideration by the 
        SAS. New data sources and alternative analyses/models/
        assessments will not be considered during an assessment update.
        External groups must notify the Commission one month in advance 
        of an assessment workshop regarding their interest in 
        presenting an alternative assessment at the workshop. Any 
        analyses submitted outside the benchmark process may not be 
        considered for management until the next Commission benchmark 
        assessment.

        Data Workshop
        Stakeholders will be encouraged to attend Commission data 
        workshops and share any information or data sets that might 
        improve the benchmark stock assessment. A public announcement 
        will be made prior to the data workshop to call for data of 
        which the technical committee may not already be aware. 
        Commission staff will send notifications to known interested 
        parties soliciting data and inviting participation from a wide 
        range of stakeholders, agencies, and academics to attend at 
        their own expense. For data sets to be considered at the data 
        workshop, the data must be sent in the required format, with 
        accompanying affiliation statement, methods description, to the 
        designated Commission Stock Assessment Scientist at least one 
        month prior to the data workshop. Stakeholders may be invited 
        by the technical committee chair to present a summary of their 
        data and answer questions if they can attend the data workshop.

        Recordings
        Committee meetings are open for the public to attend and as 
        such may be recorded (audio or video) by any participant 
        (public or committee member) with notification to the chair and 
        staff prior to the start meeting, and so long as those 
        recordings are not disruptive to the meeting. The chair and/or 
        staff will notify committee members prior to the start of the 
        meeting that they will be recorded. Staff may record meetings 
        for note taking purposes, but the official meeting record is 
        the meeting summary or committee report. Staff recordings will 
        not be distributed.

        Webinars
        . . . If a committee meeting is held via webinar (i.e., there 
        is no in-person meeting), it shall be open to the public. As 
        with in-person meetings, public comment or questions at 
        committee webinars may be taken at designated periods at the 
        discretion of the Committee Chair (see Section 6.5 for more 
        detailed guidance on public participation in Committee 
        meetings). Certain agenda items may not be open to the public; 
        these include discussion of confidential data and preliminary 
        model results. Non-committee members will be asked to leave 
        before confidential issues are discussed. To ensure that enough 
        bandwidth is reserved for the meeting, members of the public 
        who wish to attend the webinar must contact staff 24 hours 
        prior to the webinar to ensure there is available space.

    Question 11. Does the Commission have a policy of encouraging and 
supporting collaborative research efforts to provide needed information 
or data? Related to the question above, if outside science or data is 
presented relevant to technical discussions or stock assessments, does 
the Commission support these efforts by providing technical feedback 
and by allowing scientists conducting the research or analysis to 
participate in relevant discussions?
    Answer. The Commission has a long history of collaborative research 
with state, federal, academic, NGO, and industry partners, both on the 
water and during the development of stock assessments. The Commission 
and the stocks it manages have benefited greatly from this practice, 
for example, we initiated and continue to coordinate the Northeast Area 
Monitoring and Assessment Program (NEAMAP), whose nearshore trawl 
survey is operated by a commercial captain on a commercial fishing 
vessel. Support for the NEAMAP survey comes from the Mid-Atlantic 
Research Set-Aside (RSA) program, a collaborative effort with 
considerable industry participation. The Commission has been actively 
engaged in RSA since its inception in 2001. Research activities such as 
the lobster ventless trap surveys operated from commercial vessels in 
several Northeast states are additional examples of the Commission 
actively seeking out industry participation in data collection, and 
ensuring those data are considered when a new stock assessment is 
developed.
    The initiation of stock assessments for American lobster, American 
eel, Atlantic menhaden, tautog, and black drum are recent examples 
where the Commission has made public calls for data via press releases 
and personal contact to non-traditional data sources, in order to 
gather all available information for consideration in the stock 
assessment process. Following the Commission's participation 
guidelines, submitted data are presented by stakeholder representatives 
and evaluated by the technical committees for potential inclusion in 
the assessment during meetings that are open to the public. The 2011 
American eel assessment and Atlantic menhaden stock assessment meetings 
in 2012 are examples where experts advising industry stakeholders 
presented their data and discussed their utility with the technical 
committee. The lobster stock assessment currently underway is using 
data gathered by the lobster industry, in direct consultation with 
industry representatives who attend assessment meetings. Commission 
staff has played a vital role in each of these examples, working 
directly with non-traditional data providers in and outside of meetings 
to gather data and facilitate their evaluation with Commission 
technical committees.
    While working within the constraints of our financial resources and 
availability of technical representatives, the Commission strives to be 
open and inclusive to produce the best available assessment products 
that are fully understood by all stakeholders.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                            to Randy Fisher
Interjurisdictional Fisheries Management
    Under the current spend plan for programs under the 
Interjurisdictional Fisheries Act, the statute's grant program, which 
supports fisheries science at the state level, has been zeroed out 
since FY2012. Funding for the Commissions to produce fishery management 
plans has largely been level going back to at least FY08.

    Question 1. Beyond funding issues, are there updates to statutes 
like the Interjurisdictional Fisheries Act and other 
interjurisdictional statutes that would help support the Commission and 
States' management efforts?
    Answer. With the exception of the funding issue the (PSMFC) 
Commission has not identified any similar Interjurisdictional Statutes 
that require updating.

    Question 2. In your opinion, how well has the Commission been able 
to work collaboratively to overcome inconsistent state fishery 
management issues?
    Answer. On the West Coast and Alaska the Commission has worked well 
to coordinate and overcome any inconsistent State Fishery Management 
issues. The successful Dungeness Crab Fishery on the West Coast, which 
is coordinated by the Commission, is a prime example of the 
collaborative approach to fishery management. You can add to the list 
the shrimp fishery, the exotic species and cutthroat.

    Question 3. Can you identify any gaps in regulation and management 
of migratory fish stocks between jurisdictions? How would you propose 
to address those shortcomings?
    Answer. At this time, I can't identify any specific gaps.
Seafood Traceability I
    Through a cooperative agreement with the National Marine Fisheries 
Service, the Gulf Commission has established a voluntary, regional 
seafood traceability program called ``Gulf Seafood Trace''. Though Gulf 
Seafood Trace is in its infancy and has an uncertain future, the 
program holds great promise as a value-added service for both producers 
and consumers in the way it distinguishes traced seafood from 
competitors.

    Question 4. Has the Pacific Commission explored the possibility of 
doing something similar to the Gulf Seafood Trace Program?
    Answer. The Commission has had presentations at the PSMFC Annual 
Meeting on traceability. I am confident the Commission could operate a 
program similar to the Gulf if we had funding to carry-out that 
program.
Seafood Traceability II
    The brilliant thing about Gulf Seafood Trace is that it ``piggy-
backs'' on the electronic trip ticket systems that the Gulf Coast 
States already have in place to track landings as a part of their 
conservation efforts. As I understand it, Gulf Coast fishermen filling 
out an electronic trip ticket have the option, with just an additional 
click of a button, of providing basic information regarding the species 
and date of their catch, as well as the general fishing area where it 
was caught, to the Gulf Seafood Trace system. The information is 
available to processors, distributors, retailers, and ultimately 
consumers, thereby assuring the integrity of the product and enhancing 
its value throughout the supply chain.

    Question 5. Is the Pacific Fisheries Information Network capable of 
serving as a similar conduit for basic traceability information for 
fish landed in Alaska, Washington, Oregon, and California?
    Answer. Our current Pacific Fisheries Information Network or PacFIN 
identifies species, date of catch and area of catch. Our Electronic 
Fish Ticket Program for the Catch Share Fishery also identifies the 
same information. All of this information comes from the processor. If 
you want to track the fish in the market, back to the fisherman, the 
processor would have to supply that information and that would probably 
add to the cost.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                           to David Donaldson
Interjurisdictional Fisheries Management
    Under the current spend plan for programs under the 
Interjurisdictional Fisheries Act, the statute's grant program, which 
supports fisheries science at the state level, has been zeroed out 
since FY 2012. Funding for the Commissions to produce fishery 
management plans has largely been level going back to at least FY08.

    Question 1. Beyond funding issues, are there updates to statutes 
like the Interjurisdictional Fisheries Act and other 
interjurisdictional statutes that would help support the Commission and 
States' management efforts?
    Answer. In the IJFA, there is no language specific to the 
Commissions other than funding. It might be good to consider including 
something similar to the Council FMP language to allow us to 
specifically address things like interstate/multistate stock 
assessments. Federal plans have SEDAR (SouthEast Data, Assessment, and 
Review) as their resource for developing and updating assessments but 
the Commission's haven't had any mechanism. While we should be able to 
run our assessments through the SEDAR process, the program is nearly 
exclusive to Council managed species. Therefore, we are currently 
working to develop a similar framework to SEDAR for our nearshore 
species but the Commission's IJFA funds just aren't sufficient to 
support true multistate assessments.

    Question 2. In your opinion, how well has the Commission been able 
to work collaboratively to overcome inconsistent state fishery 
management issues?
    Answer. There generally hasn't a big issue with inconsistent 
fishery management between the Gulf States other than the enforcement 
of inconsistent size and bag regulations across adjacent state 
boundaries.

    Question 3. Can you identify any gaps in regulation and management 
of migratory fish stocks between jurisdictions? How would you propose 
to address those shortcomings?
    Answer. While most of our species essentially migrate between state 
jurisdictions (with the exception of oysters), there aren't any real 
gaps other than some issues with varying regulations across state lines 
as noted above. These are more angler migrations than species migration 
issues.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                            David Donaldson
Seafood Traceability Issues and Gulf Seafood Trace
    Recently, I introduced legislation--S. 520--that is aimed at 
improving the safety of imported seafood, as well as promoting seafood 
traceability and preventing seafood fraud. S. 520 would, if enacted 
into law, promote the inclusion of certain basic information with 
seafood distributed or sold in the United States, in order to verify 
what it really is, where it was caught, and so forth. The idea is to 
allow everybody in the ``chain of custody'' of a freshly landed seafood 
product to know at a minimum, (1) the General Fishing Area where it was 
caught, (2) what it is, (3) the date it was caught, and (4) the weight 
or number of seafood products by individual fish or lot, as 
appropriate.

    Question 1. It sounds like your Gulf Seafood Trace Program already 
provides a platform for that very type of information to accompany 
seafood products of fishing companies and processors who choose to 
participate--is that right?
    Answer. Yes, the Gulf Seafood Trace Program was implemented in 
March 2012 and will be operating until December 2014. After that time, 
the funding for the program will have been expended.

    Question 2. It also sounds like more and more businesses are 
electing to participate in the Program because it increases the value 
of the product throughout the distribution chain. Is that fair to say?
    Answer. Yes. There is an increased emphasis on sustainability and 
product traceability coming from retailers and consumers. The Gulf 
Trace Program helps the industry address this issue and restore the 
confidence of users in Gulf seafood. It also provides the added benefit 
of distinguishing Gulf seafood from imported products and allows the 
industry to market an all-American, premium brand.

    Question 3. What is the cost each year of providing this service, 
and what is the customer capacity--is there a limit to how many 
participants the Program can accommodate for funding you're putting 
into it?
    Answer. Under the current program, we can provide the service (at 
no charge) to up 200 processors/dealers. Based on that number, the 
annual cost would be approximately $920,000/yr or about $4,600/
business/yr. The capacity is limited by the total amount of available 
funding as well as the willingness of the industry to participate.

    Question 4. Would you support national implementation of seafood 
traceability, assuming that it will be left up to individual producers 
to decide what system to use?
    Answer. As the focus continues to increase on knowing where the 
seafood is coming from and where it is going, the need for traceability 
grows not only in the Gulf of Mexico but on the other coasts as well. 
Various organizations and agencies from both the Atlantic and Pacific 
coasts have expressed an interest in the Gulf Trace Program and are 
intently monitoring the progress and success of the program.
                                 ______
                                 
 Response to Written Question Submitted by Hon. John D. Rockefeller IV 
                        to Hon. Eric C. Schwaab
Illegal, Unreported, Unregulated Fishing
    I know we are focused on U.S. interjurisdictional fishery 
management issues in this hearing, but I would like to turn for a 
moment to our international fishery conservation and management 
efforts. Earlier this year, I reintroduced two international fisheries 
bills that were sponsored in past congresses by the late Daniel K. 
Inouye of Hawaii--S. 269, the International Fisheries Stewardship and 
Enforcement Act, and S. 267, the Pirate Fishing Elimination Act. I know 
the Obama Administration strongly supports these measures, which are 
aimed at preventing and deterring illegal, unregulated, and unreported 
fishing in the waters of other nations and on the high seas.
    Question. Could you please speak to the merits of each of these 
bills and explain the importance, from your perspective, of seeing each 
one enacted into law?
    Answer. S. 269, the International Fisheries Stewardship and 
Enforcement Act (IFSEA), would establish uniform administrative and 
enforcement authorities and penalties for the High Seas Driftnet 
Fishing Moratorium Protection Act and similar statutes that implement 
regional fishery management agreements to which the United States 
(U.S.) is a party. It would include in those authorities additional 
enforcement tools to enhance the agency's ability to detect imports of 
fish and fish products that were harvested or imported illegally. This 
bill would also strengthen the ability of the U.S. to identify and work 
with other nations under the High Seas Driftnet Fishing Moratorium 
Protection Act to address illegal, unreported, and unregulated (IUU) 
fishing; bycatch of protected species; and shark catch on the high 
seas.
    Through efforts of the National Marine Fisheries Service (NMFS), 
the U.S. Coast Guard, and its deputized state agencies, compliance with 
fishery regulations in U.S. waters is believed to be far better than 
most countries of the world. However, IUU fishing continues on the high 
seas, in many cases in fisheries that include U.S. fleets or that yield 
seafood that ends up in the U.S. market. IUU fishery operators have 
little to no concern about the marine environment in which they are 
operating, therefore such illegal fishing often uses fishing techniques 
that incur high rates of bycatch of protected species (e.g., marine 
mammals) and finfish, and that cause habitat damage (e.g., bottom 
trawling in coral reef or other sensitive habitat).
    Title IV of IFSEA provides for adoption of implementing legislation 
for the Inter-American Tropical Tuna Commission (Antigua Convention). 
The Antigua Convention is an important international agreement that 
provides critical updates and modernizations to the mandate and 
functions of the Inter-American Tropical Tuna Commission, established 
in 1949. The U.S. took the lead in negotiating the new Antigua 
Convention, and worked very hard to ensure that it contains modern 
principles and reflects the duties and responsibilities of nations to 
cooperate to ensure the sustainable management of shared fisheries 
resources, to minimize impacts to bycatch species and to conserve the 
marine ecosystems on which sustainable fisheries depend. It is 
important that the U.S. follow through in our leadership role and 
ratify the Antigua Convention, having worked so hard in its creation 
and after encouraging other nations to ratify it as soon as possible. 
Without implementing legislation, the U.S. Government does not have the 
authorities necessary to ensure it is able to fully satisfy the 
commitments under the Antigua Convention.
    NOAA is concerned, however, that S. 269 does not contain provisions 
that were included in previous versions (S. 52, which was introduced in 
the 112th Congress; S. 2870, which was introduced in the 111th 
Congress; and S. 2907, which was introduced in the 110th Congress) that 
would provide NOAA with a comprehensive suite of modern enforcement 
authorities to help combat IUU fishing. These provisions provide for 
investigative subpoena authority and higher civil administrative 
penalties as well as civil judicial and additional criminal enforcement 
authority. The global seafood business is growing in complexity and 
requires a broader set of tools for detection as well as more 
significant consequences for IUU fishing that rise above the ``cost of 
doing business.''
    S. 267 is substantively identical to the Administration's bill to 
implement the Agreement on Port State Measures to Prevent, Deter and 
Eliminate Illegal, Unreported and Unregulated Fishing (Agreement) and 
NOAA supports its passage. The Agreement was adopted by the United 
Nations Food and Agriculture Organization in November 2009 and is the 
first binding global instrument focused specifically on combating IUU 
fishing. It sets forth minimum standards for the conduct of dockside 
inspections and training of inspectors and, most significantly, would 
require parties to restrict port entry and port services for vessels 
known or suspected of having been involved in IUU fishing, particularly 
those on the IUU vessel list of a regional fishery management 
organization. These new requirements will increase the risks and costs 
of IUU activities and thus serve as a deterrent. This bill presents 
another opportunity for Congress to take steps to keep IUU fishery 
products out of U.S. markets. By closing a critical loophole in the 
global fishing business, notably the ability to offload illegal fishery 
products in so-called ``ports of convenience,'' this effort would help 
ensure that there is no safe or lucrative haven for illegally-caught 
products, therefore removing the profit incentive associated with such 
activities. This bill is an important step that Congress can take to 
keep illegal fish products out of the U.S. market, for the sake of the 
U.S. fleet as well as American consumers who want to be part of the 
solution, not the problem.
    IUU fishing deprives law-abiding fishermen and coastal communities 
around the world of up to $23.5 billion \1\ in revenue every year, and 
undermines efforts to monitor and sustainably manage fisheries. Since 
seafood caught through IUU fishing enters the global marketplace 
through wide-ranging ports mostly outside the U.S., keeping that 
seafood from entering the global market requires an international 
solution and the cooperation of multiple countries.
---------------------------------------------------------------------------
    \1\ http://www.fao.org/docrep/013/i1820e/i1820e02.pdf
---------------------------------------------------------------------------
    The U.S. was a primary participant in the negotiation of the 
Agreement and was one of the first countries to take a step toward 
ratifying the Agreement by signing it in 2009. Since its adoption in 
2009, four countries and the European Union have ratified the 
Agreement. The Agreement will enter into force once 25 countries have 
ratified it. By staying at the forefront of this effort, the U.S. will 
demonstrate strong leadership in the global battle against IUU fishing 
and will be well-positioned to encourage broad ratification of the 
Agreement by other countries, with the effect of closing the world's 
ports to IUU vessels and keeping their illegal catch from entering the 
stream of commerce. As a global leader in sustainable fishing 
practices, and the third largest importer of seafood in the world, the 
U.S. has a responsibility to ensure the fish we import is caught 
legally. The U.S. also wants to work to create a level playing field 
for U.S. fishermen and ensure consumer confidence in the seafood supply 
by keeping illegal product out of the market.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                          Hon. Eric C. Schwaab
U.S.-Canada Albacore Treaty I
    The albacore tuna fishery is important one for Washington, 
providing both direct fishing jobs as well processing, shipbuilding and 
repair, ports and other support jobs. I understand bilateral 
negotiations have begun regarding a possible 2013 fishing regime under 
the U.S.-Canada Albacore Treaty. This treaty is meant to be a 
reciprocal agreement between the U.S. and Canada, however albacore 
harvesters maintain that fishing access is not equal, which U.S. 
albacore jobs decreasing. For example, in 1997 there were 1,200 vessels 
in the U.S. albacore fleet. In 2010, there were only a little over 600 
vessels in the U.S. fleet.

    Question 1. What is being done as a part of this current bilateral 
negotiation to ensure the economic well-being of our domestic albacore 
fishery? Is NOAA at the table during these bilateral discussions? What 
is NOAA's role?
    Answer. The U.S. delegation that prepared for and participated in 
the negotiations that reached agreement for a regime for 2013 included 
representatives from the harvesting sector, as well as other sectors 
and interests with a stake in the economic viability of the fishery as 
a whole (such as processors and the states). The overall position of 
the U.S. delegation was to continue to reduce the level of Canadian 
participation in the U.S. EEZ to reflect the harvesting sector's desire 
to reduce competition for the albacore resource on the fishing grounds. 
It should be noted that the number of U.S. albacore vessels can vary 
significantly with each year. The 1,200 vessels referred to in 1997 
exhibit a 75 percent spike in the number of U.S. vessels operating 
during the prior year. Averaged over the last 20 years, the number of 
U.S vessels has been less than 700. In efforts to achieve more 
equivalent reciprocity, the Canadians provided longer access to their 
EEZ for U.S. harvesters in 2013 as well providing access to their ports 
through the end of the year. All Canadians albacore fishing vessels 
must depart from the U.S. EEZ by September 15.
    NOAA's role at the bilateral discussions was to provide 
consultation to the Department of State (State) for drafting agreements 
that are able to be implemented through regulation. NOAA provided 
fisheries management expertise and technical information to State, the 
U.S. Delegation, and other interested parties. OLE attended the 
bilateral discussions for compliance and enforcement related topics.
U.S.-Canada Albacore Treaty II
    In 2003, the Senate voted on ratification of amendments to the 
U.S.-Canada Albacore Treaty. The treaty amendments approved by the 
Senate were designed to ``reduce Canadian fishing effort in U.S. waters 
to tolerable and more equitable levels . . .'' The specific objective 
was one that ``reduces the fishing effort each year until a level is 
reached in the third year that is slightly above the pre-1998 average 
level of fishing.''

    Question 2. Does your data show that the pre-1998 objective been 
reached? What steps were taken by the agency to achieve this Senate-
ratified objective? What efforts are currently underway to ensure that 
any future negotiations will result in fishing levels that conform to 
the pre-1998 standard, as ratified in the 2003 amendments? Does NOAA 
have all the data they need to fully answer these questions? Why or why 
not?
    Answer. The introduction of limits on the number of Canadian 
Vessels permitted to operate in the U.S. EEZ, implemented with the 
treaty amendments ratified in 2003, were further decreased through 
renegotiation of the limits in 2008. The recent agreement for 2013 
resulted in additional reductions that restrict the number of Canadian 
treaty vessels to 45 (down from 110 vessels in the previous regime), 
which is less than the estimated annual average number of Canadian 
vessels operating in the U.S EEZ from 1995 to 1997. NOAA staff 
continues to chair the Data Working Group assembled to ensure that all 
information relevant to the treaty is both comprehensive and made 
available to the interested public.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Amy Klobuchar to 
                          Hon. Eric C. Schwaab
Aquatic Invasive Species
    Across the country in both fresh and saltwater ecosystems we have 
seen the impact of aquatic invasive species. I have introduced 
legislation to help prevent the spread of Asian Carp further into 
Minnesota. I know that some Atlantic states have taken steps to address 
the invasive species problems, including offering bounties to reduce 
the numbers of invasive Lionfish.
    Question. What kind of impact does aquatic invasive species have on 
the domestic fisheries industry? Based on some of the intervention 
you've seen by agencies at different levels, do you see this as a 
problem that is going to get better or get worse if we don't devote 
serious attention to the problem? How can we be helpful to ensure you 
have the right resources to combat invasive species?
    Answer. Invasive species result in enormous economic costs, costing 
the Nation more than $120 billion per year--a cost higher than the 
total of all other natural disasters combined. In regards to domestic 
fisheries, aquatic invasive species may directly impact this industry 
by preying on or competing with economically valuable fish. Although 
reduced fish stocks may be the greatest cost to bear, the industry may 
also be affected indirectly by aquatic invasive species. For example, 
non-native mussels commonly foul watercraft, fishing equipment, and 
electrical systems, while aquatic weeds can make waters impassable to 
boats or clog engines. Beyond industrial costs, recreational fisheries, 
tourism, and other sectors of the economy are also impacted by aquatic 
invasive species. Many cases of economic losses to fisheries and 
aquaculture associated with aquatic invasive species have been 
reported, a small portion of these cases are highlighted below.
    The first known aquatic invasive species detected in the Great 
Lakes was the sea lamprey, which arrived in the 1830s and continues to 
be a problem today. Since detection, many once prominent and 
economically valuable fish, including late trout, sturgeon, and lake 
herring, have completely disappeared or have declined. As a result, 
control measures are taken through an integrated pest management 
approach to reduce the sea lamprey population. Over $20 million in U.S. 
and Canadian investments are spent each year to apply chemical 
lampricides and operate barriers to suppress sea lamprey population 
numbers and keep fish populations safe. The Federal government also has 
active sterilization, lamprey pheromone, and research programs that 
require ongoing and consistent effort to mitigate the threat that sea 
lamprey pose. In recent years, Asian carp have been in the spotlight, 
as these aquatic invasive species are capable of out-competing and 
reducing native fish populations that are important to fishermen. If 
introduced into the Great Lakes, there are serious concerns over the 
fishes' potential to negatively impact the area's $7 billion-per-year 
fishing industry. However, even if Asian carp are successfully excluded 
from the Great Lakes, but continue to spread throughout the Mississippi 
River Basin watershed, this invader may reach 31 states and 40 percent 
of the continental United States.
    Other fish species that impact the fishing industry include the 
lionfish (Pterois volitans and Pterois miles), which have become 
invasive along the Eastern Atlantic, Caribbean, and Gulf of Mexico. 
These top-level predators have a diverse diet which may cause a 
decrease in landings, hamper stock rebuilding efforts, and slow 
conservation-based initiatives. In addition, lionfish may compete for 
resources with economically important species such as the Nassau 
grouper and yellowtail snapper. Finally, the walking catfish (Clarias 
batrachus), introduced via the aquarium trade, is a particular problem 
in Florida. Walking catfish are now known to have invaded aquaculture 
farms, where these predators prey upon fish stocks.
    Salmonids traverse large geographic areas spanning freshwater, 
estuarine, and ocean habitats where they encounter numerous non-native 
species. In the Columbia River system alone, juvenile Pacific salmon 
will encounter more than eight invasive predator and competitor fish 
species en route to the sea. Native salmonids are also vulnerable to 
several invasive pathogens and the diseases that result from them. 
Hundreds of millions of dollars are spent annually to research salmonid 
populations, with the majority of funding spent towards studying the 
impacts of habitat alteration, hatcheries, harvest, and the hydrosystem 
(the ``all-H's.'') However, scientists have suggested that invasive 
species may pose as much of a threat to native salmonids as the all-
H's.
    Invasive fish are not the only impact to the fishing industry. One 
of the worst marine invasions occurred in the 1980s when the North 
American comb jelly (Mnemiopsis leidyi) was introduced into the Black 
Sea via ballast water. The species rapidly took hold in the predator-
free water and ate vast quantities of fish eggs and larvae as well as 
zooplankton that served as the primary food source for many 
commercially-important species. Eventually, this invasion led to a 
collapse of many fish stocks in the Black Sea. The U.S. is currently 
plagued by the white spotted jellyfish (Phyllorhiza punctate). This 
species has been found off the coasts of Hawaii and California and has 
experienced recent population explosions in the Gulf of Mexico. This 
species has been known to negatively affect the shrimp industry by 
clogging nets and damaging fishing equipment. There is also evidence 
that suggests that this jellyfish has reduced the white shrimp harvest 
in Mobile Bay, Alabama the Mississippi Sound by 26.7 percent.
    Crustaceans can also damage the fishing industry. The invasive 
green crab (Carcinus maenas) is present from Nova Scotia to Virginia 
and is believed to be at least partly responsible for the destruction 
of the soft-shelled clam fisheries in the 1950s which affected 
thousands of people. Likewise, the Chinese mitten crab (Eriocheir 
sinensis) is capable of causing considerable damage to fisheries by 
consuming netted fish and by cutting nets. In recent years, Asian tiger 
shrimp have entered the Gulf of Mexico and threaten native shrimp 
stocks and the Gulf ecosystem.
    Invasive tunicates, or sea squirts, are adversely affecting 
aquaculture of species such as the bay scallop, Eastern oyster, hard 
clam, and blue mussel along much of the U.S. East Coast. For example, 
the colonial tunicate (Didemnum vexillum) forms dense mats that 
overgrow adult scallops, limits space for larval development, and 
prevents fish from bottom feeding. Studies in Alaska have also shown 
evidence that the highly acidic and toxic surface of the colonial 
tunicate may impact the development of herring eggs.
    Impacts to the fishing industry may even be microscopic. The spiny 
waterflea (Bythotrephes longimanus) and fishhook water flea (Cercopagis 
pengoi) were introduced into the Great Lakes by ballast water 
discharged from ocean-going ships. These tiny predators have led to the 
decline of some species of zooplankton; however, these species are also 
capable of fouling fishing lines and other gear. While this may be an 
annoyance for sport fishers, to commercial fisherman it is financially 
damaging.
    Shellfish have been intentionally introduced for mariculture, yet 
can become a threat to native biodiversity or livelihoods as many 
species often carry pathogens or parasites that may infect native and 
commercial species and/or be a human health risk. For example, many 
organisms travel with oysters, including the oyster disease MSX 
(Haplosporidium nelsoni), which continues to threaten native species as 
well as commercial oyster aquaculture and fishing communities along the 
Eastern coasts of U.S. and Canada.
    Finally, aquatic invasive species can have severe impacts on the 
quality of habitat. Some fish species, such as the common carp 
(Cyprinus carpio), increase turbidity and phosphorus levels, which 
often causes a reduction in aquatic plants needed by native fish. 
Infestations of nonnative aquatic plants often result in impairment of 
water bodies, by creating oxygen depletion and altering predator-prey 
relationships. For example, an invasive algal species from Japan, 
Codium fragiles, also referred to as deadman's fingers, outcompetes 
native kelp and eelgrass, thus destroying habitat for many finfish and 
shellfish species. Nutria (Myocastor coypus), an aquatic rodent that 
has invaded the Chesapeake Bay, Louisiana, and Pacific Northwest, 
destroys the very marshlands it infests. These wetlands, which function 
as environmental filters, are often the nursery grounds for commercial 
and recreational fisheries as well as essential habitat for birds, 
mammals, reptiles, and amphibians.
    While management of aquatic invasive species is challenging, 
considerable success is being achieved in the prevention, detection, 
eradication, control, and outreach efforts of aquatic invasive species 
along with increased emphasis on the restoration of ecosystems that 
have been affected by aquatic invasive species. Additional research and 
information exchange, new detection and eradication techniques, 
innovative control methodologies, and collaborative models are 
increasing our capacity to manage aquatic invasive species. Awareness 
of the problems caused by aquatic invasive species has dramatically 
improved, as evidenced by increased activity at federal, state, and 
local levels. Despite the significant increase in activity and 
awareness, invasions are increasing in number and the damages to 
ecosystems, economic activity, and human welfare are accumulating. 
Without improved strategies based on recent scientific advances and 
stronger investments to counter invasions, harm from invasive species 
is likely to accelerate.
    Improved technology and management practices could reduce damages 
from current and future invasive species. The following recommendations 
are made to further prevent, detect, respond to, and control aquatic 
invasive species in a cost-effective and environmentally sound manner, 
and are reflected in several national management plans, including the 
Aquatic Nuisance Species Task Force Strategic Plan \2\ and the National 
Invasive Species Council Management Plan.\3\ NOAA is a co-chair of each 
of these organizations and continues to support and promote these 
activities.
---------------------------------------------------------------------------
    \2\ http://www.anstaskforce.gov/Documents/
ANSTF%20Strategic%20Plan%202013-2017.pdf
    \3\ www.invasivespecies.gov/main_nav/mn_NISC_ManagementPlan.html

  1.  National Invasive Species Act. The Nonindigenous Aquatic Nuisance 
        Prevention and Control Act of 1990 (NANPCA) was intended to 
        identify and implement ways to prevent the unintentional 
        introduction and spread of invasive species into waters of the 
        United States, to work toward minimizing economic and 
        ecological impacts of established nonindigenous species, and to 
        establish a program to assist states in the management and 
        removal of such species. NANPCA was last reauthorized and 
        amended in 1996 by the National Invasive Species Act (NISA); 
        since this time a great deal has been learned about invasive 
        species in regards to their introduction, management, and 
        impact to the environment, economy, and human health. 
        Reauthorization of NISA would provide an opportunity for 
---------------------------------------------------------------------------
        Congress to review these findings.

  2.  Coordinate Vector Management. The possibility of an invasive 
        species is not as threatening as seeing the evidence, which is 
        why most efforts to combat aquatic invasive species are 
        reactive. Focusing on prevention avoids many of the long-term 
        economic, environmental, and social costs associated with 
        aquatic invasive species. While not the only method, prevention 
        is widely recognized as the most cost effective technique to 
        deal with invasive species. New invasions could be prevented 
        through use of new information and practices to better manage 
        vectors to reduce the transport and release of potentially 
        harmful aquatic invasive species. Interagency coordination is 
        important. In addition, all marine and freshwater vectors could 
        be evaluated (e.g., magnitude and volume of biota that is moved 
        by different transfer mechanisms) and management plans could be 
        developed to reduce species movements via these pathways. 
        Federal government efforts that target prevention through 
        voluntary and regulatory action in living industry pathways, 
        transportation related pathways, and others should be reviewed. 
        For example, the U.S. Fish and Wildlife Service is developing 
        voluntary and regulatory mechanisms to address importation and 
        interstate movement of invasive species under Title 18 of the 
        Lacey Act.

  3.  National strategy for monitoring. Some species will inevitably 
        slip through prevention efforts and establish small 
        populations. The lag time between establishment and spread 
        associated with many invading populations provides an 
        opportunity for early detection and rapid response, which would 
        include monitoring habitats to discover new species soon after 
        introduction, reporting sightings of previously unknown species 
        in an area, and working quickly to keep the species from 
        becoming established and spreading. Extensive monitoring across 
        environments would allow documenting the distribution of native 
        species, identifying range shifts, and detecting invasions. 
        Further, new innovations for early detection could be explored 
        to determine the most efficient, cost-effective means of 
        eradicating new biological invasions.

  4.  Control and Management of Invasive Species. Control programs for 
        widespread species are inevitably expensive, such as the $20 
        million annual expenditure to control the sea lamprey in the 
        Great Lakes. Nevertheless, they are often cost effective; the 
        sea lamprey program, for example, protects a fishery worth 
        about $4 billion annually. Control and eradication are the most 
        advantageous when action is taken immediately upon first 
        detection, when populations are still localized and can be 
        contained. In the short-term, plans should be developed for the 
        necessary actions needed to respond quickly to newly detected 
        non-native species that may cause ecosystem, public health and/
        or socioeconomic impacts. Risk assessments are needed to 
        prioritize species that warrant targeted prevention efforts and 
        rapid response plans. Further, an emergency fund for such 
        efforts should also be established. In the long-term, Federal 
        agencies should develop and implement effective strategies for 
        control and management of invasive species. In addition, 
        Federal support for State-led aquatic invasive species 
        responses should continue as the States are often the 
        jurisdictional lead for problems once issues are ``on the 
        ground.'' Support of Federal actions for planning and 
        implementation of State/Interstate Management Plans called for 
        under NISA has been recognized by the American Fisheries 
        Society as a needed step to more effectively manage aquatic 
        invasive species in the U.S.\4\
---------------------------------------------------------------------------
    \4\ http://fisheries.org/docs/policy_statements/policy_36f.pdf

  5.  Expand Educational and Outreach Programs. It is imperative that 
        the public has an understanding of the problems and impacts 
        associated with invasive species so that they can be partners 
        in solving the problem. More importantly, people need to know 
        what they can do to help prevent the introduction and spread of 
        invasive species. Increased support should be provided for 
        national invasive species campaigns (e.g., 
        Habitattitude<SUP>TM</SUP> and Stop Aquatic Hitchhikers!) that 
        are designed to increase awareness about invasive species and 
        promote actions that empower audiences to become part of the 
        solution in preventing future invasions. Additionally, citizen-
        science could engage the public and enhance invasive species 
---------------------------------------------------------------------------
        monitoring and management.

  6.  Directed Research Programs. Dedicated research programs to 
        predict, and possibly prevent, the impact of invasions would 
        serve to better detect species movements and foresee likely 
        interspecies interactions. These goals will best be 
        accomplished via focused, mechanistic studies of invasive 
        species to inform and predict how factors, such as global 
        climate change, might affect native species versus invasive 
        species, as well as interact with local stressors to affect 
        invasion success.

  7.  Increased Coordination. To assist coordination, partnerships 
        should be built or strengthened among international, federal, 
        state and local agencies, academic institutions, and others to 
        enhance capacity for detecting, responding to, and managing 
        invasive species. Interagency groups such as the National 
        Invasive Species Council and Aquatic Nuisance Species Task 
        Force need to build partnerships that broadly implement 
        recommendations at local, regional, and national levels. The 
        dispersal of invasive species is a global problem; therefore 
        international coordination and cooperation is also an important 
        part of the solution. Invasive species are moved around the 
        globe as a result of trade, transport, and travel, thus it is 
        important to collaborate internationally on the management of 
        pathways and to disseminate information on the risks and 
        impacts from invasive species.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                          Hon. Eric C. Schwaab
Seafood Traceability
    I have introduced a bill, S. 520, the Safety and Fraud Enforcement 
for Seafood Act, that would require traceability for all seafood sold 
in interstate commerce in the U.S. to help fight seafood fraud and keep 
illegal product out of our markets.

    Question 1. Do you think the current regulatory system is adequate 
to address these problems?
    Answer. The Administration has not taken a position on this 
legislation; however, we would be happy to discuss some of the 
Administration's activities to address these complex issues. Seafood 
mislabeling presents significant challenges for law enforcement, as 54 
percent of the world's fish production is processed at sea or soon 
after landing (FAO 2009). In most cases, this processing renders the 
species unidentifiable without forensics. Additionally, seafood can be 
mislabeled at any point along the supply-chain. To address these 
challenges, NOAA currently conducts inspections of seafood shipments 
and production facilities as do some other state and Federal agencies 
(e.g., U.S. Food and Drug Administration (FDA)). The NOAA Office of Law 
Enforcement (OLE) and the NOAA Seafood Inspection Program (SIP) both 
have inspection personnel and each program plays an important role in 
the regulatory system designed to help fight seafood fraud. FDA is 
charged with enforcement of the Federal Food, Drug, & Cosmetic Act 
(FD&C Act), which allows the Agency to take enforcement action against 
products in interstate commerce that are adulterated or misbranded and 
refuse entry of imported products that appear to be adulterated or 
misbranded. Substitution of one species of seafood for another could 
cause a seafood product to be adulterated and/or misbranded under the 
FD&C Act, depending on the facts. Species substitution has been an area 
of concern for FDA and within the seafood industry for some time 
because it could be a public health risk. Further, it is a violation of 
the FD&C Act for labeling to be false or misleading. Labeling is 
defined in the FD&C Act to include ``all labels and other written, 
printed, or graphic matter (1) upon any article or any of its 
containers or wrappers, or (2) accompanying such article.''
    The SIP is a voluntary fee-for-service program authorized by the 
Agricultural Marketing Act. The program assists the seafood industry 
with regulatory compliance, but has no enforcement authority and does 
not undertake enforcement actions. The SIP also provides inspection 
services upon request by industry and, in that capacity does inspect 
shipments of seafood imported into the U.S.; however, it does not 
currently have a role in making admissibility determinations for 
seafood imports.
    The OLE and NOAA Office of General Counsel (GC) are responsible for 
enforcing the statutes administered by NOAA, some of which have 
specific provisions or implementing regulations addressing catch 
documentation, trade tracking and/or labeling. Noncompliance with these 
requirements can result in the denial of entry or other enforcement 
action. NOAA would welcome the opportunity to work with Congressional 
staff, in consultation with FDA, on addressing these issues while 
preventing the duplication of existing authorities.

    Question 2. Please describe the relationship between NOAA and the 
Food and Drug Administration (FDA) in ensuring that our seafood--both 
imported and domestic--is honestly-labeled. How would you improve the 
communication and coordination between the two agencies?
    Answer. The FDA and NOAA have a Memorandum of Understanding (MOU) 
to facilitate coordinated and cooperative seafood inspection efforts, 
including ensuring proper seafood labeling. FDA uses its resources to 
focus upon species substitution through the DNA library and targeted 
enforcement actions for misbranding. FDA recently invested in 
significant technical improvements in order to identify seafood species 
using state of the art DNA identification methodologies. FDA has 
trained analysts from other Agencies, including the NOAA, in its new 
DNA-based species identification methodology. The SIP, which inspects 
approximately 2 billion pounds of seafood each year, performs a number 
of tests on seafood products offered for voluntary inspection, 
including net weight checks to detect fraud related to low net weight 
in packaged seafood, which is far more prevalent than species 
substitution.
    Additionally, NOAA and the FDA periodically work together on 
seafood fraud and mislabeling cases. The two agencies are currently 
involved in joint efforts to detect and interdict fraudulently labeled 
seafood along with several other Federal law enforcement partners. FDA 
and NOAA do work together on these types of cases when appropriate and 
possible. As stated above, NOAA would welcome the opportunity to work 
with Congressional staff, in consultation with FDA, on addressing these 
issues while preventing the duplication of existing authorities.

    Question 3. NOAA's Seafood Inspection Program (SIP) is a voluntary, 
fee-for-service program that provides seafood producers with 
certificates of inspection. Given the program's voluntary nature, do 
you think it is adequate to address the problem of seafood fraud? What 
else is NOAA doing to combat seafood fraud and ensure that illegal 
product is not mislabeled? Is SIP required to report violations to NOAA 
law enforcement? What is the budget for seafood inspections by NOAA 
officials for ensuring product is properly labeled and legally caught? 
Does NOAA need seafood inspections for enforcement purposes outside of 
SIP?
    Answer. NOAA's OLE and SIP both have inspection personnel and each 
program plays a role in the regulatory system designed to help fight 
seafood fraud. The SIP conducts inspections on a fee-for-service basis 
at the request of the seafood industry and provides compliance 
assistance. The OLE, in conjunction with GC, is responsible for 
enforcing the statutes administered by NOAA, including those which 
address seafood fraud.
    Whenever SIP personnel note an issue with seafood products or 
production facilities, correction is the first step. Once corrective 
action is taken, the SIP decides whether to refer the case to the OLE 
or the FDA for further investigation and possible enforcement action. 
Under existing law, the SIP is not required to report seafood labeling 
violations to OLE or FDA, but has discretion to do so. The SIP is now 
tracking reports and inspections involving suspected fraud in order to 
work more closely with OLE and FDA. The SIP is voluntary and has 
limited authorities, so its activities are not specifically designed to 
prevent fraud or effect regulatory actions. The program inspects about 
two billion pounds of seafood per year, and approximately one billion 
pounds is exported and about one billion pounds is consumed 
domestically, which represents about 20 percent of U.S. consumption. 
The SIP ensures that these products are properly labeled, but has no 
effect on the four billion pounds of consumption that are not inspected 
by the program.
    The SIP budget for FY 2013 was estimated to be $25.1 million. Since 
ensuring proper labeling and legal harvest are only a small portion of 
its overall mission, which includes export certification, regulatory 
compliance with food safety and quality laws and regulations, and 
product quality evaluation, it is very difficult to determine the 
actual cost of these activities. The budget is an estimate of the cost 
of providing services to the seafood industry, and the various fees are 
calculated to cover the expected costs of those services.
    The OLE and GC work with our Federal and state law enforcement 
partners to conduct targeted enforcement to address suspected seafood 
fraud and mislabeling. Currently, the offices are engaged in operations 
investigating suspected mislabeling of seafood product and continue to 
place resources toward detection, apprehension and prosecution of those 
involved in seafood fraud.
    In a recent case, three seafood wholesale owners were sentenced to 
a combined 70 months imprisonment for falsely labeling and selling 
cheaper imported farm-raised fish as more expensive domestic wild-
caught fish and shellfish. Farm raised Vietnamese catfish and African 
Lake Victoria perch were sold as grouper and snapper, and farm raised 
foreign shrimp were sold as U.S. wild caught seafood. In addition, some 
of this fish tested positive for chemicals which are prohibited in U.S. 
aquaculture. This falsely labeled fish was sold to consumers throughout 
the Gulf of Mexico region, including U.S. military bases.
    Similar investigations by OLE revealed other companies falsely 
labeling fish to avoid import duties, and in one case duties exceeded 
$65 million dollars. These fish were then sold as the falsely labeled 
imported product. Individual prison sentences in these cases have 
ranged up to 63 months and resulted in fines and restitutions of more 
than $75 million. Each of these cases involved thousands of man-hours 
to investigate, required the unraveling of complex corporate accounting 
records, and the penetration of well-entrenched criminal conspiracies. 
OLE agents have worked for years on cases involving seafood fraud, and 
continue to work with GC and the Department of Justice to prosecute 
those responsible.

    Question 4. S. 520 includes a provision requiring the FDA to treat 
NOAA's Seafood Inspection Program as a certified third-party inspector 
under Sec. 808 of the Federal Food, Drug, and Cosmetic Act (21 U.S.C. 
Sec. 384d) to inspect imported seafood or seafood offered for import 
originating from any country or exporter. What benefits might there be 
if this were enacted? What challenges could you foresee?
    Answer. The Administration has not taken a position on this 
provision; however, NOAA can seek accreditation under Section 808 of 
the FD&C Act, which directs FDA to establish a program for 
accreditation of public and private third-party auditors to certify 
foreign food facilities and their foods offered for import into the 
U.S. It is important for all potential auditors to demonstrate their 
qualifications before joining the program, to maintain confidence in 
the process and to ensure objectivity and independence in all aspects 
of the program. Moreover, the FDA Food Safety Modernization Act (FSMA) 
authorizes NOAA, in coordination with FDA, to send inspectors to a 
country or facility of an exporter to assess practices and processes 
used in connection with the farming, cultivation, harvesting, 
preparation for market, or transportation of seafood. It directs FDA to 
consider the inspection reports when allocating inspection resources.
    NOAA can foresee challenges surrounding the proper use of 
confidential business information. Currently SIP personnel have access 
to information at seafood firms that FDA does not have access to under 
their regulations. Although the SIP would work with FDA on any issue at 
a particular firm, they would need to ensure that protected proprietary 
information would not be improperly disclosed. Use of such information 
underscores the difficulty the SIP faces in providing voluntary 
compliance assistance services while also assisting FDA with 
enforcement activities.

    Question 5. For many years the vast majority of seafood consumed in 
the U.S. has been imported. As U.S. fishermen work under strict Annual 
Catch Limits and Accountability Measures to rebuild and conserve U.S. 
fish stocks, what value do you see in adding traceability to all 
seafood to promote and increase the value of limited U.S. catch?
    Answer. Since the U.S. imports over 90 percent of the seafood 
consumed in the country, the presence of illegal or mislabeled seafood 
product can have a significant adverse impact on the market for legally 
harvested seafood products. NOAA encourages a thorough examination of 
any proposed traceability program to ensure that any traceability 
measures are practical and enforceable, and do not duplicate or 
conflict with existing authorities and programs.
    You may be interested to know that Congress has already given HHS/
FDA responsibility for the labeling of seafood. Labels are subject to a 
comprehensive regulatory scheme. Furthermore, it is a violation of the 
FD&C Act for labeling to be false or misleading. Labeling is defined in 
the FD&C Act to include ``all labels and other written, printed, or 
graphic matter (1) upon any article or any of its containers or 
wrappers, or (2) accompanying such article.'' In addition, FDA 
routinely does traceback as part of foodborne illness outbreak 
investigations. FSMA directs FDA to establish a system that will 
enhance its ability to track and trace both imported and domestic 
foods. The ability to more quickly trace foods associated with 
foodborne illness outbreaks can help prevent further illnesses, and 
FDA's current system that generally requires facilities to maintain 
records of the immediate previous source and immediate subsequent 
recipient of food, as well as the transporters who transported the food 
to and from the facility should be considered in the development of a 
seafood traceability program.
    NOAA would welcome the opportunity to work with Congressional 
staff, in consultation with FDA, on addressing these issues while 
preventing the duplication of existing authorities.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Brian Schatz to 
                          Hon. Eric C. Schwaab
Sequestration Impacts on Fisheries Science
    According to the National Oceanic and Atmospheric Administration's 
latest report on fisheries impacts in Hawaii and the Western Pacific, 
fishermen in Hawaii earned $92 million from their commercial harvest in 
2011. The report also cited that the Western Pacific's seafood industry 
generated $694 million in sales, $213 million in income, and 
approximately 8,600 full- and part-time jobs. As you know, fisheries' 
stock assessments provide data on past and current status of fish 
stock, and are critical to establishing annual catch limits to prevent 
overfishing in commercial and recreational fisheries.

    Question. How will sequestration affect fisheries' stock 
assessments? Specifically, how might it impact Hawaii and the Pacific 
Region economically?
    Answer. The approved FY 2013 spend plan provides approximately $169 
million for stock assessment activities from several budget lines 
(Expand Annual Stock Assessments, Fisheries Statistics, Fish 
Information Networks, Survey and Monitoring Projects, and Observers/
Training). This is a reduction of $1.1 million from FY 2012, and a 
reduction of $12.8 million from the FY 2013 request. The uncertainty of 
final FY 2013 funding levels and the sequestration in FY 2013 led to 
reductions in the collection of data necessary for stock assessments, 
such as fishery observer and port sampling data, life history 
characterization, and integrated ecosystem process research. The FY 
2014 President's Budget includes $186 million for stock assessment 
activities.
    More specifically, in Hawaii, American Samoa, Guam, and the 
Northern Mariana Islands, the NOAA Pacific Islands Fishery Science 
Center's (PIFSC) fisheries science budget has been reduced by 
approximately 8.6 percent from FY 2012 levels, and as a result:

  <bullet> Critical scientific staff cannot be rehired;

  <bullet> Grants to assist in monitoring Hawaii's commercial fisheries 
        cannot be funded ``ahead''; and

  <bullet> Travel to the three U.S. jurisdictions in the western 
        Pacific will be restricted and/or cancelled.

    Additional reductions will occur in PIFSC programs that provide 
data, biological research, and other critical information for 
understanding the underlying dynamics that affect fish populations in 
this region.
    These restrictions in staff, travel, and the program activity they 
support will result in:

  <bullet> Reduced ability to track landings against Hawaii bigeye tuna 
        and bottomfish catch quotas, increasing the risk that quotas 
        might be exceeded;

  <bullet> Reduced support for cooperative research;

  <bullet> Reduced monitoring of the U.S. purse seine fishery operating 
        in the South Pacific;

  <bullet> Increased backlog for processing life history samples 
        necessary for scheduled reef fish stock assessments;

  <bullet> Reduced ability to provide technical support and direct 
        oversight and feedback to local agencies concerning their 
        fishery surveys and bio-sampling; and

  <bullet> Restricted NOAA participation in highly migratory species 
        (tunas, billfish, and sharks) stock assessment working groups 
        through the International Scientific Committee for Tuna and 
        Tuna-like Species.

    If sequestration were to continue, it is likely to result in 
reduced time series of data for reef fish assessments; delays in 
conducting new assessments; and reduced capacity to improve the PIFSC 
fishery-dependent surveys of small boat fisheries in each jurisdiction. 
Additionally, reduced sampling of billfish and shark biological and 
size-at-catch data from China fisheries could increase the uncertainty 
of the highly migratory species assessments and subsequent management 
advice in international fisheries management organizations, potentially 
disadvantaging U.S. fishing fleets, including the Hawaii-based and 
American Samoa-based longline fisheries and the U.S. purse seine 
fishery in the South Pacific. Given the lack of adequate data and 
scientific analysis, stewardship decisions must be taken using a 
precautionary approach, which can impact commercial activities 
associated with oceans, including fishing, offshore energy development, 
and other activities.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. William Cowan to 
                          Hon. Eric C. Schwaab
Addressing Challenges in the New England Fishing Industry
    According to NOAA's 2011 Final Report on the Performance of the 
Northeast Multispecies Fishery, the number of active vessels dropped 
from 957 in 2009, to 890 in 2010, to 805 in 2011. These declines do not 
fully show the lost revenue for thousands of other vessels and they do 
not quantify the effect on families in coastal communities around 
Massachusetts.

    Question 1. Since the implementation of catch shares in 2010, what 
has NOAA done to assist the fishermen and fishing communities who have 
been forced out of the industry or into bankruptcy? Given that Commerce 
has declared a Federal fishery disaster, and given how desperately this 
assistance is needed, have you requested that disaster assistance for 
the Northeast be included in the President's budget for 2014? If not, 
why not?
    Answer. NOAA understands Northeast fishing communities face serious 
challenges due to the condition of groundfish stocks, and we are 
committed to doing everything we can to help them through these 
difficult times. It is going to take us all working together to ensure 
that both fishermen and groundfish survive.
    NOAA has provided over $50 million in start-up funding to 
groundfish sectors to pay for operational costs to get the individual 
sector programs off the ground. We have paid for at-sea monitoring 
coverage since the implementation of the sector management program in 
2010. We also funded dock-side monitoring for the duration of that 
requirement.
    NOAA has also been working with the New England Fishery Management 
Council and the fishing industry to optimize fishing opportunities and 
to provide access to healthy stocks like monkfish, redfish, dogfish, 
and winter flounder. Using emergency authority, we responded to new 
information regarding improvements in the white hake stock status by 
increasing the white hake quota in time for the May 1 start date. We 
also provided many of the requested sector exemptions, which were 
finalized before the May 1 fishery start date. We expedited these 
actions to help mitigate the impacts of low quota on key groundfish 
stocks. NOAA Fisheries has allowed groundfish fishermen to carryover 10 
percent of quota from the 2012 fishing year to the 2013 fishing year. 
This applies to all groundfish stocks except Gulf of Maine cod because 
of the poor condition of the Gulf of Maine cod. Fishermen have been 
able to carryover just under 2 percent of unused GOM cod quota.
    NOAA will continue to support improvements in fisheries science 
and, in its Fiscal Year 2014 budget proposal, has requested $180 
million for fisheries research and management programs, $70 million to 
expand annual stock assessments, and $12 million for cooperative 
research. These represent proposed increases over current levels and 
reflect NOAA's commitment to fisheries science during these fiscally 
austere times.
    On September 13, 2012, Dr. Blank determined a commercial fishery 
failure due to a fishery resource disaster had occurred. This 
determination includes the 2013 fishing year, which started May 1. The 
Administration does not have a standing source of funds that Congress 
appropriates to apply to disasters as they arise.

    Question 2. According to its mission statement, the Commerce 
Department's goal is to ``help make American businesses more innovative 
at home and more competitive abroad.'' What is your plan to work with 
the rest of the Commerce Department to provide real assistance--
funding, training, business development assistance, etc. to our 
fishermen in the Commonwealth? Please report back to this Committee 
with a plan by April 15th, the day our fishermen have to pay the 
Federal government for its services.
    Answer. The Department of Commerce (DOC) and NOAA are committed to 
doing whatever we can to provide real assistance, funding, training, 
and business planning to help fishermen in the Commonwealth and around 
the country sustain profitable and sustainable fishing businesses. As 
you know, Northeast Regional Administrator John Bullard has been 
meeting with fishing industry leaders throughout the Region and talking 
with members of the New England delegation, as well as state and 
Federal agency partners, to put together an economic resources document 
for Northeast fishing communities. John Bullard has the full support of 
NOAA and the DOC in this effort.
    He has been meeting with the Small Business Administration, the 
U.S. Department of Agriculture (USDA), U.S. Department of Labor, and 
DOC's Economic Development Administration (EDA) to discuss what they 
can do to help, and they have pledged to work with us. We will continue 
to look to our Federal agency partners, state partners, and 
nongovernmental partners in this effort to find ways to assist New 
England fishermen and their communities. In addition, last year EDA 
deployed interagency Economic Development Assessment Teams to fishing 
communities in the Northeast to help design economic recovery 
strategies. These efforts focused on providing comprehensive, 
customized, and capacity-building technical assistance from economic 
development and recovery experts. The information provided as part of 
this effort can assist communities as they consider long-term 
development goals and transitional strategies. The EDA's Economic 
Development Representatives and Specialists continue to be available to 
local communities to provide information on EDA programs, its grants 
application process, and other Federal resources that communities may 
wish to explore. As we go forward in this effort, we want to work 
closely with you and others in the New England delegation as well as 
state leaders. It is essential that we collaborate to ensure that both 
fishermen and groundfish survive.

    Question 3. From reading your testimony, one would assume that 
things are moving forward in the Gulf of Maine fishery and that, while 
there are difficulties, our fishermen accept the current state of 
affairs. Despite your testimony before this Committee, the truth is our 
fishermen are facing bankruptcy and the fishing industry is failing. 
Given these circumstances, why have you refused to take any interim 
measures that would allow this important industry to continue during 
these difficult times, particularly given the reality that your science 
is not perfect and has changed dramatically from survey to survey?
    Answer. We fully appreciate the importance of this issue to the New 
England groundfish industry. We have worked hard to implement measures 
that will help the industry adjust to the economic realities associated 
with significant cuts to iconic species. These efforts include 
increasing access to healthy stocks and slowing the transition of 
observer costs from the Federal government to the industry.
    Last year, based on the unique situation presented at the time, we 
implemented interim measures under Section 305(c) of the Magnuson-
Stevens Fishery Conservation and Management Act in setting catch limits 
for Gulf of Maine cod. As these measures reduced, but did not end 
overfishing in 2012, some economic impacts to the fishery were 
mitigated. We notified the industry and the Council that this authority 
was only valid for one year and the Council adopted measures that ended 
overfishing for this stock for the 2013 fishing year. In addition, 
allowing overfishing on this stock for another year, in light of the 
current science that indicates that the stock is not recovering and 
that quotas will not be increasing in the near future, would contribute 
to its declining status, which would harm the fishing industry even 
further, and would violate our obligations under the Magnuson-Stevens 
Act. Generally, groundfish quotas are reviewed and updated annually by 
the Council based on the best available science.

    Question 4. Recently, NOAA highlighted the importance of helping 
our fishermen with at-sea monitoring costs. However, instead of 
committing to find a way to provide full funding for at-sea monitoring 
costs, you fell short and basically said you ``will try.'' That is just 
unacceptable. I know these are tough times for everyone, but NOAA does 
have funds. The Saltonstall-Kennedy Act, for example, directs 30 
percent of the duties on imported fish products to a grant program to 
benefit the U.S. fishing industry. In 2010, that was equal to $113 
million. Of that $113 million, $104.6 million went to NOAA's operations 
budget, and only $8.4 million was used by NOAA for our fisheries. That 
is completely unacceptable. Considering the state of the Massachusetts 
fishing industry, how is it possible that NOAA is not using this 
funding to help our fishermen and fishing businesses, as Congress 
intended? And what are your plans for using Saltonstall-Kennedy Act 
funds to help New England fisheries with at-sea monitoring costs, 
science, and economic assistance?
    Answer. NOAA remains committed to working to fund the 2013 at-sea 
monitoring costs. At present, we believe we can fund these costs.
    The Saltonstall-Kennedy (S-K) Act calls for funds to be used to 
support the U.S. fishing industry through Research and Development. 
Funding is derived from a transfer from the USDA to NOAA from duties on 
imported fishery products. Since 1979 Congress has transferred, through 
the appropriations bill, a portion of the S-K funds to NOAA's 
Operations, Research and Facilities (ORF) account for activities that 
the industry wants and needs, including cooperative research, stock 
assessments, survey and monitoring projects, and other fishery 
research.
    The 2013 appropriations bill directs the ORF offset for: Expanded 
Stock Assessments, Fish Information Networks, Survey and Monitoring 
Projects, Interjurisdictional Grants, and Cooperative Research. These 
funding lines support the agency's fisheries science including external 
grants for scientific work with fishermen in New England. For example, 
depending on final numbers, the New England study fleet would be funded 
through the Cooperative Research budget line. The study fleet is a 
subset of fishing vessels from which high quality, self-reported data 
on fishing effort, area fished, gear characteristics, catch, and 
biological observations are collected.
    NOAA will also have funding for a dedicated S-K Program in FY 2013. 
Now that our final spend plan is approved, we are commencing a 
competitive grant process to solicit project proposals and determine 
which ones should be funded. FY 2010 was the last year NOAA had funding 
for a dedicated S-K Program, and proposals selected for funding 
included aquaculture projects and fishing gear cooperative research 
projects to help reduce bycatch and environmental impacts. These are 
examples of projects funded with S-K money that help fishermen.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Marco Rubio to 
                          Hon. Eric C. Schwaab
Saltonstall-Kennedy
    During the hearing, you indicated that you would provide the amount 
of the funding from Saltonstall-Kennedy that Commerce receives each 
year from the Secretary of Agriculture that has gone to the Promote and 
Develop Fisheries national grant program over the last four years. 
Please provide that information.

    Question 1. If the funds have not gone out to support regional 
grants, where has the funding gone? Who decided how those funds should 
be spent?
    Answer. The table supplied as a response to Question #16 (below) 
shows the amount transferred from the USDA into the Promote and Develop 
Fishery Products and Research Pertaining to American Fisheries account, 
the amount that the appropriation bill directs to offset NOAA's 
Operations, Research and Facilities (ORF) account, and the amount 
remaining for the Saltonstall-Kennedy program. The portion of the 
Promote and Develop (P&D) funds that did not go to the National Program 
or competitive grants was directed by Congress to NOAA's ORF Account. 
Historically these funds were executed under the ``Fisheries Research 
and Management Programs'' budget line item. The ORF offset supports 
fisheries research and management activities including the analysis and 
decision-making that support ecosystem approaches to fisheries 
management, fisheries management plan and regulatory implementation, 
development of fisheries regulations and fisheries management plans and 
amendments in order to maintain and restore productive stocks important 
to commercial, recreational, tribal, and subsistence fisheries. In FY 
2012, funds were executed under the following budget line items:

  <bullet> Fisheries Research and Management ($16.0M)

  <bullet> Expand Stock Assessments ($60.4M)

  <bullet> Survey and Monitoring Projects ($21.7M)

  <bullet> Cooperative Research ($11.0M)

    These are some of the core funding lines that support the fisheries 
science mission including vessel surveys, stock assessments and 
collaborative science with the fishing industry. The Expand Annual 
Stock Assessments and Survey and Monitoring Projects lines support the 
science to set annual catch limits to prevent overfishing and maximize 
fishing opportunity. Cooperative research enables commercial and 
recreational fishermen to become involved in collecting fundamental 
fisheries information to support the development and evaluation of 
management options in their fishery. This year, NOAA will use the funds 
transferred from the Promote and Develop account in accordance with the 
FY 2013 Appropriations Act language: ``That in addition, $119,064,000 
shall be derived by transfer from the fund entitled `Promote and 
Develop Fisheries Products and Research Pertaining to American 
Fisheries,' which shall only be used for fishery activities related to 
Cooperative Research, Annual Stock Assessments, Survey and Monitoring 
Projects, Interjurisdictional Fisheries Grants, and Fish Information 
Networks. . .'' The FY 2014 budget request also proposes to use the 
funds to offset these accounts for the same activities as FY 2013.

    Question 2. Is there a detailed accounting of how those funds have 
been spent over the past four years? If so, please provide. If not, 
why?
    Answer. More information on the transfer of funds from USDA to P&D, 
and the allocation between the ORF offset and Saltonstall Kennedy 
Grants over the last four years is provided below. In 2013, $11.2M is 
available for Saltonstall-Kennedy grants. For details on the 
Saltsonstall-Kennedy program, please see the Saltonstall-Kennedy 
reports to Congress through FY 2011.\5\
---------------------------------------------------------------------------
    \5\ http://www.nmfs.noaa.gov/mb/financial_services/skhome.htm

----------------------------------------------------------------------------------------------------------------
                         in millions                            FY 2010      FY 2011      FY 2012      FY 2013
----------------------------------------------------------------------------------------------------------------
S-K Transfer from USDA to Promote and Develop (P&D)                $113.3        $90.2       $109.1       $130.2
----------------------------------------------------------------------------------------------------------------
Transfer from P&D to offset ORF                                    $104.6        $90.2       $109.1       $119.1
----------------------------------------------------------------------------------------------------------------
Dept. of Ag funds available for Saltonstall-Kennedy grants           $8.8           $0           $0        $11.2
----------------------------------------------------------------------------------------------------------------
                                           Saltonstall-Kennedy Grants
----------------------------------------------------------------------------------------------------------------
Competitive Program                                                  $4.8           $0           $0          tbd
----------------------------------------------------------------------------------------------------------------
National Program                                                     $3.5           $0           $0          tbd
----------------------------------------------------------------------------------------------------------------
Administrative Costs                                                 $0.5           $0           $0          tbd
----------------------------------------------------------------------------------------------------------------
Total                                                                $8.8           $0           $0        $11.2
----------------------------------------------------------------------------------------------------------------
*Subtotals may not sum due to rounding


    Question 3. When funding from Saltonstall-Kennedy is transferred to 
NOAA's Operations, Research, and Facilities (ORF) account, are you 
required to use 100 percent of the transferred funds for the authorized 
uses under the Saltonstall-Kennedy Act as amended (15 U.S.C. 713c-3)?
    Answer. The Appropriations bills each year include language 
directing transfer of a portion or all of the P&D account to the ORF 
account to support fisheries activities. The difference between the 
total transferred from the USDA and the amount Congress directs NOAA to 
use to offset fisheries activities is the amount available for 
Saltonstall-Kennedy grants.
    Historically, transferred funds to the ORF account were executed 
under the ``Fisheries Research and Management Programs'' budget line 
item. In FY 2012, funds were executed under the following budget line 
items:

  <bullet> Fisheries Research and Management ($16.0M)

  <bullet> Expand Stock Assessments ($60.4M)

  <bullet> Survey and Monitoring Projects ($21.7M)

  <bullet> Cooperative Research ($11.0M)

    These are some of the core funding lines that support the fisheries 
science mission including vessel surveys, stock assessments and 
collaborative science with the fishing industry.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
